AUDIT OF THE OFFICE OF JUSTICE 

 PROGRAMS’ MONITORING AND 

 OVERSIGHT OF RECOVERY ACT 

                   AND

  NON-RECOVERY ACT GRANTS

         U.S. Department of Justice 

       Office of the Inspector General

                Audit Division 


              Audit Report 11-19
                March 2011
       AUDIT OF THE OFFICE OF JUSTICE PROGRAMS’ 

      MONITORING AND OVERSIGHT OF RECOVERY ACT 

            AND NON-RECOVERY ACT GRANTS



                        EXECUTIVE SUMMARY


      The Office of Justice Programs (OJP) is the Department of Justice’s
(Department) largest granting agency. Its grant programs are intended to
improve the nation's capacity to prevent and control crime, improve the
criminal and juvenile justice systems, increase knowledge about crime and
related issues, and assist crime victims. For fiscal years (FY) 2008 through
2010, OJP made almost 14,000 grant awards, totaling more than $7.7 billion
to state and local law enforcement and community organizations. This
included more than 4,000 grants, totaling about $2.8 billion, under the
American Recovery and Reinvestment Act of 2009 (Recovery Act).

      To help ensure the accomplishment of grant goals, proper use of
funds, and compliance with program requirements, OJP must effectively
monitor and oversee the grants it awards.

      In 2005, Congress passed the Violence Against Women and
Department of Justice Reauthorization Act of 2005, which authorized the
establishment of OJP’s Office of Audit, Assessment, and Management
(OAAM). The primary purpose of OAAM is to conduct and coordinate
program assessments of grants awarded by OJP and the Department’s Office
of Community Oriented Policing Services (COPS Office). OAAM was
envisioned as an effective internal auditing entity that would complement
the external auditing provided by the Department of Justice Office of the
Inspector General (OIG). The law requires OAAM to annually assess grants
representing not less than 10 percent of the aggregate amount of money
awarded under all such grant programs and to report on grantee compliance
and grant effectiveness. The Act provided that OJP could use up to 3
percent of all grant funds each fiscal year to fund this oversight office.

      While OAAM reviews and assesses DOJ grants and grant programs,
direct responsibility for monitoring grantees also rests with OJP bureaus and
program offices and the COPS Office. In addition, OJP’s Office of the Chief
Financial Officer (OCFO) is responsible for the financial monitoring of OJP,
the Office on Violence Against Women (OVW), and COPS Office grants.
OIG Audit Approach

      The Department of Justice OIG is conducting a series of reviews of the
Department’s overall implementation of the Recovery Act.1 As part of these
reviews, we conducted this audit to evaluate the adequacy of OJP’s plans
and efforts for monitoring and overseeing Recovery Act and non-Recovery
Act grants. The scope of this audit covered OJP’s grant monitoring and
oversight efforts planned or conducted in FYs 2009 and 2010. Because OJP
shares some monitoring responsibilities with the Office of Community
Oriented Policing Services (COPS Office) and the Office on Violence Against
Women (OVW), the Department’s other principal granting agencies, this
report also refers to those agencies.

      Our audit work included interviews of OJP officials responsible for
implementation, monitoring, and oversight of OJP’s Recovery Act and
non-Recovery Act grants. Appendix I contains a more detailed description of
our audit objective, scope, and methodology.

OIG Results in Brief

       Initially after OAAM’s creation in January 2006, OJP made slow
progress in staffing OAAM and in ensuring that OAAM’s monitoring efforts
were effective. At the time of a Senate Judiciary hearing in January 2008
regarding Oversight of the Department of Justice’s Forensic Grant Programs,
OAAM had not hired a permanent director and only one of OAAM’s three
divisions was close to filling the positions that had been created.2 OAAM’s
Audit and Review Division was close to filling its allotted positions, with 15 of
that division’s 18 planned positions (federal and contract) filled. The
Program Assessment Division had vacancies in 6 of its 13 positions (federal
and contract). In addition, OJP had not hired any of the three federal staff
positions for OAAM’s Grants Management Division. The OIG’s assessment as
of January 2008, 2 years after the passage of the Reauthorization Act, was
that OJP had not devoted sufficient effort to ensuring that OAAM was
adequately staffed to oversee and monitor OJP grants, despite the
congressional directive and the importance of OAAM’s mission.


      1
         U.S. Department of Justice Office of the Inspector General, Office of Justice
Programs’ Recovery Act and Non-Recovery Act Programs for Edward Byrne Memorial Justice
Assistance Grants and Byrne Competitive Grants, Audit Report 10-43, (August 2010).
      2
         Glenn A. Fine, Inspector General, Department of Justice, before the Senate
Committee on the Judiciary concerning “Oversight of the Department of Justice's Forensic
Grant Programs” (January 23, 2008),
http://www.usdoj.gov/oig/testimony/t0801/index.htm.
                                            ii
       Since that time, OJP hired a permanent director of OAAM, increased
the number of OAAM federal and contractor positions from 35 to 49, and
filled all 49 positions.3 Rather than using the 3 percent of annual grant
funding allowed by law to establish a larger staff within OAAM, OJP chose
instead to use existing staff in the OJP program offices and bureaus that
perform on-site monitoring of grants.4 OAAM provides oversight of the
monitoring performed by these program offices and bureaus.

       We believe that OJP and OAAM, while initially slow to implement this
approach, have developed a reasonable process for providing monitoring to
a high volume of grants. This approach has allowed OJP to monitor grants
totaling almost 4 times the award amount required to be monitored by law.

       Our audit also concluded that with permanent leadership and a more
than 120 percent increase in OAAM staff since January 2008, OAAM has
made significant efforts to improve its monitoring and oversight of both
Recovery Act and non-Recovery Act grant recipients. Specifically, OAAM has
made improvements in monitoring and oversight that include:
(1) establishing a working group to review existing monitoring practices and
develop standard monitoring approaches and procedures; (2) developing
and enhancing grant tools such as the Grants Management System, Grant
Monitoring Tool, and the Grant Assessment Tool; (3) updating oversight and
monitoring procedures in the Grant Manager’s Manual; and (4) making
progress on revising the site visit report quality review process to improve
site visit documentation and the quality of site visit reports.

      OJP also developed comprehensive plans for overseeing its Recovery
Act and non-Recovery grants, such as OJP’s Program-Specific Plan for
Management of Recovery Act Funds, the Office of the Chief Financial
Officer’s Financial Monitoring and Technical Assistance Plan, and OAAM’s
Recovery Act Post-Award Performance and Risk Management Plan. During
our audit, we reviewed draft versions of these plans and provided comments
to OJP. As we identified concerns with OJP’s plans, OJP generally took
prompt actions to address those concerns. For example, one concern we
had was that OAAM’s draft Recovery Act Post-Award Performance and Risk
Management Plan did not provide training covering whistleblower protection
for Department and grantee employees, and did not provide training for
grantees on coverage of risk-prone management areas such as financial

       3
          According to an OAAM official, OAAM’s 49 positions include 26 federal government
positions and 23 contracted positions.
       4
          According to an OCFO official, while 3 percent was permitted under authorizing
statutes to fund OAAM, in practice this amount has not been appropriated to OJP.
                                             iii
management, internal controls, and reporting financial and program results.
OAAM responded to this concern by including provisions for such training in
its final performance plan.

       Our audit also found that OAAM ensured that OJP’s bureaus and
program offices met the requirement of the Violence Against Women and
Department of Justice Reauthorization Act of 2005 that OJP assess grants
representing not less than 10 percent of the aggregate amount of money
awarded under all grant programs. In FY 2010, OJP completed monitoring
activities for grants totaling about $3 billion out of the open and active
grants totaling about $8.4 billion. This monitoring level of about 36 percent
exceeded the 10 percent monitoring level required by the law.

       While OJP has significantly improved its monitoring and oversight of
grants, additional improvements can be made. We found that OJP’s
program offices and bureaus do not consistently and thoroughly assess the
programmatic, financial, and administrative areas of the grants, and they do
not retain adequate documentation to support their review work. In
addition, the OJP’s Office of the Chief Financial Officer needed to more
clearly describe the methodology it uses to select grants for financial
monitoring and document the grant selection based on the methodology.

     In our report, we make 13 recommendations to assist OJP in further
improving its monitoring and oversight of OJP grant programs.

      The remaining sections of this Executive Summary describe our audit
findings in more detail.

OJP’s Monitoring and Oversight Improvements

       In FY 2007, OJP began making improvements to its monitoring and
oversight of grant activities and operations primarily through the efforts of
OAAM. However, OJP was slow to staff OAAM in FY 2007. As of September
2007, OJP had not hired a permanent director for OAAM and only one of
OAAM’s three divisions was close to fully staffed. OAAM’s Audit and Review
Division had 7 vacancies among its 18 (10 federal and 8 contract) planned
positions, while the Program Assessment Division had 10 vacancies among
its 14 (9 federal and 5 contract) planned positions, and all 4 of OAAM’s
Grants Management Division allotted federal positions were vacant. In
January 2008, the Department of Justice Inspector General testified before
the Senate Committee on the Judiciary that OJP had made slow progress in
staffing OAAM and in ensuring that OAAM’s monitoring efforts were effective.
At that time, OJP had not hired a permanent OAAM director and OAAM’s
Audit and Review Division was still the only OAAM division close to fully
                                       iv
staffed with 15 of that division’s 18 planned positions filled. OJP had
reduced the Program Assessment Division’s vacancies from 10 positions to
6 positions and had not filled any of the 3 Grants Management Division
positions allotted at that time.5

      OJP’s improvement efforts have significantly increased since
FY 2008 — OJP hired a permanent director to head OAAM in January 2009,
increased the number of federal government and contracted positions for
OAAM to 49, and filled all 49 positions as of May 2009.

       In FY 2007, OAAM convened a working group of representatives from
OJP’s bureaus and offices and from the COPS Office to review existing
monitoring practices.6 The working group developed a comprehensive,
standard monitoring approach and procedures that included:
(1) development of a grant monitoring plan containing a schedule of grantee
monitoring site visits; (2) establishment of quarterly reviews of OJP’s and
the COPS Office’s monitoring plans to evaluate progress in implementing the
plans and to assess the quality of site visit reports; (3) development of a
grant monitoring tool containing standardized on-site monitoring procedures
and monitoring report format; and (4) establishment of a grant assessment
tool that created a common, organized framework and methodology for
systematically and objectively assessing risk associated with grants and
grant recipients.

     Examples of other OJP monitoring and oversight improvements since
FY 2007 are shown in Exhibit 1.




      5
         According to data provided by OJP, the allotted federal positions for OAAM’s
Program Assessment Division and Grants Management Division decreased by one position
each from September 2007 to January 2008.
      6
         The OVW participated in the monitoring working group through May 2007 after
which the working group did not meet for the remainder of the year. Although the working
group reconvened in February 2008, OVW did not rejoin the working group until March
2010.

                                           v
    Exhibit 1: Examples of OJP’s Monitoring and Oversight Improvements

                         FY 2007 through FY 2010


                                 FY 2007 Improvements
 Created a program assessment function to collect, integrate, and analyze grantee-
 generated reporting, grant monitoring documentation, performance measurement
 data, and other primary data sources to assess program performance and grantee
 compliance for future policy, budget, and funding decisions.
 Developed an OJP-wide policy to coordinate activity for high-risk grantees.
 Provided a 2-day training course to new grant managers on basic grant
 management principles and effective grant monitoring techniques.
                                 FY 2008 Improvements
 Implemented a program assessment function to examine and report on the
 compliance with and performance of OJP grants.
 Issued an OJP-wide peer review policy and procedures document to improve the
 peer review process within OJP’s bureaus and offices.
                                 FY 2009 Improvements
 Conducted internal reviews of OJP’s processes and made recommendations to
 enhance and strengthen internal controls as required by Office and Management
 and Budget Circular A-123, “Management’s Responsibility for Internal Control.”
 Released a new Grants Management System monitoring module.
 Developed detailed policies in the Grant Manager’s Manual related to grant
 documentation, grant issuance, and resolution of grant issues.
 Provided targeted grant monitoring training to OJP grant managers.
                                 FY 2010 Improvements
 Made progress on revising the site visit report quality review process to improve
 site visit documentation and the quality of site visit reports.
 Assisted OJP program offices and the OCFO to better coordinate monitoring plans to
 ensure that joint site visits are conducted, not only among OJP program offices and
 the OCFO, but also with the OVW and the COPS Office.
 Changed its monitoring threshold levels to include an additional requirement of
 10 percent of the total number of active grants.7
Source: OIG analysis of OAAM operations


       As this exhibit indicates, since the establishment of OAAM, OJP has
 made a significant commitment to improving the monitoring and oversight of
 grants.

 OJP’s Monitoring and Oversight Plans

       The Office of Management and Budget’s (OMB) Recovery Act guidance
 required each federal agency receiving Recovery Act funds to develop a
 formal documented plan for how the Recovery Act funds would be applied

        7
          Because of its large volume of awards, OJP’s Bureau of Justice Assistance is 

 required to conduct on-site monitoring of 5 percent of its total number of active grants.

                                               vi
and managed. According to OMB’s guidance, the agency plan should
describe both broad Recovery Act goals and how different parts of the
agency are coordinating efforts toward successful implementation and
monitoring. The agency plan was required to contain a summary table
listing each Recovery Act program and the amount of Recovery Act funds
covered by the plan broken-out by appropriation title.

      OMB also required separate plans for each Recovery Act program
specifically named in the legislation, and that to the extent possible, each
agency’s Recovery Program Plan should be a summary of the specific
Recovery Act projects and activities planned.

      We reviewed the Department’s Agency Plan for Management of
Recovery Act Funds, which was published in May 2009. We found that it
met the OMB criteria for an agency plan because it described the broad
Recovery Act goals, explained how different parts of the agency would
coordinate efforts toward successful implementation and monitoring, and
contained a summary table listing each Recovery Act program and the
associated Recovery Act funding.

      We also reviewed OJP’s Program-Specific Plan for Management of
Recovery Act funds published in May 2009, and updated in June 2009 and
June 2010, to correct funding amounts, planned completion dates, and
update annual milestones and performance measures. We concluded that
OJP’s Program-Specific plan adequately addressed 10 of the 13 minimum
requirements established by the OMB. Three of the minimum requirements
were not adequately addressed, as shown in Exhibit 2.

              Exhibit 2: Evaluation of OJP’s Program-Specific 

               Recovery Act Plan for Minimum Requirements 


                          Plan                            Addressed in
                       Requirement                         OJP’s Plan
      Funding Table                                           Yes
      Objectives                                              Yes
      Activities                                              Yes
      Characteristics                                         Yes
      Delivery Schedule                                       Yes
      Environmental Review Compliance                         No
      Savings or Costs                                        No
      Measures                                                Yes
      Monitoring/Evaluation                                   Yes
      Transparency                                            Yes


                                      vii
                           Plan                               Addressed in
                        Requirement                            OJP’s Plan
      Accountability                                              Yes
      Barriers to Effective Implementation                        No
      Federal Infrastructure Investments                          Yes
     Source: OIG analysis of OJP’s Program-Specific Plan for Management

             of Recovery Act Funds 


      OJP’s plan did not mention the environmental review compliance
requirement to describe the status of compliance with the National
Environmental Policy Act, National Historic Preservation Act, and related
statutes. OJP’s plan also made no mention of the requirement that the plan
include expected increases or reductions in future operational costs. In
addition, although OJP’s plan contained a section on Transparency,
Accountability, and Barriers to Effective Implementation, it did not
adequately address the barriers to effective implementation requirement.
The plan also did not contain a list or description of statutory and regulatory
requirements, or other known matters, which could affect implementation of
Recovery Act activities and proposed solutions.

      An OJP official told us that OJP’s plan did not address the
environmental and cost issues because of uncertainty about the extent to
which OJP’s Recovery Act grantees would be involved with projects that
would involve environmental issues, or that would result in costs savings and
future cost increases. The official stated that OJP’s grantees are required to
accept a grant special condition requiring compliance with the National
Environmental Policy Act (NEPA) if such issues should arise. OJP’s plan did
not address the statutory or regulatory requirements impediments because
OJP did not identify any statutory or regulatory requirements that would
impede OJP’s implementation of the Recovery Act. OMB approved OJP’s plan
and we believe the explanations provided by the OJP official provide a
reasonable basis for excluding the three OMB requirements from the plan.

       We also reviewed OJP’s Program-Specific Plan to determine if Recovery
Act funding identified in OJP’s plan tied to Recovery Act funding identified in
the Department’s Agency Plan. We found that the Department’s Agency
Plan identified $2,762,000,000 in Recovery Act funding for OJP, while OJP’s
Program-Specific Plan identified only $2,755,024,000 in Recovery Act
funding, a difference of $6,976,000, which an OAAM official attributed to
management and administration costs. In addition, OJP’s plan did not
identify the funding by the same programs identified in the Department’s
plan. Consequently, it is not readily transparent how OJP’s use of Recovery
Act funds corresponded to the Department’s planned use of Recovery Act
funds.
                                         viii
      OJP drafted or established numerous other plans and procedures for
overseeing and monitoring both Recovery Act and non-Recovery Act grants,
including the following.

      	 OAAM’s Post-Award Performance and Risk Management Plan

      	 Recovery Act Recipient Reporting: Data Quality Review Process and
         Procedures

      	 OAAM’s FY 2009 Site Visit Report Quality Review Process

      	 OAAM’s FY 2010 On-site Validation Pilot Program

      	 OJP’s FY 2010 Standard Site Visit Checklist

      	 OJP’s Recovery Act Site Visit Checklist and Desk Review Addendum

      	 OCFO’s FY 2010 Financial Monitoring and Technical Assistance Plan
         for Department of Justice Grants

      We reviewed these plans and procedures and found them to be
generally adequate for effective oversight and monitoring of grants. As
discussed below, we noted some weaknesses in the plans and procedures,
and OJP generally took prompt actions during the audit to address most of
the weaknesses.

OAAM’s Post-Award Performance and Risk Management Plan

       At the request of OAAM, we reviewed its Draft Post-Award
Performance and Risk Management Plan related to Recovery Act activities.
We informed OAAM of concerns we identified in the draft plan, and OAAM
revised and issued the plan in final. OAAM’s final plan and additional
explanations adequately addressed most of our concerns, except for those
related to the OJP’s oversight of the OVW and COPS Office. Our concern in
this area is that OAAM and the OCFO should be providing certain oversight
and support services for the OVW and COPS Office that they provide for OJP.
For example, OAAM performs oversight of monitoring activities and program
assessments for OJP and the COPS Office, but not for the OVW.

      According to an OAAM official and an OVW official, by statute, OAAM
must have the Attorney General’s permission to exercise oversight authority
of programs outside of OJP and COPS, and the Attorney General has not
granted such authority. An OAAM official told us that officials in the Office of
the Associate Attorney General are aware of this issue. We discussed the
                                     ix
inconsistencies in services with a Deputy Associate Attorney General in the
Office of the Associate Attorney General, who told us that meetings have
been held with the Associate Attorney General to discuss the OVW oversight
issue. However, before making a proposal to the Attorney General, the
official said that the Office of the Associate Attorney General wanted to
ensure that: (1) coordinated oversight and consistent policies and
procedures exist for all grant programs in the Department, and (2) funding
has been identified to pay for the oversight.

       In another example, the OCFO provides financial reviews and
clearances of grant application budgets to OJP, but not to the COPS Office or
the OVW because, according to an OCFO official, the OVW believes the OCFO
charges too much for these services and the OVW would prefer to perform
the services in-house and has recently staffed its new Grant Financial
Management Division. An OVW official told us that OVW does not use the
OCFO to provide financial review and budget clearance services because the
OVW: (1) believes that it can provide better customer service to its
grantees and program managers, (2) wants to establish subject matter
experts for its grants, and (3) believes it would be less costly to hire its own
staff or contractors to perform these services.

       The OCFO official told us that financial reviews and clearances of grant
application budgets are not provided to the COPS Office because of the
latter’s provision of the services in-house. The COPS Office told us it
believes that it makes more sense for it to conduct the financial review and
budget clearance because of the knowledge gained from conducting the
programmatic reviews.

      While the OVW and COPS Office appear to have a reasonable basis for
performing some oversight and financial services in house, we remain
concerned that the capability to perform these services has been well
established in OAAM and the OCFO and that the capability is not being fully
used by the OVW and the COPS Office.

      As discussed in this report, the Department has established OAAM as
the primary office with responsibility for monitoring and oversight of
Department grants. While OJP was slow to staff OAAM, our audit found that
OAAM has now filled its allotted positions and is improving the oversight and
monitoring that it performs of OJP grants. Despite these improvements,
OVW and the COPS Office perform certain monitoring and oversight services
that we believe are duplicative of the services available through OAAM and
OJP’s Office of the Chief Financial Officer. To eliminate such duplication and
to provide uniformity in oversight among Department granting agencies, we

                                       x
believe that the Department should standardize the oversight services
provided to the OVW and the COPS Office.

Recovery Act Recipient Reporting: Data Quality Review Process and
Procedures

      At the request of OJP’s Deputy Assistant Attorney General, we
reviewed OJP’s draft “Recovery Act Recipient Reporting: Data Quality
Review Process and Procedures.” We identified various concerns about the
procedures and provided OAAM with our concerns. OAAM updated its data
quality review process and procedures, which adequately addressed our
concerns.

      At the request of the Recovery Accountability and Transparency Board,
we also participated in a government-wide Recovery Act Reporting Data
Quality Review. Based on our work, we issued two reports, one in October
2009 and the other in February 2010.8

       Our first report noted that the Department had made significant efforts
to develop data quality review processes and procedures for ensuring that
data reported by Recovery Act funding recipients is complete and accurate.
The Department’s Justice Management Division developed automated
screening and data validation systems to support awarding agencies’
verification of recipients’ reports and to enable the Department as a whole to
identify any material omissions and significant errors. The Department’s
granting agencies separately developed quality review processes that appear
to provide effective means for assessing the quality of the reported
information and correcting any deficiencies identified. We concluded that
further process improvements would be useful as the initial Recovery Act
reporting is completed and experience is gained with the reporting system.

      Our second report noted that Department components were making
progress towards ensuring that recipients of Recovery Act funds submit
quarterly reports to www.FederalReporting.gov as required, and for ensuring
that the data reported is accurate. For the initial reporting period ended
September 30, 2009, the Department reported to OMB a total of




       8
          U.S. Department of Justice Office of the Inspector General, Review of Department
of Justice Data Quality Procedures for Recovery Act Recipient Reports (October 2009), and
U.S. Department of Justice Office of the Inspector General, Review of Department of Justice
Data Quality Procedures for Recovery Act Recipient Reports Phase II, Report Number 10-16,
(February 2010).
                                            xi
733 Recovery Act recipients out of 4,050 (18 percent) that did not submit
the required reports. Of the 733 non-reporting recipients, 548 were OJP
recipients; 166 were COPS Office recipients; 18 were OVW recipients; and
1 was an Alcohol, Tobacco, Firearms and Explosives (ATF) recipient. For the
subsequent reporting period ended December 31, 2009, the Department
reported to OMB a total of 155 Recovery Act recipients out of 4,039
(4 percent) that did not submit the required reports. Of the
155 non-reporting recipients, 121 were OJP recipients; 32 were COPS Office
recipients; and 2 were OVW recipients.

OAAM’s FY 2009 Site Visit Report Quality Review Process

      OJP’s bureaus and program offices perform on-site monitoring of a
selected number of grantees each year. OJP has established a site visit
checklist containing the grant requirements that bureau and program offices
should assess while performing the site visits. The results of the on-site
monitoring are documented in site visit reports prepared by the bureaus and
program offices. OAAM is in the process of establishing a procedure to
review the site visit reports to ensure their quality. OAAM is also making
progress on revising its site visit report review process by developing and
using a standard checklist to score site visit reports both on the
completeness and level of detail associated with the information in the
report. We reviewed OAAM’s draft process and checklist and identified
concerns, including the following.

     	 OAAM staff reviewed component-prepared review reports and
        scored each report separately for coverage of required compliance
        tests and inclusion of sufficient detail regarding findings. However,
        OAAM’s revised process did not define how the scores for
        compliance tests and report detail should be combined to determine
        the quality of the report. We suggested that OAAM consider
        removing as much of the subjectivity as possible from the site visit
        report rating system by defining the percentage scores that would
        yield a quality report.

     	 The revised process guidelines did not define actions to be taken
        based on the results of the quality review results. We suggested
        that the guidelines define what actions OAAM will take to address
        the deficiencies in each report reviewed, as well as the actions that
        OAAM will take to minimize such deficiencies system-wide for future
        site visit reports. Such actions could include additional guidance
        and training for the grant managers performing the site visits.


                                    xii
      	 The revised process guidelines did not clearly require that the site
         visit report be supported by the site review checklist. An OAAM
         staff member told us that OAAM had found weaknesses in
         documenting links between the work completed during the on-site
         monitoring visit using the site visit checklist and the written site
         visit report. The official told us that during initial working group
         meetings, OAAM’s intent was for the program offices and bureaus
         to incorporate the site visit checklist into the report. At the time of
         the release of the Grants Management System Monitoring Module,
         OAAM believed that the need for the grant managers to upload the
         checklist into the Grants Management System would be
         unnecessary because grant managers were certifying the use of the
         checklist in the system. The OAAM official told us that they have
         also observed instances where report findings do not tie to the
         monitoring checklist.

       OAAM revised the site visit checklist instructions in April 2010 to make
it clear that the checklist is to be completed for each site visit and
maintained by uploading it into the Grants Management System. As of
January 2011, OAAM was working with the monitoring working group to
finalize a revised site visit checklist. Once the checklist is finalized, OAAM
plans to revise its site visit quality review process based on the suggestions
we made during the audit.

OAAM’s FY 2010 On-site Validation Pilot Program

       To ensure that OJP grant managers follow site visit guidelines and that
information collected during site visits is accurately reflected in the site visit
reports, OAAM drafted procedures for a pilot program for conducting site
visit validations. Under the pilot program, an OAAM evaluator would conduct
pre-site visit, on-site, and post-site activities. During this audit, we
identified multiple concerns with OAAM’s draft on-site validation pilot
program process, including the following.

      	 We believe that having an OAAM evaluator accompany the grant
         manager to observe the grant manager’s monitoring activities
         would not result in an accurate representation of how the grant
         manager normally performs the on-site visits. Because the grant
         manager would know that the OAAM evaluator was observing, the
         grant manager would be more likely to ensure that the site visit
         procedures were carefully followed.

      	 The OAAM validation checklist contained 36 questions to be
         answered “yes,” “no,” or “not applicable” based on testing multiple
                                     xiii
         compliance requirements. For example, one checklist question was
         to determine if the grant manager completed a comparison of
         progress reports with the rate of expenditures. To answer this
         question, the OAAM evaluator had to determine whether the grant
         manager: (1) addressed any issues of incomplete or delinquent
         progress reports with the grantee, (2) determined whether the
         grantee adequately obligated and expended grant funds in
         accordance with the project timeline, and (3) reviewed financial
         reports in conjunction with progress reports to compare the rate of
         expenditures against projected activity levels. We believe that each
         checklist question should cover a single compliance requirement so
         the OAAM evaluator can address each step of the review process.

       In January 2011, an OAAM official told us that OAAM no longer plans
to implement the on-site validation pilot program. Rather, as part of its site
visit report quality review process, OAAM will review the adequacy of the
grant manager’s report and supporting documentation.

OJP’s FY 2010 Standard Site Visit Checklist and OJP’s Recovery Act Site Visit
Checklist and Desk Review Addendum

      To help ensure that OJP grant managers complete adequate and
consistent evaluations during on-site monitoring visits, OAAM revised the FY
2010 Standard Site Visit Checklist. The checklist contains steps for
evaluating implementation of the grant in the areas of: (1) entrance
interview, (2) financial review, (3) administrative – award file review,
(4) administrative – personnel review, (5) programmatic review, (6) grant
administration, (7) exit interview, and (8) other items if appropriate.

       In addition to the standard site visit checklist, OAAM, in collaboration
with the monitoring working group, also developed the Recovery Act Site
Visit Checklist and Desk Review Addendum (RA Checklist) to be used when
completing site visits of Recovery Act grants. The RA Checklist was
developed to ensure that unique requirements of the Recovery Act grants,
such as the reporting requirements and special conditions, are evaluated
during the site visits.

      We reviewed the checklists and identified concerns, including the
following.

      	 The checklist instructions are not clear on what is required of the
         grant managers performing the on-site monitoring visits. The
         instructions state that the grant managers are required to complete
         all the elements contained in the checklist for a full monitoring visit
                                       xiv
        and certify that they have reviewed all the elements when they
        complete their site visit report in the Grants Management System.
        However, the instructions also state that it is strongly
        recommended that the grant managers use the checklist to review
        grantee progress during the site visit. In addition, the instructions
        do not require the grant managers to maintain the checklists and
        documentation to support their answers to the checklist questions.

     	 The checklist does not provide a methodology for completing review
        steps. For example, one checklist step requires a review of
        personnel timesheets to ensure that charges related to staffing are
        in line with the proposed budget. The guidance does not provide a
        methodology for selecting the timesheets for review, such as how
        many of the OJP grants should be reviewed; how many employees
        should be selected from each grant; how many timesheets should
        be selected for each employee; and whether the specific timesheets
        should be selected randomly, statistically, or judgmentally.

     	 The checklist instructions did not establish a time frame for
        completing the on-site monitoring visits. OAAM officials told us the
        site visits are generally planned for 1 to 3 days. However, we
        believe that the site visit checklist contains more steps than can be
        effectively and sufficiently answered during a 1- to 3-day site visit.
        The checklist contains 27 steps, most of which contain multiple
        sub-steps that must be answered to address the overall step.
        Moreover, some of the steps and sub-steps require detailed data
        analyses to sufficiently answer the steps. For example, the step
        discussed previously regarding reviewing personnel timesheets
        requires multiple sub-steps and various analyses that could be
        time-consuming based on the extent of the testing.

      In April 2010, OAAM revised the instructions for the FY 2010 Standard
Site Visit Checklist to require that the grant managers complete and
maintain the checklist. As of January 2011, OAAM was working with the
monitoring working group to make further revisions to the site visit
checklists based on the suggestions we made during the audit.




                                     xv
OCFO’s FY 2010 Financial Monitoring and Technical Assistance Plan for
Department of Justice Grants

      OJP’s Office of the Chief Financial Officer (OCFO) annually prepares a
financial monitoring and technical assistance plan to monitor financial
performance of program participants. We reviewed the OCFO’s FY 2010
Financial Monitoring and Technical Assistance Plans for Department of
Justice Grants to determine what steps the OCFO had taken to address the
management and oversight of programs, projects, and activities funded
through Recovery Act and non-Recovery Act programs. We found that the
OCFO’s plan contained adequate steps to monitor the financial aspects of
grantee recipients, including recipients that received Recovery Act funds.

     We also found that the OCFO actually completed more reviews than
planned in FY 2010, as shown in Exhibit 3.

                 Exhibit 3: OCFO On-site and Desk Reviews 

                    Planned and Completed for FY 2010


                                               FY 2010
                  Type Review            Planned   Completed
                On-site                    410         475
                Desk                       528         550
               Source: OJP’s Office of the Chief Financial Officer

       We noted, however, that the OCFO did not clearly document how it
had selected the grants for review in FY 2010. While the OCFO’s plan
identified the risk factors used for grant selection, it did not describe how
grants are selected for review based on the risk factors. Through interviews
with OCFO officials, we learned that for some of the risk factors the OCFO
selects 100 percent of the grants having the risk factor. For other risk
factors, the OCFO selects a lower percentage of the grants having the risk
factor, ranging from 25 percent to 75 percent. However, the selection
methodology contained in the OCFO’s plan did not provide the percentages
for each risk factor and did not explain the rationale for selecting all grants
for some risk factors and less than all grants for other risk factors. For the
grants selected for review in FY 2010, the OCFO did not maintain
documentation to show the factors used to select each grant.

      In January 2010, OJP’s OAAM completed a review of the OCFO’s
financial monitoring process and identified similar concerns. OAAM found
that the OCFO: (1) needed to reexamine its risk-assessment model to
ensure that it is comprehensively identifying, weighing, and prioritizing the
factors that place grants in the most need of financial monitoring; and
                                         xvi
(2) should collaborate more with the program offices in both deciding which
grants to monitor and in conducting joint site visits. OAAM reported that
while the OCFO risk-assessment model included important risk factors, such
as program office referrals, awards greater than $1 million, and awards
based on a formula grant, the model does not weigh or rank those factors.
Further, OAAM found that the risk-assessment model does not include risk
factors based on grantee behavior, such as whether the grantee had
delinquent submission of financial status or progress reports, or the “red
flag” indicators identified by the OIG of high-priority grantees, including prior
grant mismanagement and prior fraud. Moreover, OAAM said the OCFO
needed to ensure that it is considering the most important factors when
selecting grantees for site visits. As a result, OAAM recommended that the
OCFO reexamine its risk-assessment model to ensure that it
comprehensively identifies, weights, and prioritizes the factors that place
grants in the most need of financial monitoring.

      On September 29, 2010, OAAM closed the recommendation based on
corrective action by the OCFO. According to an OAAM official, the OCFO’s
corrective action included restructuring its FY 2011 Financial Monitoring Plan
to use a risk-assessment model that calculates a score for grants and
grantees. The OAAM official told us that the restructured risk-assessment
model considers 20 different factors, including the score from the OJP Grant
Assessment Tool, and weighs the risk and relative importance of these
factors for each grant and grantee. The OCFO provided us its draft risk
assessment process included in its draft FY 2011 Financial Monitoring and
Technical Assistance Plan. An OCFO official told us they were in the final
stages of selecting grantees for FY 2011 monitoring and expected to
continue to refine the plan during the selection process. We reviewed the
draft process and determined that it appears to address the concerns we
raised, as well as the concerns raised by OAAM.

Conclusion and Recommendations

       Overall, we found that OJP has made significant improvements in its
monitoring and oversight of grants, including Recovery Act grants. The
establishment of OJP’s OAAM in FY 2005 has been a significant reason for
the monitoring and oversight improvements. While OJP was slow to hire a
permanent director of OAAM and to fill its allotted positions, a permanent
director was hired in January 2009 and OAAM had filled all of its 49 federal
and contractor positions as of May 2009. While OJP could have chosen to
use the 3 percent of annual grant funding allowed by law to establish a much
larger staff within OAAM to actually perform the on-site monitoring of grants
awarded, it chose instead to implement a model in which the OJP program
offices and bureaus use existing staff to perform on-site monitoring of grants
                                      xvii
awarded, and OAAM provides oversight and review of the monitoring
performed by the program offices and bureaus.

      We believe that that OJP and OAAM, while initially slow to implement
this approach, have developed a reasonable approach for monitoring and
overseeing Department grants. This approach has allowed OJP to monitor
grants totaling almost 4 times the award amount required to be monitored by
law.

       Since selecting a director for OAAM and increasing OAAM’s staffing
over the past 2 years, OAAM has worked steadily to develop plans, policies,
and procedures to improve OJP’s monitoring and oversight. During the
audit, often at the request of OAAM, we reviewed numerous draft plans,
policies, and procedures developed by OAAM. OAAM usually took prompt
actions to address the concerns we identified.

      However, we believe that OAAM and the OCFO should provide some of
the oversight and support services for the OVW and COPS Office that they
provide for OJP. Therefore, we believe that the Department should
standardize the oversight services provided to the OVW and the COPS Office.

       While OJP has significantly improved its monitoring and oversight
of grants, additional improvements can be made. For example, we found
that OJP’s program offices and bureaus do not consistently and
thoroughly assess the programmatic, financial, and administrative areas
of the grants; nor do they retain adequate documentation to support
their review work. In addition, the OCFO needed to clearly describe the
methodology used to select grants for financial monitoring and maintain
documentation that the grants were selected using the methodology.

       Our report contains 13 recommendations to OJP, including
recommendations to: (1) update the OJP Program-Specific Plan for
Management of Recovery Act Funds to ensure the transparency of Recovery
Act funding; (2) revise OAAM’s Site Visit Report Quality Review Process to
explain how deficiencies will be corrected when found and minimized OJP-
wide in the future; (3) revise and clarify instructions for the Standard Site
Visit Checklist; and (4) better describe the OCFO’s monitoring plan and
document grants selected based on the monitoring methodology.




                                     xviii
                                TABLE OF CONTENTS



                                                                                             Page

INTRODUCTION ...........................................................................           1   

  Program Office and Bureau Monitoring and Oversight .......................                       2   

  OAAM Monitoring and Oversight ....................................................               2   

  OCFO Monitoring and Oversight ....................................................               4   

  OIG Audit Objective and Approach.................................................                6   


FINDING AND RECOMMENDATIONS..............................................                          7


   OJP’S MONITORING AND OVERSIGHT OF RECOVERY ACT

   AND NON-RECOVERY ACT GRANTS ...........................................                         7   

   OJP’s Monitoring and Oversight Improvements ................................                    9   

   OJP’s Monitoring and Oversight Plans.............................................              12   

   Conclusion .................................................................................   41   

   Recommendations.......................................................................         42   


STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ....                                            44 


STATEMENT ON INTERNAL CONTROLS..........................................                          45 


ABBREVIATIONS ..........................................................................          46 


APPENDIX I – Audit Objective, Scope, and Methodology ..............                               47 


APPENDIX II – Office of Audit, Assessment, and Management’s 

 Monitoring and Oversight Improvements during FY 2007 ..........                                  49 


APPENDIX III – Office of Audit, Assessment, and Management’s 

 Monitoring and Oversight Improvements during FY 2008 ..........                                  51 


APPENDIX IV – Office of Management and Budget’s Minimum 

 Requirements for Inclusion in Agencies’ Recovery 

 Program Plans...........................................................................         55 


APPENDIX V – Office of Audit, Assessment, and Management’s 

 Draft FY 2009 Site Visit Report Quality Review Process .............                             57 


APPENDIX VI – Office of Audit, Assessment, and Management’s 

 Draft FY 2010 On-Site Validation Pilot Program .........................                         66 

                                                                                   Page


APPENDIX VII – Office of Audit, Assessment, and Management’s 

 Draft FY 2010 Standard Site Visit Checklist ............................... 82 


APPENDIX VIII – OJP’s Recovery Act Site Visit Checklist and Desk 

 Review Addendum..................................................................... 105 


APPENDIX IX – Office of the Associate Attorney General’s

 Response to the Draft Audit Report ........................................... 118 


APPENDIX X – OJP’s Response to the Draft Audit Report.............. 120 


APPENDIX XI – Office of the Inspector General Analysis and 

 Summary of Actions Necessary to Close the Report ................... 126 

                              Introduction

      The Office of Justice Programs (OJP) is the Department of Justice’s
(Department) primary grant awarding agency. Since its establishment in
1984, OJP has provided grants to improve the nation's capacity to prevent
and control crime, improve the criminal and juvenile justice systems,
increase knowledge about crime and related issues, and assist crime victims.
From October 1, 2008, through September 23, 2010, OJP made 13,850
grant awards totaling more than $7.7 billion to state and local law
enforcement and community organizations. The grant awards included
4,010 grants, totaling about $2.8 billion, funded by the American Recovery
and Reinvestment Act of 2009 (Recovery Act).

       Grant monitoring is the collection of formal processes used to
continuously assess the programmatic and fiscal performance of a grant.
OJP is responsible for monitoring its grants to ensure that: (1) adequate
progress is being made towards achieving each grant project’s goals,
objectives, and targets; (2) federal grant funds are expended in accordance
with relevant statutes, regulations, administrative requirements, and Office
of Management and Budget circulars; and (3) federal funds are used
responsibly. Grant monitoring and oversight is an integrated process of
programmatic, financial, and administrative management that occurs
throughout the grant lifecycle from award through the closeout of program
activity.

      Programmatic monitoring includes reviewing the content and
substance of the program, and it should include a qualitative or quantitative
review to determine grant performance. Programmatic monitoring assesses
whether grant activities are consistent with the grant implementation plan
and responsive to grant goals and objectives stated in the original
application. It also should include assessing whether grant recipients need
technical assistance related to their grants, and assessing the
implementation of projects and suggesting necessary modifications.

      Financial monitoring includes a general review of grant recipient
financial reports, as well as a review of grant expenditures compared to the
approved budget and the activities completed. Financial monitoring seeks to
ensure compliance with financial guidelines and general accounting
practices, and to make determinations on the allowability of grant
expenditures.

     Administrative monitoring includes analyzing compliance with grant
terms and conditions, reporting requirements, and completeness of
documentation in OJP’s Grants Management System.
     Monitoring and oversight responsibilities for OJP’s Recovery Act and
non-Recovery Act grants are shared among OJP’s program offices and
bureaus responsible for making the awards; Office of Audit, Assessment, and
Management (OAAM); and Office of the Chief Financial Officer (OCFO).

Program Office and Bureau Monitoring and Oversight

     OJP has the following seven program offices and bureaus that award
and oversee grants.

        Bureau of Justice Assistance (BJA) 

        Bureau of Justice Statistics (BJS) 

        Community Capacity Development Office (CCDO) 

        National Institute of Justice (NIJ) 

        Office for Victims of Crime (OVC) 

        Office of Juvenile Justice and Delinquency Prevention (OJJDP) 

        Office of Sex Offender Sentencing, Monitoring, Apprehending, 

         Registering, and Tracking (SMART)

      Monitoring by program offices and bureaus is primarily carried out by
program managers responsible for the grants. The monitoring should
include:

     	 communication with grantees through e-mail, mail, or phone calls
        to address specific grantee questions or program manager concerns
        regarding compliance or performance;

     	 completion of desk reviews of the materials in a grantee file to
        determine administrative, financial, and programmatic compliance,
        as well as grantee performance; and

     	 for selected grants, completion of site visits that include on-site
        monitoring at program facilities or events and in-person visits with
        grantees.

OAAM Monitoring and Oversight

      In 2005, Congress passed Public Law 109-162, the Violence Against
Women and Department of Justice Reauthorization Act of 2005, which
authorized the establishment of OAAM. The primary purpose of OAAM is to
carry out and coordinate program assessments of grants awarded by OJP
and the Department’s Office of Community Oriented Policing Services (COPS
Office).

                                      2

        While direct responsibility for monitoring grantees rests with bureaus
and program offices, OAAM is responsible for oversight of monitoring
activities at OJP. This oversight includes developing OJP-wide grant
monitoring standards, procedures, and tools; coordinating the development
of the bureaus’ and program offices’ programmatic monitoring annual plans;
tracking updates to the plans to ensure that required monitoring levels are
being met; and reviewing grant on-site monitoring reports to assess the
quality and completeness of monitoring activities.

       OAAM is responsible for:

       	 ensuring financial grant compliance and auditing of OJP’s internal
          controls to prevent waste, fraud, and abuse;

       	 conducting program assessments of OJP and the Office of
          Community Oriented Policing Services (COPS Office) grant
          programs;

       	 overseeing monitoring activities; and

       	 serving as a central source for grant management policy.

      Some of OAAM’s oversight and support activities extend to the Office
on Violence Against Women (OVW) and the COPS Office, as shown in
Exhibit 4.

          Exhibit 4: Summary of Support and Oversight Provided by

              OJP’s OAAM to OJP, the OVW and the COPS Office


                Oversight Activity                   OJP     OVW       COPS
 Single audit coordination                                             
 High-risk grantee designation                                         
 Assessment of internal control processes related     
 to the Grants Management System
 Oversight of monitoring activities                                      
 Program assessments                                                     
 Grants Management System                                     
 Grants management training                           
 Grants management reports (includes support          
 from the Office of the Chief Information Officer)
Source: Office of Justice Programs




                                          3

In the Finding and Recommendations section of this report, we discuss the
reasons for OAAM’s limited support services for the OVW and COPS Office
and describe our concerns.

      OAAM also performs coordination and oversight activities in support of
OJP’s implementation of the Recovery Act to ensure that the goals of the
Recovery Act are met and that the risk of waste, fraud, error, or abuse is
mitigated.

      OAAM accomplishes its responsibilities through the work of the
following three divisions.

      	 The Audit and Review Division conducts internal reviews of OJP
         processes and makes recommendations to enhance and strengthen
         internal controls, coordinates all activity related to audits of OJP
         operations and OJP grants, and coordinates the process for
         grantees designated as high risk.

      	 The Program Assessment Division conducts assessments of grant
         programs and initiatives and oversees programmatic monitoring.

      	 The Grants Management Division leads the development of grants
         management related policies and procedures, including the annual
         update of the Grant Manager’s Manual; develops and facilitates
         training of OJP staff and grantees; maintains the operations of the
         Grants Management System; and coordinates OJP-wide peer review
         activities.

OCFO Monitoring and Oversight

     The OCFO provides fiscal policy guidance as well as accounting,
budget, financial and grants management, and claims collection services to
OJP bureaus and offices, and to OJP grantees.

     The OCFO has four divisions.

     	 The Budget Execution, Planning, and Performance Division manages
        the performance measurement and reporting process, works to
        ensure fund availability and control during the grant award process,
        allocates and tracks OJP funds, and develops OJP’s strategic plan.

      	 The Budget Formulation Division plans, develops, and coordinates
         OJP’s annual budget submissions to the Department, the Office of

                                      4

            Management and Budget, and Congress; and serves as the OJP
            congressional appropriations liaison.

        	 The Finance, Accounting, and Analysis Division prepares and
           reports on audited financial statements and other financial reports;
           provides technical and financial assistance to grantees and program
           offices; develops and implements financial management policy;
           provides customer service support to grantees and program offices;
           oversees financial reports preparation for both internal and external
           stakeholders; and provides financial operations, including
           overseeing the operations of OJP financial systems.

        	 The Grants Financial Management Division assesses the fiscal
           integrity capability of prospective award recipients, performs
           pre-award grant budget reviews and award certifications, works to
           ensure federal funds are properly accounted for by conducting
           on-site financial monitoring reviews and performing OCFO-based
           financial reviews, conducts financial management training to
           grantees and program offices, and provides financial policy
           guidance and technical assistance to OJP staff and award recipients.

        As shown in Exhibit 5, some but not all of the OCFO’s monitoring
 activities extend to the OVW and the COPS Office.

         Exhibit 5: Summary of Support and Monitoring Provided by
       OJP’s OCFO to OJP, the OVW, and the COPS Office during FY 2010

                 Oversight Activity                     OJP        OVW          COPS
Financial monitoring                                                            
Financial management training                                      
Financial review and clearance of grant                             9
application budgets
Withholding of funds for delinquent submission of                                
financial and progress reports and noncompliance
with other administrative and programmatic
requirements
                                                                         9
Certification of the availability of funding                        
Grantee funding disbursements                                                    
Source: Office of Justice Programs




        9
         The OCFO provided this oversight activity through May 2010, and ceased because
 the OVW decided to provide these services in-house.

                                           5
In the Finding and Recommendations section of this report we discuss why
the OCFO does not provide some support services for the OVW and COPS
Office and describe our concerns.

OIG Audit Objective and Approach

     The Department of Justice Office of the Inspector General (OIG)
conducted this audit to evaluate the adequacy of OJP’s plans and efforts for
monitoring and overseeing Recovery Act and non-Recovery Act grants.

      To accomplish the audit objective, we interviewed OJP officials,
including officials from OJP’s bureaus and program offices, to: (1) obtain
laws, regulations, and guidelines related to the oversight and monitoring of
grants; and (2) identify the actions taken by OJP to monitor and oversee its
grants. We also performed testing to determine the adequacy of OJP’s
actions to monitor and oversee grants. Appendix I contains a more detailed
description of our audit objective, scope, and methodology. The results of
our audit testing are discussed in the finding section.




                                      6

         FINDING AND RECOMMENDATIONS



OJP’S MONITORING AND OVERSIGHT OF RECOVERY ACT
AND NON-RECOVERY ACT GRANTS

Our audit found that OJP has made significant efforts to improve
its monitoring and oversight of both Recovery Act and
non-Recovery Act grant recipients. While OJP was slow to hire a
director and staff for OAAM, we found that OAAM has:
(1) established a working group to review existing monitoring
practices and develop standard monitoring approaches and
procedures; (2) developed and enhanced grant tools such as the
Grants Management System, Grant Assessment Tool, and the
Grant Monitoring Tool, which was replaced by the Grant Monitoring
Module; (3) updated oversight and monitoring procedures in the
Grant Manager’s Manual; and (4) made progress in revising the site
visit report quality review process to improve site visit
documentation and the quality of site visit reports.

OJP also developed comprehensive plans for overseeing its
Recovery Act and non-Recovery Act grants. These plans include
OJP’s Program-Specific Plan for Management of Recovery Act
Funds, the Office of the Chief Financial Officer’s Financial
Monitoring and Technical Assistance Plan, and OAAM’s Recovery
Act Post-Award Performance and Risk Management Plan. During
our audit, we reviewed these plans and provided feedback to OJP.
As we identified concerns with OJP’s plans, OJP took prompt
actions to address most of those concerns.

OAAM has also ensured that OJP’s program offices and bureaus
performed monitoring for at least 10 percent of OJP’s open and
active grants as required by law. However, while OJP has
significantly improved it’s monitoring and oversight of grants,
additional improvements can be made. We found that OJP’s
program offices and bureaus do not consistently and thoroughly
assess the programmatic, financial, and administrative areas of the
grants; nor do they retain adequate documentation to support
their review work. In addition, we found that the OCFO needed to
more clearly describe the methodology it uses to select grants for
financial monitoring and maintain documentation that the grants
were selected based on the methodology.


                               7

      Section 1158 of Public Law 109-162, the Violence Against Women and
Department of Justice Reauthorization Act of 2005, established OJP’s Office
of Audit, Assessment, and Management.10 In April 2007, Congress approved
a revision to the OJP organizational chart to include OAAM. In August 2007,
the Acting Associate Attorney General approved the internal organizational
design for OAAM that included its three current divisions.

       In January 2008, the Department of Justice Inspector General testified
before the Senate Committee on the Judiciary that OJP had made slow
progress in staffing OAAM and in ensuring that OAAM’s monitoring efforts
were effective. At that time, OAAM had not hired a permanent director and
only one of OAAM’s three divisions was close to fully staffed. OAAM’s Audit
and Review Division was close to filling its planned positions, with 15 of that
division’s 18 planned positions filled. The Program Assessment Division had
vacancies in 6 of its 13 planned positions. In addition, OJP had not filled any
of the three federal staff positions for OAAM’s Grants Management Division.
The OIG’s assessment as of January 2008, 2 years after the passage of the
Reauthorization Act, was that OJP had not devoted sufficient effort to
ensuring that OAAM was adequately staffed to oversee and monitor OJP
grants, despite the congressional directive and the importance of OAAM’s
mission.

       Since that time, OJP hired a permanent director of OAAM in late 2008
and the director came on board in January 2009. OJP also increased the
number of OAAM positions (government and contracted) from 35 to 49, and
has filled all 49 positions with government and contracted workers. Rather
than using the 3 percent of annual grant funding allowed by law to establish
a larger staff within OAAM, OJP chose instead to use existing staff in OJP
program offices and bureaus that perform on-site monitoring of grants.11
OAAM provides oversight of the monitoring performed by these program
offices and bureaus. We believe that OJP and OAAM, while slow to initially
implement this approach, have developed a reasonable approach for
monitoring and overseeing Department grants. This approach has allowed
OJP to monitor grants totaling almost 4 times the award amount required to
be monitored by law.




       10
            42 U.S.C. § 3712d (2006).
       11
           According to an OCFO official, while 3 percent was permitted under authorizing
statutes to fund OAAM, in practice this amount has not been appropriated to OJP.
                                             8

OJP’s Monitoring and Oversight Improvements

      Since FY 2007, OJP has made improvements to its monitoring and
oversight of grant activities and operations, especially through efforts of
OAAM. In FY 2007, OAAM convened a working group of representatives
from OJP’s bureaus and offices, and from the COPS Office to review existing
monitoring practices. The working group and OAAM developed a more
comprehensive, standard monitoring approach and procedures that included
the following.

     	 Grant Monitoring Plan: This plan contained a schedule of
        programmatic and fiscal monitoring site visits created to hold
        offices accountable for oversight of grant programs, and to ensure
        that each office has information needed to coordinate monitoring
        activities.

     	 Grant Monitoring Quality Control Review: Quarterly reviews of
        the OJP’s and the COPS Office’s monitoring plans were established
        by OAAM to evaluate progress in implementing the plans and to
        assess the quality of site visit reports.

     	 Grant Monitoring Tool: This tool contains standardized on-site
        monitoring procedures and a monitoring report format that allows
        grant managers to monitor grants and cooperative agreements
        consistently. The tool also increases oversight of OJP’s grant
        programs through analysis and follow up of monitoring findings by
        grant managers.

     	 Grant Assessment Tool: This tool established a common,
        organized framework and methodology for systematically and
        objectively assessing risk associated with grants and grant
        recipients. The tool also helps ensure that grant recipients needing
        assistance are aided through an on-site monitoring visit. In
        addition, the tool helps grant managers prioritize monitoring
        activities based on potential vulnerabilities.

      In addition to these activities, OAAM made other monitoring and
oversight improvements in FY 2007, as summarized in Appendix II.

     In FY 2008, OAAM developed and enhanced grant tools such as the
Grants Management System, Grant Monitoring Tool, and the Grant
Assessment Tool. In addition, during FY 2008 OAAM made numerous other
improvements related to grant oversight, grant management and

                                     9

administration, and business processes and internal controls. These
improvements are summarized in Appendix III.

      In FY 2009, OAAM made further enhancements to improve compliance
with the policies and procedures in the Grant Manager’s Manual, strengthen
grant recipient oversight, and ensure that grant recipients receive consistent
and quality feedback and assistance from grant managers. These
enhancements included:

      	 releasing a new Grants Management System monitoring module;

      	 developing detailed policies in the Grant Manager’s Manual related
         to grant documentation, grant issuance, and resolution of grant
         issues; and

      	 providing targeted grant monitoring training to OJP grant
         managers.

     During FY 2010, OAAM implemented the following activities aimed at
improving OJP-wide grant monitoring.

      	 OAAM revised the site visit report quality review process to improve
         site visit documentation and the quality of site visit reports. Based
         on results of OAAM’s quality reviews of FY 2009 site visit reports, as
         well as discussions with the OIG, OAAM determined the need for
         further improvements in OJP’s monitoring activities that included
         the following.

            o	 In April 2010, OJP issued a revised Standard Site Visit
               Checklist requiring grant managers to upload the checklist
               into the Grants Management System as support
               documentation for the grant managers’ site visit reports.

            o	 OAAM began reviewing the Standard Site Visit Checklist for
               FY 2011 with the OJP Monitoring Working Group to determine
               if the length of the checklist is too long to be accomplished in
               a typical 1.5 day site visit.

            o	 OAAM made plans to work with the OJP Monitoring Working
               Group in revising the checklist format so that grant managers
               can better support their findings in the site visit reports.



                                      10

             o	 OAAM made plans to provide annual training to all OJP grant
                managers regarding deficiencies noted during component
                review work.

             o	 OAAM made plans to re-assess the improvements of OJP’s
                monitoring activities after the first quarter of FY 2011.

      	 OAAM launched an effort to ensure that the Grant Assessment Tool
         provides grant managers with the information they need to make
         and track their monitoring decisions and to conduct informative
         desk reviews. OAAM worked with the Monitoring Working Group to
         identify and implement updates to the existing Grant Assessment
         Tool, which were rolled out for the FY 2011 assessment period.

      	 OAAM assisted OJP program offices and the OCFO to better
         coordinate monitoring plans to ensure that joint site visits are
         conducted by OJP program offices, the OCFO, OVW, and the COPS
         Office.

      	 With the enactment of the Recovery Act, OJP has additional
         responsibility to ensure transparency and accountability of the use
         of Recovery Act grant funds through enhanced monitoring.
         Beginning in FY 2010, in addition to completing an annual Grant
         Assessment Tool desk review, grant managers are required to
         complete the “Recovery Act Desk Review and Site Visit Checklist”
         addendum. The Recovery Act addendum outlines the new
         requirements of the Recovery Act and associated guidance from
         OMB.

      	 OJP enhanced its monitoring threshold levels to include an
         additional requirement that 10 percent of total active grants be
         reviewed annually.12 This threshold will be in addition to OJP’s
         statutory requirement to programmatically monitor at least 10
         percent of its open, active award dollars. The 10-percent statutory
         requirement was to ensure adequate on-site monitoring of OJP
         grant awards. However, for many OJP bureaus and program
         offices, it was possible to meet the 10-percent statutory threshold
         with on-site visits to a small number of grantees with high-dollar
         awards. OJP established the new threshold levels to ensure that
         OJP monitors an adequate number of grants, while continuing to

      12	
          Because of the large number of open, active Bureau of Justice Assistance (BJA)
awards, OJP required that BJA monitor 5 percent of the number of open, active awards as of
October 1, 2009.
                                           11

        work toward improving grantee administrative, financial, and
        programmatic compliance, as well as grantee performance.

OJP’s Monitoring and Oversight Plans

      OMB’s Recovery Act guidance requires each federal agency receiving
recovery funds to develop a formal documented plan for how the recovery
funds would be applied and managed. The agency plan should describe both
broad Recovery Act goals and coordination efforts within the agency toward
successful implementation and monitoring. The agency plan was required to
contain a summary table listing each Recovery Act program and the amount
of Recovery Act funds covered by the plan broken-out by appropriation title.

      OMB also requires separate plans for each Recovery Act program
specifically named in the legislation. To the extent possible, each agency’s
Recovery Program Plan should be a summary of the specific Recovery Act
projects and activities planned. Each Recovery Program Plan was to contain
the 13 minimum requirements as detailed in Appendix IV.

Department of Justice Agency Plan

      In May 2009, the Department’s Justice Management Division published
its Agency Plan for Management of Recovery Act Funds. The plan,
subsequently updated in June 2010, summarized how the Department’s
nearly $4 billion in Recovery Act funds would be distributed, as shown in
Exhibit 6.




                                     12

                 Exhibit 6: Summary of Recovery Act-Funded Programs

 Appropriations           Department            Total             Allocation to Component Programs
       Title              Component           Funding                           and Purpose
 State and Local     Office of Justice      $2.765 billion   $2 billion – Edward Byrne Memorial Justice
 Law Enforcement     Programs (OJP)                          Assistance Grant Program funding for a broad
 Assistance,                                                 range of activities to prevent and control crime
 Recovery Act                                                and improve the criminal justice system.
                                                             $225 million – Edward Byrne Competitive
                                                             Grant Program funding to help communities
                                                             address targeted needs.
                                                             $225 million – Grant funding for
                                                             construction/renovation of correctional
                                                             facilities on tribal lands.
                                                             $125 million – Grant funding for rural law
                                                             enforcement activities related to preventing
                                                             and combating drug-related crime.
                                                             $40 million – Grant funding for law
                                                             enforcement activities along the southern
                                                             border and in high-intensity drug trafficking
                                                             areas (includes $10 million of pass-through
                                                             funding for the Bureau of Alcohol, Tobacco,
                                                             Firearms and Explosives).
                                                             $50 million – Grant funding for initiatives
                                                             related to internet crimes against children.
                                                             $100 million – Grant funding for victim
                                                             compensation and assistance.
 Community           Office of Community    $1 billion       $1 billion – Grant funding for the COPS Hiring
 Oriented Policing   Oriented Policing                       Recovery Program to hire and rehire additional
 Services,           Services (COPS)                         career law enforcement officers.
 Recovery Act
 Violence Against    Office on Violence     $225 million     $175 million – Grant funding to support the
 Women               Against Women                           work of state, local, and tribal governments
 Prevention and      (OVW)                                   and domestic violence and sexual assault
 Prosecution,                                                coalitions.
 Recovery Act                                                $50 million – Transitional Housing Assistance
                                                             Grant Program funding to provide victims of
                                                             crimes against women with transitional
                                                             housing services and to move such individuals
                                                             into permanent housing.
 Salaries and        Office of Justice      $10 million      $10 million – Administrative funding to the
 Expenses, Office    Programs (OJP)                          Office of Justice Programs, further allocated as
 of Justice                                                  follows:
 programs,                                                   OJP:     $7.0 million
 Recovery Act                                                COPS: $2.5 million
                                                             OVW: $0.5 million
 Salaries and        Bureau of Alcohol      (Funding         $10 million – Funding to support Project
 Expenses,           Tobacco, Firearms      received         Gunrunner for the Southwest Border Initiative
 Recovery Act        and Explosives (ATF)   through OJP)     to reduce cross-border drug and weapons
                                                             trafficking and violence on the border.
 Office of the       Office of the          $2 million       $2 million – Funding for oversight activities
 Inspector           Inspector General                       and functions related to Recovery Act funding.
 General,            (OIG)
 Recovery Act
 Totals              Five Components      $4.002          ($3.990 billion or 99.7 percent is for
                                          billion         grants)
Source: Final Department of Justice Agency Plan for Management of Recovery Act Funds

                                                     13
       The plan described the broad Recovery Act goals, explained how
different parts of the agency would coordinate efforts toward successful
implementation and monitoring, and contained a summary table listing each
Recovery Act program and the associated Recovery Act funding. The plan
indicated that the Department would use the Recovery Act funds to promote
the nation’s security, prevent crime, and enforce federal laws. The funds
would cover a broad range of activities that include:

     •	 creating and preserving jobs;

     •	 preventing and controlling crime, including drug-related crime;

     •	 strengthening community policing;

     •	 supporting the work of state, local, and tribal governments to
        reduce violence against women and provide services to victims of
        such crimes; and

     •	 reducing drug and weapons trafficking and violence on the
        southwest border.

Office of Justice Program’s Program-Specific Plan

      In May 2009, OJP published its Program-Specific Plan for Management
of Recovery Act funds, and in June 2009 and June 2010 published updated
plans to correct funding amounts and planned completion dates, and to
update annual milestones and performance measures. We reviewed OJP’s
Program-Specific plan to determine if it contained the 13 minimum
requirements prescribed by OMB. We found that the plan did adequately
address 10 of the 13 requirements but did not adequately address the
remaining 3, as shown in Exhibit 7.

              Exhibit 7: Evaluation of OJP’s Program-Specific 

               Recovery Act Plan for Minimum Requirements 


                         Plan                          Addressed in
                      Requirement                       OJP’s Plan
      Funding Table                                        Yes
      Objectives                                           Yes
      Activities                                           Yes
      Characteristics                                      Yes
      Delivery Schedule                                    Yes
      Environmental Review Compliance                      No
      Savings or Costs                                     No

                                     14

                           Plan                               Addressed in
                        Requirement                            OJP’s Plan
      Measures                                                    Yes
      Monitoring/Evaluation                                       Yes
      Transparency                                                Yes
      Accountability                                              Yes
      Barriers to Effective Implementation                        No
      Federal Infrastructure Investments                          Yes
     Source: OIG analysis of OJP’s Program-Specific Plan for Management

             of Recovery Act Funds 


      OJP’s plan did not mention the environmental review compliance
requirement, which determines compliance with the National Environmental
Policy Act (NEPA), National Historic Preservation Act, and related statutes, or
the savings or costs requirement that would address expected increases or
reductions in future operational costs. The plan contained a section on
Transparency, Accountability, and Barriers to Effective Implementation, but
that section did not describe statutory and regulatory requirements, or other
matters that may impede Recovery Act implementation.

       An OJP official told us the plan did not address the environmental and
cost issues because of uncertainty about the extent to which OJP’s Recovery
Act grantee projects would involve environmental issues, or result in costs
savings or future cost increases. In addition, grantees must accept a grant
special condition requiring compliance with NEPA. OJP’s plan did not address
statutory or regulatory requirements or impediments because no such
requirements or impediments were known. OMB approved OJP’s plan, and
we believe the explanations provided by OJP provide a reasonable basis for
excluding the three OMB requirements from the plan.

      We also reviewed OJP’s Program-Specific Plan to determine if the
Recovery Act funding identified in OJP’s plan tied to the Recovery Act
funding identified in the Department’s Agency Plan. The Department’s final
Agency Plan identified $2,762,000,000 in Recovery Act funding for OJP,
while OJP’s Program-Specific Plan identified only $2,755,024,000 in
Recovery Act funding, a difference of $6,976,000, which an OAAM official
attributed to management and administration costs. In addition, OJP’s plan
did not identify the funding by the same programs identified in the
Department’s plan. Consequently, it was not readily apparent how OJP’s use
of $6,976,000 in Recovery Act funds tied to the Department’s planned use of
Recovery Act funds. Our analysis of the Recovery Act funding identified in
both plans is shown in Exhibit 8.



                                         15

            Exhibit 8: Analysis of Recovery Act Funding Identified in the

              Department of Justice’s Final Recovery Act Agency Plan

                    and OJP’s Program-Specific Recovery Act Plan 


   Department of Justice
       Agency Plan                   OJP Program-Specific Plan                   OIG Analysis
$2 billion – Edward Byrne           $752,889,000 – Bureau of            The OJP Program-Specific Plan was
Memorial Justice Assistance         Justice Assistance Recovery Act     $1,000 below the Department
Grant Program funding for a         Edward Byrne Memorial Justice       Agency Plan for this program
broad range of activities to        Assistance Grant Program Local      because OJP rounded the Justice
prevent and control crime and       Solicitation                        Assistance Grant Local Solicitation
improve the criminal justice        $1,236,110,000 – Bureau of          down to $752,889,000 from
system.                             Justice Assistance Recovery Act     $752,889,078 and also rounded
                                    Edward Byrne Memorial Justice       the Justice Assistance Grant State
                                    Assistance Grant Program State      Solicitation down to
                                    Solicitation                        $1,236,110,000 from
                                    $1,000,000 – Bureau of Justice      $1,236,110,918.
                                    Statistics Recovery Act – Tribal
                                    Crime Data Collection, Analysis,
                                    and Estimation Project
                                    $10,000,000 – National Institute
                                    of Justice Recovery Act Office of
                                    Science and Technology
                                    Applications
Subtotal: $2,000,000,000            Subtotal: $1,999,999,000            Difference: $1,000
$225 million – Edward Byrne         $125,250,000 – Bureau of            The difference of $2,250,000 is
Competitive Grant Program           Justice Assistance Recovery Act     included in the $3,800,000 that
funding to help communities         Edward Byrne Memorial               OJP included under the National
address targeted needs.             Competitive Grant Program           Institute of Justice Recovery Act
                                    $97,500,000 – Office of Juvenile    Research and Evaluation of
                                    Justice and Delinquency             Recovery Act State and Local Law
                                    Prevention Recovery Act National    Enforcement. However, OJP did
                                    and Local Youth Mentoring           not explain this difference in its
                                    Programs                            plan to make the funding
                                                                        transparent.
Subtotal: $225,000,000              Subtotal: $222,750,000              Difference: $2,250,000
$225 million – Grant funding        $225,000,000 – Bureau of            Both plans matched.
for construction/renovation of      Justice Assistance Recovery Act
correctional facilities on tribal   Correctional Facilities on Tribal
lands.                              Lands Program
Subtotal: $225,000,000              Subtotal: $225,000,000              Difference: None
$125 million – Grant funding        $123,775,000 – Bureau of            The difference of $1,225,000
for rural law enforcement           Justice Assistance Recovery Act     resulted because OJP overstated
activities related to preventing    Rural Law Enforcement Assistance:   the $123,775,000 by $25,000
and combating drug-related          Combating Rural Crime               based on OJP’s spending plan, and
crime.                                                                  because the remaining $1,250,000
                                                                        is included in the $3,800,000 that
                                                                        OJP included under the National
                                                                        Institute of Justice Recovery Act
                                                                        Research and Evaluation of
                                                                        Recovery Act State and Local Law
                                                                        Enforcement. However, OJP did
                                                                        not explain this difference in its
                                                                        plan to make the funding
                                                                        transparent.
Subtotal: $125,000,000              Subtotal: $123,775,000              Difference: $1,225,000

                                                   16

  Department of Justice
      Agency Plan                   OJP Program-Specific Plan                     OIG Analysis
$30 million – Grant funding for    $29,700,000 – Bureau of Justice       The difference of $300,000 is
law enforcement activities along   Assistance Recovery Act               included in the $3,800,000 that
the southern border and in high-   Combating Criminal Narcotics          OJP included under the National
intensity drug trafficking areas   Activity Stemming from the            Institute of Justice Recovery Act
(excludes $10 million of pass-     Southern Border of the United         Research and Evaluation of
through funding for the Bureau     States                                Recovery Act State and Local Law
of Alcohol, Tobacco, Firearms                                            Enforcement. However, OJP did
and Explosives).                                                         not explain this difference in its
                                                                         plan to make the funding
                                                                         transparent.
Subtotal: $30,000,000              Subtotal: $29,700,000                 Difference: $300,000
$50 million – Grant funding for    $500,000 – National Institute of      Both plans matched.
initiatives related to internet    Justice Recovery Act Evaluation of
crimes against children.           Internet Child Safety Materials
                                   Used by Internet Crimes Against
                                   Children Task Forces in School and
                                   Community Settings
                                   $2,000,000 – Office of Juvenile
                                   Justice and Delinquency
                                   Prevention Recovery Act Internet
                                   Crimes Against Children Research
                                   Grants
                                   $41,500,000 – Office of Juvenile
                                   Justice and Delinquency
                                   Prevention Recovery Act Internet
                                   Crimes Against Children Task
                                   Force Program Grants
                                   $900,000 – Office of Juvenile
                                   Justice and Delinquency
                                   Prevention Recovery Act National
                                   Internet Crimes Against Children
                                   Data System
                                   $5,100,000 – Office of Juvenile
                                   Justice and Delinquency
                                   Prevention Internet Crimes Against
                                   Children Task Force Training and
                                   Technical Assistance Grants
Subtotal: $50,000,000              Subtotal: $50,000,000                 Difference: None
$100 million – Grant funding       $5,000,000 – Office of Victims of     Both plans matched.
for victim compensation and        Crime Recovery Act – National
assistance.                        Field Generated Training, Technical
                                   Assistance, and Demonstration
                                   Projects
                                   $47,500,000 – Office of Victims
                                   of Crime Victims of Crime Act
                                   Victim Assistance Formula Grant
                                   Program
                                   $47,500,000 – Office of Victims
                                   of Crime Victims of Crime Act
                                   Victim Compensation Formula
                                   Grant Program
Subtotal: $100,000,000             Subtotal: $100,000,000                Difference: None




                                                  17

    Department of Justice
        Agency Plan                  OJP Program-Specific Plan                  OIG Analysis
 $7 million – Administrative                                           OJP did not include the $7 million
 funding to the Office of Justice                                      in administrative funding in its
 Programs (excludes $3 million                                         Program-Specific Plan.
 allocated to COPS and OVW)
 Subtotal: $7,000,000               Subtotal: $0                      Difference: $7,000,000
                                    $3,800,000 – National Institute   The difference of $3,800,000 is
                                    of Justice Recovery Act Research  made up of $2,250,000 for the
                                    and Evaluation of Recovery Act    Edward Byrne Competitive Grant
                                    State and Local Law Enforcement   Program, $1,250,000 for grants
                                    Assistance                        for rural law enforcement, and
                                                                      $300,000 for funds to combat
                                                                      criminal narcotics activity along
                                                                      the southern border of the United
                                                                      States.
 Subtotal: $0                     Subtotal: $3,800,000                Difference: ($3,800,000)
 Grand Total: $2,762,000,000      Grand Total: $2,755,024,000         Difference: $6,976,000
Source: OIG analysis of the Department’s final Agency Plan for Management of Recovery Act
        Funds and OJP’s Program-Specific Plan for Management of Recovery Act Funds


  Other Recovery Act and Non-Recovery Act Grant Oversight and Monitoring
  Plans and Procedures Established by OJP

         OJP drafted or established numerous other plans and procedures for
  overseeing and monitoring both Recovery Act and non-Recovery Act grants
  that included the following.

              OAAM’s Post-Award Performance and Risk Management Plan

              Recovery Act Recipient Reporting: Data Quality Review Process and
               Procedures

              OAAM’s FY 2009 Site Visit Report Quality Review Process

              OAAM’s FY 2010 On-site Validation Pilot Program

              OJP’s FY 2010 Standard Site Visit Checklist

              OJP’s Recovery Act Site Visit Checklist and Desk Review Addendum

              OCFO’s FY 2010 Financial Monitoring and Technical Assistance Plan
               for Department of Justice Grants

       We reviewed each of these plans and procedures and found them to be
  generally adequate to provide effective oversight and monitoring of grants.
  We noted some weaknesses in the plans and procedures, and OJP took


                                                   18

prompt actions to address most of the weaknesses during the audit. Our
analyses of the plans and procedures are discussed in the following sections.

     OAAM’s Post-Award Performance and Risk Management Plan

      In FY 2009, OAAM requested that we review its Draft Post-Award
Performance and Risk Management Plan related to Recovery Act activities.
We reviewed the draft plan and provided the following concerns to OAAM.

     	 The plan referenced support for OJP and the COPS Office, but did
        not mention support for the OVW.

     	 The plan did not contain the methodology used to develop it and
        the connection between the post-award plan and any comparable
        pre-award plan.

     	 The plan did not address some of the specific risk mitigation
        actions, such as risks associated with the contractual use of
        Recovery Act funds and workforce needs, as required by OMB’s
        February 18, 2009, Recovery Act guidance.

     	 The plan did not fully address OMB’s requirement that the plan
        identify the efforts that agencies should take to identify, prioritize,
        and mitigate implementation risks associated with the Recovery Act
        that are specific to the agency and its programs. Specifically, the
        plan did not fully address points related to identifying high-dollar
        recipients, clear and measurable program outputs and outcomes,
        and sufficiency of existing management resources.

     	 The plan did not clearly identify OAAM’s mitigation plans that align
        with specific risks as required by OMB guidance.

     	 The plan needed to show how OAAM would ensure the
        completeness of peer review and award recommendation
        documentation in accordance with guidelines issued by the
        Associate Attorney General regarding documenting grant award
        decisions.

     	 The plan needed to contain alternate approaches to acquire and
        validate recipient data due to uncertainties that existed regarding
        whether recipients would report data directly to a central and
        government-wide system, or whether the Department would report
        the data for grant recipients.

                                     19

     	 The plan section dealing with Grantee and Grant Manager Training,
        should include coverage of whistleblower protection for both
        Department and grantee employees; and for grantees, coverage of
        risk-prone management areas such as financial management,
        internal controls, and reporting financial and program results.

     	 The plan section dealing with Programmatic and Financial Grant
        Monitoring should be clarified to show that the sample of grants
        included in the validation effort would cover all Recovery Act funded
        programs.

      Subsequent to our review, OAAM took prompt actions to revise the
plan and issued it in final in FY 2009. We determined that OAAM’s final plan
adequately addressed most of our concerns. OAAM provided additional
explanations that adequately addressed the remaining issues we raised,
except for concerns we identified related to OJP’s oversight of the OVW and
COPS Office. These concerns are discussed in more detail below.

       As shown previously in Exhibits 4 and 5, OAAM and the OCFO do not
provide certain oversight and support services for the OVW and COPS Office
that they provide for OJP. Specifically, OAAM performs the following support
activities for OJP but not for the OVW.

     	 Assessment of internal control processes related to the Grants
        Management System

     	 Oversight of monitoring activities

     	 Program assessments

     	 Grants management training

     	 Grants management reports (includes support from the Office of
        the Chief Information Officer)

      According to an OAAM official, OAAM, by statute, must have the
Attorney General’s permission to exercise oversight authority of programs
outside of OJP and the COPS Office. For that reason, the OAAM official told
us that OAAM does not perform oversight of monitoring activities or program
assessments for the OVW. The OAAM official said that OAAM does not
perform the other three oversight activities for the OVW because the OVW
provides those services in-house. We asked an OVW official why the OVW
does not have OJP’s OAAM perform the five monitoring services for the
OVW. The OVW official also said that OAAM does not have the authority to
                                     20

provide these services to the OVW without the Attorney General’s approval.
An OAAM official told us that officials in the Office of the Associate Attorney
General are aware of this issue. We discussed the inconsistencies in services
with a Deputy Associate Attorney General in the Office of Associate Attorney
General, who told us that meetings have been held with the Associate
Attorney General to discuss the OVW oversight issue. However, before
making a proposal to the Attorney General, the official said that the Office of
the Associate Attorney General wanted to ensure that: (1) coordinated
oversight and consistent policies and procedures exist for all grant programs
in the Department, and (2) funding has been identified to pay for the
oversight.

      To facilitate coordination among the DOJ grant-making components,
the DOJ-wide Grants Management Challenges Workgroup was convened in
January 2010 by the Office of the Associate Attorney General. This group,
led by the Deputy Associate Attorney General and consisting of
representatives from the COPS Office, OJP, and OVW, meets bi-weekly to
share information and develop consistent practices and procedures in a wide
variety of grant administration and management areas. In FY 2010, the
workgroup developed and implemented procedures for managing a DOJ-
wide high-risk grantee designation program.

      In addition, OAAM provides the following support activities for OJP but
not for the COPS Office.

      	 Assessment of internal control processes related to the Grants
         Management System, as well as other Grants Management System
         support

      	 Grants management training

      	 Grants management reports (includes support from the Office of
         the Chief Information Officer)

      According to the OAAM official, OAAM does not provide these oversight
services for the COPS Office because the COPS Office provides these services
in-house. We asked a COPS Office official why the COPS Office does not
have OJP’s OAAM perform these oversight services for the COPS Office. The
COPS Office official told us that the COPS Office has its own grants
management system that contains data that COPS needs that is not
contained in OJP’s Grants Management System. Therefore, the COPS Office
believes it is better suited to perform these services because it is more
knowledgeable of its grants management system than is OJP.

                                      21

      We found similar issues related to the OCFO’s oversight and support
for the OVW and COPS Office. The OCFO performed financial reviews and
clearance of grant application budgets and certified the availability of funding
for OJP in FY 2010, but discontinued providing these services to the OVW at
the end of May 2010 because the OVW decided to provide the services in-
house. An OCFO official told us that the OVW believes that the OCFO
charges too much for these services and therefore the OVW chooses to
perform these services in-house. We asked an OVW official why the OVW
does not have OJP’s OCFO perform the two monitoring services for the OVW.
The OVW official told us that OVW does not have the OCFO provide the
financial review and budget clearance services because the OVW has
recently staffed its new Grant Financial Management Division and OVW:
(1) believes that it can provide better customer service to its grantees and
program managers, (2) wants to establish subject matter experts for its
grants, and (3) believes it would be less costly to hire its own staff to
perform these services.

      The OCFO performed the following oversight and support activities for
OJP in FY 2010 but not for the COPS Office.

         Financial management training

         Financial review and clearance of grant application budgets

         Certification of the availability of funding

       The OCFO official told us that the OCFO does not provide these
services to the COPS Office because the COPS Office provides these services
in-house. We asked a COPS Office official why the COPS Office does not
have OJP’s OCFO perform the three oversight services for the COPS Office.
For the financial management training, the COPS Office official told us that
because the COPS Office grants have specific requirements that differ from
the requirements for OJP grants, the COPS Office wants to provide specific
training covering those unique requirements. For the financial review and
budget clearance, the COPS Office official told us that it conducts in-depth
programmatic reviews of its grants that include a budget review. Therefore,
the COPS Office believes that it makes more sense for it to conduct the
financial review and budget clearance because of the knowledge it has from
conducting the programmatic reviews. For the certification of availability of
funding, the COPS Office official told us because the COPS Office already
handled the pre-award issues, it made sense for it to also handle the
certification of availability of funds.


                                        22

       While the OVW and COPS Office appear to have a reasonable basis for
performing some monitoring and financial services in house, we remain
concerned that the capability to perform these services has been well
established in OAAM and the OCFO and that such capability is not being fully
utilized.

       The Department has established OAAM as the primary office with
responsibility for monitoring and oversight of Department grants. While OJP
was slow to staff OAAM, our audit found that OAAM now has filled its allotted
positions and is continually improving the oversight and monitoring that it
performs of OJP grants. Despite these improvements, the OVW and the
COPS Office perform certain oversight and support services that are
duplicative of the services available through OAAM and OJP’s Office of the
Chief Financial Officer. To eliminate such duplication and to provide
uniformity in oversight among the Department’s granting agencies, we
believe that the Department should standardize the oversight services
provided to OVW and the COPS Office.

     Recovery Act Recipient Reporting: Data Quality Review Process and
     Procedures

      In late FY 2009, OJP’s Deputy Assistant Attorney General requested
that we review OJP’s draft document entitled “Recovery Act Recipient
Reporting: Data Quality Review Process and Procedures.” OJP developed
the process and procedures in collaboration with the Department’s Justice
Management Division. We reviewed the draft process and procedures and
provided OJP with concerns that we had regarding the process and
procedures. The questions and concerns we raised included the following.

     	 Screening protocols needed to be documented for all data elements
        and acceptable values defined for each element.

     	 Best practices should be identified from existing post-award
        administration and monitoring processes.

     	 OJP needed to clarify who within OJP (program office, OAAM, or
        other) will notify grantees of data quality issues, the severity of the
        issues, and OJP’s expectations for addressing issues. Also, OJP
        needed to define the issues that are verifiable and severe.

     	 OJP needed to clarify notification procedures that define which
        issues, because of their severity, require immediate correction and
        which may be corrected in future reports.

                                      23

       	 OJP needed to specify procedures for how and when it will
          incorporate findings from data quality reviews into the risk
          assessment plan to identify and mitigate risks through
          compensating controls and actions.

       	 OJP needed to identify the automated screening techniques and the
          procedures for screening reports and when the techniques and
          procedures would be in place.

       	 OJP needed to identify the procedures for reviewing data elements
          and sampling recipient reports.

       	 In the area of risk assessment, OJP needed to specify the
          procedures OAAM will use to collect and analyze pertinent grant
          information and report it to program offices, grant managers, and
          grantees.

       	 OJP needed to identify the final OAAM guidance to be used to
          conduct assessments of Recovery Act grant programs and define
          the process for the selection of grant programs for assessments.

      We met with OAAM officials in October 2009 and OAAM provided us an
updated version of OJP’s “Recovery Act Recipient Reporting: Data Quality
Review Process and Procedures.” We reviewed OJP’s revised process and
procedures document and determined that it adequately addressed our
follow-up questions and concerns.

      The Recovery Accountability and Transparency Board encouraged each
federal Office of the Inspector General (OIG) overseeing Recovery Act funds
to participate in a government-wide Recovery Act Reporting Data Quality
Review. In October 2009, we issued a report containing the results of our
Phase 1 data quality review at the Department’s Justice Management
Division and the Department’s primary grant-making agencies – OJP, the
COPS Office, and OVW.13 The objective of the Phase 1 review was to
determine if the Department had established processes to perform data
quality reviews intended to identify material omissions and significant
reporting errors by recipients and to notify the recipients of the need to
make appropriate and timely changes.

       Our Phase 1 review found that the Department had made significant
efforts to develop data quality review processes and procedures for ensuring

       13
           U.S. Department of Justice Office of the Inspector General, Review of Department
of Justice Data Quality Procedures for Recovery Act Recipient Reports (October 2009).
                                            24

that data reported by Recovery Act funding recipients is complete and
accurate. We determined that the Department’s Justice Management
Division developed automated screening and data validation systems to
support awarding agencies’ verification of recipients’ reports and to enable
the Department as a whole to identify any material omissions and significant
errors. The Department’s granting agencies separately developed quality
review processes that appear to provide effective means for assessing the
quality of the reported information and correcting any deficiencies identified.
We also concluded that further process improvements would be useful, as
the initial Recovery Act reporting is completed and experience is gained with
the reporting system.

      The Recovery Accountability and Transparency Board requested that
seven members of the OIG community implement Phase 2 of the Data
Quality Review during December 2009 through January 2010. In February
2010, we issued a report containing the results of our Phase 2 data quality
review at the Department’s Justice Management Division and the
Department’s primary grant-making agencies – OJP, the COPS Office, and
OVW.14 The objective of Phase 2 was to determine whether, during the first
Section 1512 reporting cycle, each participating OIG's department:
(1) identified inaccurate data and missing recipient reports, (2) identified
the causes of the inaccurate data or missing reports, and (3) mitigated the
causes and errors.

      Our Phase 2 review found that each Department component was
making progress toward ensuring that recipients of Recovery Act funds
submit quarterly reports to www.FederalReporting.gov as required, and
ensuring that the data reported is accurate. For the initial reporting period
ended September 30, 2009, the Department reported to OMB a total of 733
Recovery Act recipients out of 4,050 (18 percent) that did not submit the
required reports. Of the 733 non-reporting recipients, 548 were OJP
recipients; 166 were COPS Office recipients; 18 were OVW recipients; and 1
was an Alcohol, Tobacco, Firearms and Explosives (ATF) recipient. For the
subsequent reporting period ended December 31, 2009, the Department
reported to OMB a total of 155 Recovery Act recipients out of 4,039
(4 percent) that did not submit the required reports. Of the 155
non-reporting recipients, 121 were OJP recipients; 32 were COPS Office
recipients; and 2 were OVW recipients.




       14
           U.S. Department of Justice Office of the Inspector General, Review of Department
of Justice Data Quality Procedures for Recovery Act Recipient Reports Phase II, Report
Number 10-16, (February 2010).
                                            25

     In FY 2010, OAAM requested that we review and provide feedback on
two new efforts that it was designing to improve the quality and
completeness of on-site monitoring.

       One initiative was to revamp OAAM’s quality review process for grant
site visit reports. OAAM planned to implement a system using a standard
approach that assesses reports on the completeness of the information
reported and the level of detail associated with the information reported.
OAAM detailed the process for this initiative in its draft FY 2009 Site Visit
Report Quality Review Process (see Appendix V).

      The second initiative was the establishment of an on-site validation
program to assess on-site monitoring conducted by the program offices.
The initiative was designed to improve the quality and completeness of
monitoring and to ensure that grantees receive consistent and quality
feedback and assistance from grant managers. The OAAM Director told us
that OAAM would conduct a pilot program by first visiting BJA Recovery Act
award recipients under the Rural Law Enforcement Grants Program and the
Combating Criminal Narcotics Activity Stemming from the Southern Border
Grants Program. OAAM detailed the process for this initiative in its draft
FY 2010 On-Site Validation Pilot Program (see Appendix VI).

       In March 2010, we met with OAAM officials and provided verbal
feedback on both initiatives. An important part of the two initiatives is a
standard site visit checklist revised by OAAM in November 2009 (see
Appendix VII). Therefore, we also provided feedback to OAAM on the site
visit checklist.

       In the sections below, we discuss the specific concerns we had
regarding OAAM’s FY 2009 Site Visit Report Quality Review Process, OAAM’s
FY 2010 On-Site Validation Pilot Program, and OJP’s FY 2010 Standard Site
Visit Checklist. We also discuss OAAM’s responses and actions based on our
concerns.

      OAAM’s FY 2009 Site Visit Report Quality Review Process

      In previous years, OAAM performed quality reviews of grant site visit
reports and rated the quality of the reports as “Excellent”, “Good”, or “Poor”.
According to OAAM officials, this rating method led to concerns about the
subjectivity of the ratings, as well as questions about what constituted an
“Excellent” report relative to a “Good” or “Poor” report. To address these
concerns, OAAM revised the process for FY 2009 to use a standard report
review checklist to score reports on both the completeness of the

                                      26

information in the report, and the level of detail associated with the
information in the report.

      We provided OAAM officials with the following concerns regarding the
revised quality review process and the standard report review checklist used
by OAAM to score the site visit reports.

      	 The revised process calculates a “completeness” percentage score
         based on the number of standard report review checklist questions
         answered “yes,” meaning the report contained a discussion of the
         requirement. The revised process also calculates a “level of detail”
         percentage score based on the number of standard report review
         checklist questions supported by an adequate level of detail.
         However, OAAM’s process guidelines did not provide any
         explanation as to what the scoring percentages mean regarding the
         quality of the site visit report. Instead, the guidelines generally
         indicate that while a site visit report may be complete by containing
         all the required elements, the report may not be a quality report if
         the level of detail is lacking. Conversely, the guidelines generally
         indicate that a site visit report may contain a large amount of detail
         for the elements included in the report, but the report may not be a
         quality report because the report is missing many required
         elements.

         We suggested that OAAM consider removing as much subjectivity
         as possible from the site visit report rating system by defining what
         percentage scores are needed in both the completeness and level of
         detail categories to make the report a quality report. We also
         suggested that OAAM use a system that rates the reports as either:
         (1) adequate; (2) adequate, except for; or (3) inadequate. Under
         this rating approach, OAAM should develop criteria that clearly
         define the completeness and level of detail standards that must be
         met to classify the reports as adequate; adequate, except for; or
         inadequate.

      	 The revised process guidelines did not contain procedures for what
         actions would be taken based on the results of the quality review
         results. We suggested that OAAM explain in the guidelines what
         actions OAAM will take to address the deficiencies in each report
         reviewed, as well as the actions that OAAM will take to minimize
         such deficiencies system-wide for future site visit reports. Such
         actions could include additional guidance and training for the grant
         managers performing the site visits and completing the site visit
         reports.
                                      27

      	 The revised process guidelines do not clearly require that the site
         visit report be supported by the site visit checklist. An OAAM staff
         member told us that OAAM had found weaknesses in documenting
         links between the work completed during the on-site monitoring
         visit using the site visit checklist and the written site visit report.
         Our work confirmed this lack of documentation. The official stated
         that during initial working group meetings, their intent was for the
         program offices and bureaus to incorporate the site visit checklist
         into the report. At the time of the release of the Grants
         Management System Monitoring Module, OAAM believed that the
         need for the grant managers to upload the checklist into the Grants
         Management System would be unnecessary because grant
         managers were certifying the use of the checklist in the system.

         We suggested to OAAM that the report findings should be supported
         by the site visit checklist. The OAAM official stated that they plan
         to revise the guidelines to define the elements of a finding, and to
         explain how the finding should be developed when conducting the
         on-site monitoring and completing the questions on the site visit
         checklist.

       OAAM revised the site visit checklist instructions in April 2010 to make
it clear that the checklist is to be completed for each site visit and
maintained by uploading it into the Grants Management System. As of
January 2011, OAAM was working with the monitoring working group to
finalize the site visit checklist. Once the checklist is finalized, OAAM plans to
revise its site visit quality review process based on the suggestions we made
during the audit.

      OAAM’s FY 2010 On-Site Validation Pilot Program

       To ensure that OJP grant managers follow site visit guidelines and that
information collected during site visits is accurately reflected in the site visit
reports, OAAM drafted procedures for a pilot program for conducting site
visit validations. Under the draft pilot program, an OAAM evaluator would
conduct pre-site visit, on-site, and post-site activities. The pre-site visit
activities include a review of the grant details such as award information,
progress and financial report information, and sub-grant information. The
pre-site activities also include a meeting with the grant manager to discuss
the results of the grant manager’s desk review and impending site visit. The
on-site activities include accompanying the grant manager on a monitoring
site visit to observe and document the grant manager’s monitoring activities.
The post-site activities include reviewing the grant manager’s site visit
                                       28

report and preparing a Validation Memo containing a brief analysis of the
desk review, site visit, and site visit report; and any issues or concerns with
the desk review, site visit, or report.

      We provided OAAM officials with the following concerns regarding the
draft on-site validation pilot program process.

      	 We believed that having an OAAM evaluator accompany the grant
         manager to observe the grant manager’s monitoring activities
         would not result in an accurate representation of how the grant
         manager normally performs the on-site visits. Because the grant
         manager would know that the OAAM evaluator was observing, the
         grant manager would be more likely to ensure that the site visit
         procedures were carefully followed. Instead of accompanying the
         grant manager on the site visit, we suggested that OAAM consider
         reviewing the adequacy of the grant manager’s report and
         supporting documentation after the work has been completed and
         reviewed by a supervisor, and after the final report has been
         issued.

         An OAAM official told us that they would consider our suggested
         approach and the OAAM reviews could focus on the documentation
         the grant managers retained in support of the completed grant
         monitoring site visit checklist. Based on OAAM’s analysis of the
         review results, OAAM could then work with the program offices and
         bureaus to correct deficiencies. The OAAM official also stated that
         targeted training and guidance to the program offices and bureaus
         will be required on properly documenting and retaining support for
         the monitoring site visits, as well as uploading the completed grant
         monitoring checklists into the Grants Management System.

      	 The validation checklist that the OAAM evaluator planned to
         complete sometimes contained multiple steps to answer the
         checklist questions as either “yes,” “no,” or “not applicable.” For
         example, one checklist question was to determine if the grant
         manager completed a comparison of progress reports with the rate
         of expenditures. To answer this question, the OAAM evaluator had
         to determine whether the grant manager: (1) addressed any issues
         of incomplete or delinquent progress reports with the grantee,
         (2) determined whether the grantee adequately obligated and
         expended grant funds in accordance with the project timeline, and
         (3) reviewed financial reports in conjunction with progress reports
         to compare the rate of expenditures against projected activity
         levels. We suggested that OAAM separate these steps into
                                       29
          individual checklist questions to provide the OAAM evaluator the
          ability to address each step. OAAM officials agreed that the
          evaluator should have the ability to address each step clearly and
          accurately.

       In January 2011, an OAAM official told us that OAAM no longer
planned to implement the on-site validation pilot program. Rather, as part
of its site visit report quality review process, OAAM will review the adequacy
of the grant manager’s report and supporting documentation.

      OJP’s FY 2010 Standard Site Visit Checklist and Recovery Act Site Visit
      Checklist and Desk Review Addendum

      To help ensure that OJP grant managers complete adequate and
consistent evaluations during on-site monitoring visits to grantees, OAAM
revised the FY 2010 Standard Site Visit Checklist in November 2009. The
checklist is designed to capture general grant information such as the
grantee name, grant numbers reviewed, and the site visit start and end
dates. The checklist also contains steps for evaluating the grantee’s
implementation of the grant in the following areas.

         Entrance Interview

         Financial Review

         Administrative – Award File Review

         Administrative – Personnel Review

         Programmatic Review

         Grant Administration

         Exit Interview

         Other Items (if appropriate)

       In addition to the standard site visit checklist, OAAM, in collaboration
with the monitoring working group, also developed the Recovery Act Site
Visit Checklist and Desk Review Addendum (RA Checklist) to be used in
addition to the standard checklist when completing site visits of Recovery
Act grants (see Appendix VIII). The RA Checklist was developed to ensure
that the unique requirements of the Recovery Act grants, such as the

                                         30

reporting requirements and special conditions, are evaluated during the site
visits.

      In March 2010 we provided OAAM officials with the following concerns
regarding the November 2009 revised standard site visit checklist.

     	 The checklist instructions are not clear on what is required of the
        grant managers performing the on-site monitoring visits. The
        instructions state that the grant managers are required to complete
        all the elements contained in the checklist for a full monitoring visit
        and certify that they have reviewed all the elements when they
        complete their site visit report in the Grants Management System.
        However, the instructions also state that it is strongly
        recommended that the grant managers use the checklist to review
        grantee progress during the site visit. In addition, the instructions
        do not require the grant managers to maintain the checklists or
        documentation to support their answers to the checklist questions.
        We suggested that OAAM revise the instructions to make it clear
        that the grant managers are required to: (1) complete the
        checklist when performing the site visits, (2) maintain the
        completed checklists, and (3) maintain documentation to support
        their answers to the checklist questions. These suggested actions
        would help ensure that supervisors, OAAM evaluators, and external
        evaluators could verify and replicate the work done by the grant
        managers.

        An OAAM official told us that OAAM is determining how much
        documentation is adequate. The official told us that the program
        offices and bureaus did not understand that using the checklist to
        complete the site visit means that the checklist must be retained
        along with support for the work completed. OAAM revised the
        checklist instructions in April 2010 to make it clear that the
        checklist is to be completed for each site visit and maintained by
        uploading it into the Grants Management System. The official also
        reiterated that the Grants Management System Monitoring Module
        Training Guide states that the grant managers must certify that
        they completed the checklist.
        The OAAM Deputy Director told us that OAAM is contributing to
        changing the culture regarding effectively monitoring and
        adequately documenting monitoring activities in the program offices
        and bureaus. In FY 2011, OAAM plans to provide training and
        guidance to OJP grant managers. The program office and bureau
        staff believe that the monitoring site visit checklist is only a tool to
        use during the site visits, and that they can decide what part, if
                                       31
  any, of the checklist should be completed and what documentation
  should be retained.

  In our judgment, OAAM should determine the level of
  documentation required to ensure checklist questions are
  appropriately answered, and the required level of documentation
  should be noted on the checklist form.

	 The checklist does not provide a specific methodology for
   completing the individual steps. For example, one checklist step is
   to review personnel timesheets to ensure that charges related to
   staffing are in line with the proposed budget. The guidance for this
   step says to determine if employees in positions funded by grant
   funds are required to submit timesheets and if so, to determine if:

     o	 actual hours worked are recorded on the timesheet,

     o	 timesheets reflect distribution of employee activity between
        projects or grants,

     o	 personnel charges are in line with what was proposed in the
        original budget and application, and

     o	 charges exceed the total number of hours for a given pay
        period, and timesheets have been signed by the employee
        and a supervisor.

  The guidance does not provide a methodology for selecting the
  timesheets for review, such as how many of the OJP grants should
  be reviewed; determining how many employees should be selected
  from each grant; determining how many timesheets should be
  selected for each employee; and selecting, through random,
  statistical, or other means, the specific timesheets to be reviewed.

  In our judgment, to avoid varying results among reviewers, OAAM
  should develop clear and specific methodologies for how each
  checklist step should be completed.

  An OAAM official agreed that guidance was needed to ensure the
  checklist steps are completed in a consistent manner. The OAAM
  official told us that OJP grant managers have different views on
  what should be done during site visits. As an example, the official
  said that some grant managers resist completing any financial-
  related monitoring questions because they believe they are not
                                32

   qualified to do so, while other grant managers show no reluctance
   in completing the financial-related questions. We believe that
   centralized monitoring methodologies are needed within OJP to
   ensure the consistency of results.

	 The checklist instructions do not contain guidance on what is
   required for the supervisory review of the checklist responses. At a
   minimum, we believe the supervisors should verify that the grant
   managers completed the checklist in accordance with established
   steps and that the report facts are supported by the checklist.

   According to an OAAM official, the supervisors in the program
   offices and bureaus are required to review the site visit reports
   inside the Grants Management System. However, the supervisors
   lack guidance and training on what they should be reviewing and
   what is expected of them when reviewing the reports. Because
   some grant managers are not completing and retaining the
   checklist along with support for their work, the OAAM official was
   unclear on what the supervisors are using as a basis for evaluating
   the adequacy of the site visit reports.

   An OAAM manager told us that each OJP program office and bureau
   decides what level of supervisory review is required for the on-site
   monitoring checklist and report. The extent of the supervisory
   review may vary. To help ensure consistent and appropriate
   oversight of site reviews, we believe that OJP should establish
   requirements for supervisory review and provide appropriate
   training to reviewers.

	 The checklist instructions did not establish a time frame for
   completing the on-site monitoring visits. OAAM officials told us the
   site visits are generally planned for 1 to 3 days. However, we
   believe that the site visit checklist contains more steps than can be
   effectively and sufficiently answered during a 1- to 3-day site visit.
   The checklist contains 27 steps, most of which contain multiple sub-
   steps that must be answered to address the overall step.
   Moreover, some of the steps and sub-steps require detailed
   analyses of data to answer the steps sufficiently. For example, the
   step discussed previously regarding reviewing personnel timesheets
   requires multiple sub-steps to complete and various analyses that
   could be time consuming based on the extent of the testing.

   According to the OAAM Director, the monitoring checklist represents
   a product of a working group. The Director told us that the working
                               33

        group needs to reevaluate the questions on the monitoring checklist
        to determine the key steps that grant managers need to accomplish
        during the on-site visits. Then, the checklist can be revised to
        ensure key steps can be realistically accomplished during the
        limited time on-site. OAAM officials also agreed that time frames
        should be established for completing the on-site monitoring visits.

        Another OAAM official told us that the grant managers have an
        in-depth knowledge and understanding of the grantees ongoing
        work and financial records. Therefore, the official believed that
        grant managers may already know the answers to some of the
        checklist steps prior to the on-site visit, and would not require
        additional on-site work.

        We believe that OAAM should revise the site visit checklist to
        contain the key steps that need to be answered and that can be
        reasonably completed within the limited time available to complete
        the site visits. We also suggest that OAAM include guidance in the
        checklist on the expected time frame for completing the on-site
        monitoring.

      As discussed above, in April 2010 OAAM revised the instructions for
the FY 2010 Standard Site Visit Checklist to require that the grant managers
complete and maintain the checklist. As of January 2011, OAAM was
working with the monitoring working group to finalize the revised site visit
checklists.

      We also performed tests to determine if OJP grant managers
completed the checklists when performing the site visits and maintained
support for their answers to the checklist questions. During FY 2010, OJP’s
7 program offices and bureaus completed on-site grant monitoring for
1,447 (11.7 percent) of the 12,394 grants that were open and active as of
the beginning of FY 2010, as shown in Exhibit 9.

                 Exhibit 9: Grants Monitored On-site in FY 2010

                      Number of Open,       Target Number       Completed
                     Active Grants as of    of Grants to be   Number of Grants
        Office           10-1-2009             Monitored         Monitored
     BJA                    8,721                 436               611
     BJS                      185                  19                 36
     CCDO                     217                  22                 49
     NIJ                      869                  87               122
     OJJDP                  1,689                 169               488

                                           34

                       Number of Open,       Target Number       Completed
                      Active Grants as of    of Grants to be   Number of Grants
       Office             10-1-2009             Monitored         Monitored
     OVC                       595                  60               128
     SMART                     118                  12                 13
     OJP Total              12,394                 805             1,447
     Source: Office of Justice Programs


       The number of grants monitored on-site exceeded OJP’s target number
of sites visits of 805 for FY 2010. OJP’s target number of grants monitored
on-site was 5 percent of the grants awarded by the BJA, plus 10 percent of
the grants awarded by the remaining program offices and bureaus.

       We analyzed whether OJP’s program offices met the requirement to
monitor at least 10 percent of the award amount of open and active grants
as of the beginning of FY 2010. As shown in Exhibit 10, OJP performed
monitoring for grants totaling about $3 billion, or about 36 percent, of the
$8.4 billion in open and active grants, far exceeding the 10 percent
requirement contained in the Violence Against Women and Department of
Justice Reauthorization Act of 2005.

            Exhibit 10: Grant Funds Monitored On-site in FY 2010

                     Award Amount of                           Completed Dollar
                    Open, Active Grants      Target Award      Value of Awards
        Office        as of 10-1-2009           Amount             Monitored
     BJA               $4,760,627,176         $476,062,718       $1,775,554,247
     BJS                 $127,075,689          $12,707,569          $19,636,383
     CCDO                 $35,953,971           $3,595,397           $6,801,555
     NIJ                 $566,991,429          $56,699,143         $156,840,678
     OJJDP             $1,154,363,134         $115,436,313         $565,566,323
     OVC               $1,699,700,350         $169,970,035         $520,149,734
     SMART                $34,917,168           $3,491,717           $5,063,662
     OJP Total        $8,379,628,917         $837,962,892       $3,049,612,582
      Source: Office of Justice Programs


      To determine if the program offices and bureaus used the standard
checklist when performing the site visits and maintained supporting
documentation for answers to the checklist questions, we reviewed a sample
of 18 of the 127 site visit reports that had been issued as of March 8, 2010.
The 18 grants we selected for testing are shown in Exhibit 11.




                                            35

    Exhibit 11: FY 2010 Grant Monitoring Site Visits Tested by the OIG

       Program Office        Reports       Reports Selected
         or Bureau           Issued           for Review               Type Grant
            BJA                30         2007-DJ-BX-1028           Non-Recovery Act
                                          2009-SS-B9-0029           Recovery Act
                                          2009-SC-B9-0060           Recovery Act
              BJS                4        2007-BJ-CX-K017           Non-Recovery Act
                                          2008-RU-BX-K005           Non-Recovery Act
                                          2009-BJ-CX-K004           Non-Recovery Act
             CCDO                7        2009-WS-QX-0101           Non-Recovery Act
                                          2008-WS-QX-0072           Non-Recovery Act
                                          2009-WS-QX-0108           Non-Recovery Act
              NIJ               20        2008-WG-BX-0002           Non-Recovery Act
                                          2007-DN-BX-K196           Non-Recovery Act
                                          2008-DN-BX-K173           Non-Recovery Act
             OJJDP              60        2008-JU-FX-0024           Non-Recovery Act
                                          2009-SN-B9-K060           Recovery Act
                                          2009-SN-B9-K065           Recovery Act
             OVC                  0       None selected
            SMART                 6       2008-DD-BX-0037           Non-Recovery Act
                                          2008-DD-BX-0057           Non-Recovery Act
                                          2008-AW-BX-0006           Non-Recovery Act
            Totals             127                 18
     Source: Office of the Inspector General selections from universe data supplied by
             OJP Program Offices and Bureaus


      For each of the site visit reports sampled, we requested that the
applicable OJP program office or bureau provide the completed checklists,
documentation to support the answers to the checklist steps, and
documentation to support the grant managers’ follow-up with the grantees
to address any issues found during the site visits. We also requested that
the program offices and bureaus provide any local procedures or alternate
checklists used to complete the site visits.

      For the site visit reports we reviewed, we found that the grant
managers often either did not complete the standard site visit checklist or
did not retain the completed site visit checklist. In addition, we found that
the grant managers did not maintain documentation to support the answers
to checklist questions. The details of our review are discussed below.

      For the site visit reports we reviewed for the Bureau of Justice
Statistics (BJS), Community Capacity Development Office (CCDO), and
Office of Juvenile Justice and Delinquency Prevention (OJJDP) covering nine
grants, we found that the grant managers either did not complete OJP’s
standard site visit checklist or did not retain the checklist. As a result, we
were unable to determine whether the site visit reports were complete,

                                              36

accurate, and provided sound conclusions. In contrast, for the site visit
reports we reviewed for the Bureau of Justice Assistance (BJA), National
Institute of Justice (NIJ), and Office of Sex Offender Sentencing, Monitoring,
Apprehending, Registering, and Tracking (SMART) covering nine grants, the
grant managers completed and retained OJP’s standard site visit checklist.
However, the BJA, NIJ, and SMART grant managers did not retain supporting
documentation for the answers to the checklist questions. As a result, we
were unable to determine whether the site visit reports were complete,
accurate, and provided sound conclusions.

       Regarding the Recovery Act grants, we found that the BJA and OJJDP
completed and retained the Recovery Act Site Visit Checklist and Addendum
in support for the four Recovery Act site visit reports we reviewed. For each
grant, the checklist appropriately assessed the accuracy of the data required
to be reported under section 1512(c) of the Recovery Act. However, we
found that the grant managers did not always add notes to the comment
sections of the checklist to support the responses to the checklist questions.
In addition, the grant managers did not retain documentation to support
their answers to the checklist questions. As a result, we were unable to
determine whether the site visit reports were complete, accurate, and
provided sound conclusions.

      An OAAM official told us that OAAM’s current initiative to conduct
follow-up reviews of site visit reports has shown that the grant managers are
completing the site visit checklist questions, but are providing little or no
detailed support for their answers to the questions.

       We also reviewed the site visit reports for the 18 grants to determine if
OJP’s bureaus and program offices followed up on deficiencies noted in the
reports to ensure corrective actions were taken by the grantees. We
determined that the site visit reports for 6 of the 18 grants identified
deficiencies requiring formal resolution, while the reports for the remaining
12 grants did not. We found that the grant managers responsible for the six
reports with deficiencies appropriately followed up with the grantees to
address and correct the deficiencies identified.

      In summary, OJP has developed extensive checklists for monitoring
both Recovery Act and non-Recovery Act grants, and has increased the
number of on-site monitoring visits made to grantees. However, we were
not able to fully evaluate the effectiveness of the on-site monitoring because
grant managers often did not complete the standard site visit checklist or did
not retain the completed site visit checklist, and often did not maintain
documentation to support the answers to checklist questions.

                                      37

      OCFO’s Financial Monitoring and Technical Assistance Plan for
      Department of Justice Grants

      OJP’s Office of the Chief Financial Officer (OCFO) annually prepares a
financial monitoring and technical assistance plan to detail how it plans to
monitor financial performance of award recipients.

      We reviewed the OCFO’s FY 2009 and FY 2010 Financial Monitoring
and Technical Assistance Plans for Department of Justice Grants to
determine what steps the OCFO had taken to address the management and
oversight of programs, projects, and activities funded through Recovery Act
and non-Recovery Act programs. We found that the OCFO’s plans contained
adequate steps to monitor the financial aspects of grantee recipients,
including recipients that received Recovery Act funds. The OCFO’s plans
provided that:

      	 financial reviews would be chosen based on input from OJP program
         managers and on predetermined risk factors;

      	 OCFO staff would review grantee financial and administrative
         operations to determine whether the grantee properly accounted for
         receipts and expenditures and whether the expenditures were in
         compliance with federal requirements and grant special conditions;

      	 reports would be issued based on the site visit results and the
         reports would contain findings on each identified problem area and
         corresponding recommendations for the grantee to address
         the findings; and

      	 grantees must submit written responses to the OCFO that
         adequately address reported findings, or the grantees’ current
         funding could be temporarily frozen and the grantees could be
         precluded from receiving future OJP grants.

       Based on the input from OJP program managers and predetermined
risk factors, the OCFO selected 938 (7.6 percent) of the 12,394 open and
active grants for review in FY 2010, as shown in Exhibit 12.




                                     38

     Exhibit 12: OCFO’s On-site and Desk Reviews Planned for FY 2010

                                                   FY 2010
                                            Number of     Amount
                    Type Review              Grants15    Awarded
                  On-site                      410       $0.9 billion
                  Desk                         528       $1.1 billion
                   Totals                      938        $2 billion
                 Source: OJP’s Office of the Chief Financial Officer


      We found that the OCFO actually completed more reviews and
analyses than planned in FY 2010. The OCFO completed 475 on-site reviews
and 550 detailed financial desk reviews for FY 2010. The 1,025 reviews
accounted for 8.3 percent of the 12,394 open and active grants at the
beginning of FY 2010.

      We noted, however, that the OCFO did not clearly document how it
selected the grants for review in FY 2010. The OCFO uses a process for
selecting grants for financial monitoring based on both risk-based and
random sample selection factors taken from the total population of grants.

      The OCFO first identifies grants with the following risk factors from the
universe of OJP, COPS Office, and OVW grants that received funds before
the end of the prior fiscal year.

      • Discretionary grants with confidential funds

      • Tribal Grants

      • OJP discretionary grants of $1 million or more

      • New grantees with discretionary grants

      • New grant programs

      • COPS Office grants of $1 million or more

      • Justice Assistance Grants of $1 million or more

      • Random selection of grants of $1 million or more


      15
          For FY 2010, the 410 grants selected for on-site reviews included 110 Recovery
Act grants, and the 528 grants selected for financial analyses included 222 Recovery Act
grants.
                                               39

      • Formula grants

       While the OCFO’s plan identifies the risk factors, it does not describe
how grants are selected for review based on the risk factors. Through
interviews with OCFO officials, we learned that for some of the risk factors,
the OCFO selects 100 percent of the grants having the risk factor. For other
risk factors, the OCFO selects a lower percentage of the grants having the
risk factor, ranging from 25 percent to 75 percent. However, the selection
methodology contained in the OCFO’s plan did not provide the percentages
for each risk factor and did not explain the rationale for selecting all grants
for some risk factors and less than all grants for other risk factors. The
Assistant Chief Financial Officer told us that no formal written methodology
was maintained for how the risk-based criteria and percentages were
selected. The official said that the risk-based criteria had been developed
over an 11-year period and had been judged successful based on an
independent review by the IBM Business Consulting Services. The OCFO
also supplements the risk-based selections with additional grants based on
recommendations from OJP’s program offices and bureaus. For the grants
selected for review in FY 2009 and FY 2010, the OCFO did not maintain
documentation to show which grants were selected based on which factors.

      We believe the methodology used to select the grants for monitoring
should be fully described in the OCFO’s plan and documentation should be
maintained to verify that the grants selected were based on the approved
methodology.

       In January 2010, OJP’s OAAM completed a review and issued a report
on the OCFO’s financial monitoring process. OAAM found that the OCFO:
(1) needed to reexamine its risk-assessment model to ensure that it is
comprehensively identifying, weighing, and prioritizing the factors that place
grants in the most need of financial monitoring; and (2) should collaborate
more with the program offices in both deciding which grants to monitor and
in conducting joint site visits. OAAM reported that while the OCFO risk-
assessment model included important risk factors, such as program office
referrals, awards for more than $1 million, and awards that are based on a
formula grant, it does not weigh or rank those factors. Further, OAAM found
that the risk-assessment model does not include risk factors based on
grantee behavior, such as whether the grantee had delinquent submission of
financial status or progress reports, or the “red flag” indicators identified by
the OIG of high-priority grantees, including prior grant mismanagement and
prior fraud. Moreover, OAAM said the OCFO needed to ensure that it is
considering the most important factors when selecting grantees for site
visits. As a result, OAAM recommended that the OCFO reexamine its risk-
assessment model to ensure that it comprehensively identifies, weighs, and
                                       40

prioritizes the factors that place grants in the most need of financial
monitoring.

      On September 29, 2010, OAAM closed the recommendation based on
corrective action by the OCFO. According to an OAAM official, the OCFO’s
corrective action included restructuring its FY 2011 Financial Monitoring Plan
to use a risk-assessment model that calculates a score for grants and
grantees. The OAAM official told us that the restructured risk-assessment
model considers 20 different factors, including the score from the OJP Grant
Assessment Tool, and weighs the risk and relative importance of these
factors for each grant and grantee. The OCFO provided us with its draft risk
assessment process included in its draft FY 2011 Financial Monitoring and
Technical Assistance Plan. An OCFO official told us they are in the final
stages of selecting grantees for FY 2011 monitoring and they expect to
continue to refine the plan during the selection process. We reviewed the
draft process and determined that it appears to address the concerns we
raised, as well as the concerns raised by OAAM.

Conclusion

      We found that OJP has made significant efforts to improve its
monitoring and oversight of both Recovery Act and non-Recovery Act
grant recipients. OJP’s Office of Audit, Assessment, and Management
(OAAM) was established in FY 2005. While OJP was slow to hire a
permanent director of OAAM and to fill the positions allotted to OAAM,
a permanent director was hired in January 2009 and OAAM was fully
staffed as of May 2009. Our audit found that OJP has made
improvements in grant monitoring and oversight that included:

      	 establishing a working group to review existing monitoring
         practices and develop standard monitoring approaches and
         procedures;

      	 developing and enhancing grant tools such as the Grants
         Management System; the Grant Assessment Tool; and the
         Grant Monitoring Tool, which was replaced by the Grant
         Monitoring Module in May 2009;

      	 updating oversight and monitoring procedures in the Grant
         Manager’s Manual; and

      	 revising the site visit report quality review process to improve
         site visit documentation and the quality of site visit reports.

                                       41

      OJP also developed comprehensive plans for overseeing its
Recovery Act and non-Recovery Act grants that included OJP’s
Program-Specific Plan for Management of Recovery Act Funds, the
OCFO’s Financial Monitoring and Technical Assistance Plan, and
OAAM’s Recovery Act Post-Award Performance and Risk Management
Plan. We reviewed and identified some concerns with these plans, and
OJP took prompt actions during the audit to address most of our
concerns.

      While OJP has significantly improved its monitoring and
oversight of grants, additional improvements can be made. We found
that OJP’s program offices and bureaus do not consistently and
thoroughly assess the programmatic, financial, and administrative
areas of the grants; nor do they retain adequate documentation to
support their review work. In addition, we found that the OCFO
needed to more clearly describe the methodology it uses to select
grants for financial monitoring and maintain documentation that the
grants were selected based on the methodology.

Recommendations

We recommend that the Office of the Associate Attorney General:

1.	   Continue to pursue efforts to standardize the oversight services
      provided by OJP to the OVW and the COPS Office.

We recommend that the Office of Justice Programs:

2.	   Update the OJP Program-Specific Plan for Management of Recovery Act
      Funds to ensure that all Recovery Act funding is identified in the plan
      and that the funding identified in the plan ties to the funding identified
      in the Department of Justice’s Agency Plan for Management of Recovery
      Act Funds.

3.	   Revise OAAM’s Post-Award Performance and Risk Management Plan to
      include reference to the Office on Violence Against Women’s comparable
      plan.

4.	   Consider removing as much of the subjectivity as possible from the site
      visit report rating system by defining what percentage scores are
      needed to make the report a quality report.

5.	   Revise OAAM’s system for rating site visit reports to ensure more
      consistent and understandable ratings.
                                      42

6.	   Revise the guidelines for OAAM’s Site Visit Report Quality Review
      Process to explain what actions OAAM will take to address the
      deficiencies in each report reviewed, as well as the actions that OAAM
      will take to minimize such deficiencies system-wide for future site visit
      reports.

7.	   Revise the guidelines for OAAM’s Site Visit Report Quality Review
      Process to require that program office and bureau grant managers
      support their site visit findings by the completed Standard Site Visit
      Checklist and the Recovery Act Site Visit Checklist and Desk Review
      Addendum, as applicable.

8.	   Revise the instructions for the Standard Site Visit Checklist to make it
      clear that the grant managers are required to maintain documentation
      to support answers to the checklist questions.

9.	   Determine the level of documentation that grant managers should
      produce to: (1) satisfy OAAM that the Standard Site Visit Checklist
      questions are appropriately answered, and (2) enable OAAM to
      reproduce the results found by the grant managers. Then, explain in
      the checklist the level of documentation needed to support each
      checklist question.

10. Develop clear and specific methodologies for how each step in the
    Standard Site Visit Checklist should be completed.

11. Revise the Standard Site Visit Checklist instructions to require
    supervisors to review and verify that the grant managers completed the
    checklist in accordance with established steps and that the report facts
    are supported by the checklist.

12. Revise the Standard Site Visit Checklist to contain the key steps that
    need to be answered and that can be reasonably completed within the
    limited time available to complete the site visits. In addition, include
    guidance in the checklist on the expected time frame for completing the
    on-site monitoring.
13. Ensure that the OCFO’s final FY 2011 Financial Monitoring and Technical
    Assistance Plan clearly describes the methodology used to select the
    grants for monitoring, and that the OCFO maintains documentation to
    show that the grants were selected in accordance with the approved
    methodology.


                                        43

               STATEMENT ON COMPLIANCE WITH 

                   LAWS AND REGULATIONS 


       As required by the Government Auditing Standards we tested, as
appropriate given our audit scope and objective, selected transactions,
records, procedures, and practices, to obtain reasonable assurance that
OJP’s management complied with federal laws and regulations for which
noncompliance, in our judgment, could have a material effect on the results
of our audit. OJP’s management is responsible for ensuring compliance with
federal laws and regulations applicable to OJP. In planning our audit, we
identified the following laws and regulations that concerned the operations of
the auditee and that were significant within the context of the audit
objective.

      	 American Recovery and Reinvestment Act of 2009

         (Public Law 111-5) 


      	 Section 1158 of Public Law 109-162, The Violence Against Women
         and Department of Justice Reauthorization Act of 2005

      	 42 United States Code § 3751

      	 42 United States Code § 3755

      	 Office of Management and Budget (OMB) Implementing Guidance
         for the Reports on Use of Funds Pursuant to the American Recovery
         and Reinvestment Act of 2009

      Our audit included examining, on a test basis, OJP’s compliance with
the aforementioned laws and regulations that could have a material effect on
OJP’s operations, through interviewing auditee personnel, analyzing grant
applications, assessing internal controls over the grant award process, and
examining grant monitoring and oversight processes. As noted in the
Finding and Recommendations section of this report, we found that some
OJP program offices and bureaus do not consistently and thoroughly assess
the programmatic, financial, and administrative areas of the grants; nor do
they retain adequate documentation to support their review work.




                                     44

              STATEMENT ON INTERNAL CONTROLS

      As required by the Government Auditing Standards we tested as
appropriate, internal controls significant within the context of our audit
objective. A deficiency in an internal control exists when the design or
operation of a control does not allow management or employees, in the
normal course of performing their assigned functions, to timely prevent or
detect: (1) impairments to the effectiveness and efficiency of operations,
(2) misstatements in financial or performance information, or (3) violations
of laws and regulations. Our evaluation of OJP’s internal controls was not
made for the purpose of providing assurance on its internal control structure
as a whole. OJP’s management is responsible for the establishment and
maintenance of internal controls.

      As noted in the Finding and Recommendations section of this report,
we identified deficiencies in OJP’s internal controls that are significant within
the context of the audit objective and based upon the audit work performed
that we believe adversely affect OJP’s ability to provide effective monitoring
and oversight of grant recipients. Ineffective monitoring and oversight of
grant recipients could increase the likelihood that non-compliant grant
recipients go undetected and that grant funds are not properly used.

       Because we are not expressing an opinion on OJP’s internal control
structure as a whole, this statement is intended solely for the information
and use of the auditee. This restriction is not intended to limit the
distribution of this report, which is a matter of public record.




                                       45

                         ABBREVIATIONS


BJA            Bureau of Justice Assistance
BJS            Bureau of Justice Statistics
CCDO           Community Capacity Development Office
COPS           Office of Community Oriented Policing Services
Department     Department of Justice
NEPA           National Environmental Policy Act
NIJ            National Institute of Justice
OAAM           Office of Audit, Assessment, and Management
OCFO           Office of the Chief Financial Officer
OCIO           Office of the Chief Information Officer
OIG            Office of the Inspector General
OJJDP          Office of Juvenile Justice and Delinquency Prevention
OJP            Office of Justice Programs
OMB            Office of Management and Budget
OVC            Office for Victims of Crime
OVW            Office on Violence Against Women
RA Checklist   Recovery Act Site Visit Checklist and Desk Review Addendum
Recovery Act   American Recovery and Reinvestment Act of 2009
SMART          Office of Sex Offender Sentencing, Monitoring, Apprehending,
               Registering, and Tracking




                                   46

                                                             APPENDIX I

            Audit Objective, Scope, and Methodology

Objective

      The objective of this audit was to evaluate the adequacy of OJP’s plans
and efforts for monitoring and overseeing Recovery Act and non-Recovery
Act grants.

Scope and Methodology

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objective.

       The audit period covered OJP’s oversight and monitoring efforts
planned or conducted in FYs 2009 and 2010. We conducted fieldwork at OJP
headquarters in Washington, D.C., including the following OJP bureaus and
offices.

        Office of Audit, Assessment, and Management (OAAM)
        Office of the Chief Financial Officer (OCFO)
        Bureau of Justice Assistance (BJA)
        Bureau of Justice Statistics (BJS)
        Community Capacity Development Office (CCDO)
        National Institute of Justice (NIJ)
        Office for Victims of Crime (OVC)
        Office of Juvenile Justice and Delinquency Prevention (OJJDP)
        Office of Sex Offender Sentencing, Monitoring, Apprehending,
         Registering, and Tracking (SMART)

     To accomplish the audit objective, we:

        reviewed OJP’s monitoring and oversight improvements since
         FY 2007 through FY 2010 to determine what OAAM had done in
         collaboration with, or in support of OJP and the COPS Office to
         improve operating efficiency and effectiveness, as well as enhance


                                     47

  programmatic oversight of the Department’s grant making
  agencies;

	 reviewed the Department’s Agency Plan to determine how the
   Department planned to apply and manage Recovery Act funds, and
   whether the Department’s Plan met the minimum requirements
   contained in OMB Recovery Act guidance;

	 reviewed OJP’s Program-Specific Plan to determine whether it
   contained the minimum requirements contained in the OMB
   Recovery Act guidance;

	 reviewed and provided comments on OAAM’s April 2009 draft
   Post-Award Performance and Risk Management Plan related to
   oversight of Recovery Act activities;

	 reviewed and provided OAAM comments on OJP’s draft Recovery
   Act Recipient Reporting: Data Quality Review Process and
   Procedures;

	 reviewed and provided OAAM feedback on its: (1) FY 2009 Site
   Visit Report Quality Review Process, and (2) FY 2010 On-site
   Validation Pilot Program to validate on-site monitoring conducted by
   the program offices;

	 reviewed and provided OAAM feedback on OJP’s: (1) FY 2010
   Standard Site Visit Checklist, and (2) Recovery Act Site Visit
   Checklist and Desk Review Addendum;

	 reviewed a sample of FY 2010 site visit reports for 18 of 127 grants
   to determine if OJP grant managers: (1) completed the standard
   and Recovery Act site visit checklists when performing the site
   visits, (2) maintained support for answers to the checklist
   questions, and (3) followed up with grantees to address any issues
   found during the site visits; and

	 reviewed the OCFO’s FY 2010 Financial Monitoring and Technical
   Assistance Plans to determine what steps it had taken to address
   the management and oversight of programs, projects, and activities
   funded through Recovery Act and non-Recovery Act programs.




                               48

                                                           APPENDIX II

    Office of Audit, Assessment, and Management’s
Monitoring and Oversight Improvements during FY 2007

       Improvement                    Description of Improvement
Program Assessment Function   OAAM created a program assessment function
                              to collect, integrate, and analyze grantee-
                              generated reporting, grant monitoring
                              documentation, performance measurement
                              data, and other primary data sources to
                              assess program performance and grantee
                              compliance for future policy, budget, and
                              funding decisions.
Financial Management Internal OAAM updated all of OJP’s significant business
Controls                      processes, identified key internal controls
                              within the processes that impact accurate
                              financial reporting, and tested those key
                              internal controls. OAAM also conducted a risk
                              assessment of OJP’s grantee and vendor
                              payments.
Information Technology        OAAM conducted a comprehensive review of
Internal Controls             information technology controls and made
                              recommendations to assist the Office of the
                              Chief Information Officer (OCIO) in improving
                              information technology internal controls.
                              OAAM also closely monitored the status of the
                              OCIO’s implementation of the
                              recommendations. Implementation of the
                              OAAM’s recommendations resulted in the
                              elimination of the material weakness in
                              information technology identified in the
                              FY 2005 and 2006 financial statement audits.
High-Risk Policy              OAAM developed an OJP-wide policy to
                              coordinate activity for grantees that may be
                              designated as high risk.
Grant Manager’s Manual        OAAM updated OJP’s Grant Manager’s Manual,
                              which documents policies and procedures for
                              the administration and management of all
                              OJP grants and grant programs.




                                    49

         Improvement                          Description of Improvement
 Grant Manager Performance            OAAM drafted a model Grant Manager
 Plans                                Performance Work Plan that addressed critical
                                      elements outlined in the Grant Manager’s
                                      Manual and established specific, measurable,
                                      achievement-based criteria for evaluating the
                                      effectiveness of grants management.
 Grant Management Training            OAAM provided a 2-day course for 30 new
                                      grant managers on basic grant management
                                      principles and effective grant monitoring
                                      techniques. OAAM also surveyed OJP’s grant
                                      managers to identify grant manager training
                                      needs.
 Enterprise Reporting Tool            OAAM worked with the OCIO to develop
                                      management reports using the Enterprise
                                      Reporting Tool to provide greater
                                      transparency of OJP’s grant management
                                      process. The tool enabled grant managers to
                                      better track grant management workload and
                                      processing times for grant adjustment
                                      notices, closeouts, and progress reports.
 Grants Management System             OAAM, in coordination with the OCIO,
 On-line Training Tool                developed the Grants Management System
                                      on-line computer based training tool. The
                                      tool provides OJP’s grant recipients with a
                                      comprehensive curriculum to help manage
                                      grants.
 Grant Closeouts                      OAAM implemented the Grant Closeout
                                      module in the Grants Management System
                                      that enables grant recipients to have a “one
                                      stop shop” to manage grants from application
                                      to grant closeout.
 Funding Freeze                       To encourage grant recipients to report
                                      programmatic progress in a timely fashion,
                                      OAAM implemented the funding freeze
                                      functionality within the Grants Management
                                      System Progress Report module. This
                                      improvement temporarily freezes payments
                                      to an award recipient when progress reports
                                      have not been submitted by the due date.
Source: Office of Justice Programs’ Office of Audit, Assessment, and Management
        documentation




                                          50

                                                           APPENDIX III

     Office of Audit, Assessment, and Management’s 

 Monitoring and Oversight Improvements during FY 2008


     During FY 2008, OAAM made numerous grant monitoring
improvements in the areas of grant oversight, grant management and
administration, and business processes and internal controls, as discussed
below.

Grant Oversight

      We found that OAAM tracked, reviewed, and reported quarterly on its
grant monitoring accomplishments including:

     	 continuing to lead the grant monitoring working group and
        engaging members in communications about new monitoring
        policies and tools, as well as promoting established monitoring best
        practices and standards;

     	 leading the development and implementation of detailed policies
        and procedures for referring and managing grant recipients
        recommended for high-risk designation;

     	 updating the Grant Manager’s Manual to reflect changes in
        legislation, regulations, and OJP policies that affect grant
        management;

     	 collaborating with offices throughout OJP to update and enhance
        the Grant Assessment Tool and host feedback sessions with Grant
        Assessment Tool users to identify opportunities for improvement;

     	 updating and enhancing the Grant Assessment Tool to transition it
        from a spreadsheet-based tool to a database tool for use in
        FY 2009; and

     	 implementing a program assessment function to examine and
        report on the compliance and performance of OJP grants.

Grant Management and Administration

       During FY 2008, OAAM provided OJP program offices with policies,
tools, and training to improve grant management and administration. OAAM
                                     51

also worked on initiatives with other federal agencies to identify promising
practices in grants management. OAAM completed the following activities in
support of this effort.

     	 OAAM identified problems in the OJP Grants Management System
        and recommended solutions to enhance system functionality. The
        enhancements included the following.

           o	 OAAM deployed an enhancement to the Grants Management
              System closeout module that automatically generates
              closeout packages and freezes remaining grant funds 91 days
              after the end date of the grant.

           o	 OAAM integrated the web-based grantee financial reporting
              system into the Grants Management System that enabled
              grant recipients to submit both financial and progress reports
              into one system. This enhancement reduced the reporting
              burden on grant recipients and helped ensure that official
              documents are maintained in the Grants Management
              System.

           o	 OAAM launched an enhanced peer review module in the
              Grants Management System that consolidated all peer review
              comments and scores in one place.

     	 OAAM issued an OJP-wide peer review policy and procedures
        document to improve the peer review process within OJP.

     	 OAAM provided training to grant managers and grant recipients to
        help ensure grant policies were widely communicated and available
        tools were used effectively. The training provided by OAAM
        included the following.

           o	 OAAM sponsored a training session for OJP grant managers
              on “Accountability for Federal Grants: Planning, Measuring,
              and Reporting Grant Performance” that focused on developing
              measurable objectives, assessing grantee progress toward
              achieving targets, and developing a technical assistance plan
              for improving performance.

           o	 OAAM conducted follow-up training for grant managers on
              effective grant monitoring practices that focused on the use of
              the OJP-wide Grant Monitoring Tool.

                                     52

            o	 OAAM sponsored training for grant managers on “Post Award
               Grant Management” that focused on the grant managers’ role
               in approving changes to grants, reviewing progress reports
               and financial reports, monitoring grants, and closing grants.

            o	 OAAM trained OJP staff in the use of the Grant Assessment
               Tool.

      	 OAAM worked closely with the Department of Defense, the
         Department of Transportation, and the National Science Foundation
         on initiatives to streamline grants management, identify promising
         practices among the grant-making agencies, and develop
         government-wide solutions to grants management through
         improved access and customer service.

Business Processes and Internal Controls

       During FY 2008, OAAM facilitated OJP-wide business process
improvement initiatives, strengthened internal controls over grant activities,
improved internal and external customer satisfaction, and implemented
actions to help deter fraud, waste, and abuse among OJP grants. OAAM’s
efforts in these areas included:

      	 conducting internal reviews of OJP’s processes and making
         recommendations to enhance and strengthen internal controls as
         required by the Office of Management and Budget (OMB)
         Circular A-123, “Management’s Responsibility for Internal Control”;

      	 reviewing OJP’s significant financial management, grants
         management, and information technology business processes in
         accordance with OMB Circular A-123;

      	 working on a business process improvement initiative, through a
         working group of OJP staff, to improve performance measurement
         policies and procedures;

      	 reviewing OJP’s use of the Catalog of Federal Domestic Assistance
         numbers;

      	 implementing, in coordination with the OCIO, an earmark tracking
         tool to allow greater transparency of the award process for earmark
         grants; and


                                      53

   beginning a review of the use of the OCIO’s site visit and audit
    module in the Grants Management System.




                                 54

                                                             APPENDIX IV

         Office of Management and Budget’s Minimum 

            Requirements for Inclusion in Agencies’ 

                    Recovery Program Plans 



Funding Table: Agency funding listed by program, project, and activity
categories, as possible. Funds returned to the program or any offsetting
collections received as a result of carrying out recovery actions are to be
specifically identified.

Objectives: A general Recovery Act description of the program’s Recovery
Act objectives and relationships with corresponding goals and objectives
through on-going agency programs/activities. Expected public benefits
should demonstrate cost-effectiveness and be clearly stated in concise, clear
and plain language targeted to an audience with no in-depth knowledge of
the program. To the extent possible, Recovery Act goals should be
expressed in the same terms as programs’ goals in departmental
Government Performance Results Act strategic plans.

Activities: Kinds and scope of activities to be performed.

Characteristics: Types of financial awards to be used (with estimated
amount of funding for each), targeted type of recipients, beneficiaries and
estimated dollar amounts of total Recovery Act funding for Federal in-house
activity, non-federal recipients and methodology for award selection.

Delivery Schedule: Schedule with milestones for major phases of the
program’s activities with planned delivery dates.

Environmental Review Compliance: Description of the status of
compliance with National Environmental Policy Act, National Historic
Preservation Act, and related statutes.

Savings or costs: Expected increases or reductions in future operational
costs.

Measures: Expected quantifiable outcomes consistent with the intent and
requirements of the legislation and the risk management requirements, with
each outcome supported by corresponding quantifiable outputs.


                                      55

Monitoring/Evaluation: Description of the agency process for periodic
review of program’s progress to identify areas of high risk, high and low
performance, and any plans for longer term impact evaluation.

Transparency: Description of agency program plans to organize program
cost and performance information available at applicable recipient levels.

Accountability: Description of agency program plans for holding managers
accountable for achieving Recovery Act program goals and improvement
actions identified.

Barriers to Effective Implementation: A list and description of statutory
and regulatory requirements, or other known matters, which may impede
effective implementation of Recovery Act activities and proposed solutions to
resolve by a certain date.

Federal Infrastructure Investments: A description of agency plans to
spend funds effectively to comply with energy efficiency and green building
requirements and to demonstrate federal leadership in sustainability, energy
efficiency and reducing the agency’s environmental impact.




                                     56

                                                                                                            APPENDIX V

Office of Audit, Assessment, and Management’s Draft
  FY 2009 Site Visit Report Quality Review Process
   US. I)':p"utmcnl ofJ... 1><:<'
   Ofr_ofJ'.""" I'rog<UTW
   Ofw of Audit, A",,,,,, mt.1j,. tl/ld M~lugemenl



           FY 2009 Site Visit Report Quality Review Process
   A, p~rl o f an QV"l1I ll gnlnl monitonng progmrn. B quality revit.w prQc"n for SI t" viS It r"po rts ""II's
   10 v~lidMe Lhll.l not only has ~ gmnt mang~r performed Ills or her r~qlured monitoring dUlles, but
   he or she ha s perfo nned them in II mlln ner cons;$tent with the gollls of II strong ovenlght program.
   In prcviou$ yc~n OAAM h~~ p~tfurmcd a qunli ly revi~w of site visits bued o n lin "Excellent" to
   " Poor" sn lo::. This method J,:.;d to concerns llbout th e su bJeelivl ty of lhe Illlin)p". u wdl u questions
   YOOUI whal cOIl$1I1ukd ~n ·~E.xr:.. ll .. nr>' report '-elall v" to II "Good" ~r " Poor" r~rt.. To add,.., ••
   $orne o r these COllc" rn~. ror FY 2(109 " s)'~lelll wil1lx: impkl!1c:n!ed tn.alu se5 II standyrd c heckiisl to
   $core reports on the eomplete'less of the informll.tioll in the report, liS well as the level of deuil
   usoeuted Wllh the .nfomu.tion ,nduck-d.

   Method
   OAMI will Implement              II. quality r~K'W process thlll \."11:$ • Quality 'Review EVAluation rornl

   eomp nKd of ekmenls from the OJP $Ite visit eh kiln ~nd Gt(Int hUnAgt'r's MAn ual u the bUls for
   the l't'Vlew. TIle Quality Rev.ew EVAru,Hion Form                I he made up of IV;O pans. Part 1.-wIIi fOCus cn
   whether or not ~11 . . k.:m . . nts were indurlrd In Ih . . slt(' ViSit rt(lOrt, \\Ib;) . . p,rt 2 Will ddrt'$~ th" ~l
   of delliil eonullm:.1 III th" r"pon fo r o::a<;h demen t. 1111~ 1U g!low OAA M to d,'                    me '\01 o nly If
   the appropnll. te mfOnnlltiOn WIlS eontouned .n the report. bur-Ill$(l If the mformlltlOn Will in-depth
   enough to be useful. A 5COre will be ge ner.ated fOr ra n I m d ~.tt.1. and eACh $Core w,D be reeordtd
   .nd OOeumen ted lIl.n Exed spreadsheet.

   Fo r quality HSsurlince pUq>95eS;'-N.·o It'V,ell,.e~will elo:Yffi lne $Itc: "'$1 repo rts mdependenlly. O nce
   the Imllill review IS c           plcte. th rt'Vlewcrs WIll dl$Cus~ their results, e nsurmg I1mt no revJew
   elements II.re missed dunng exa m inabon, lind reillfQ,rcillg n:"iO!'\l,'cr obiec ti vi ty. In the ev" nt tl,~1 there
   is ~ discn::pAm:)' br.twre n the 'two rev~wr rs 35 10 w)'c;,lhe r ~II d ement WHS IlIfficic:nlly inchKlecl in 11",
   rtpo rt. the I1':vie""'er~ w ,lI di$CUss tl~ekmcl1t fog<: ther pel GO!l1 t' 10 a eonSt'nSI'S,

   Sampling and Resource Requirement s
   In th .. putL" OAJ\M hu sam~ k:d 10 percell! o f gt1l,l t IIwards (o r lit 1
                                                                              eut 10 reports for eM program
                                                                                                  ch
   office) th~ ...·en:: sile Visited . ¥ d rev,ewed the s,te VISIT reports UJociucd wim tllese gTllnts. Since
   site VISi t repo,rts ",-en:: uplOAded to each i/Hfivldual gr'lInt award III GMS, It WB difficul t to Ir':Ick how
   11IAU)' mdl\'"III~ 1 SIlt' VISli reports wl're produced. ~l1d tJ,US the iample wws h~s.,tI ull the lotal nUnlber
   of gnllllJi for whiob Sile \·isi\s wel1' cond ueh'';!' 111i, :m np!ing slntegy m~y hll~'e resul ted difrerent.
   nmplmg rileS for each 'OfIice, depending upon how ''1\>lny lib:' VISit repo rts incllld~d two or more
   gnnts. Begonmng In MAy "2009, The en hllnC«i GfI.·IS MonilOnng ·Modu le WIS avaIla ble to gr.tnt
   managers for the creanOIl o~ site \', s,tt lind comp~tiOn of post SIlC VISI! documc nlllllOIl. USUlg the
   GMS MonitOring ModUfe, gnlnt managt'rs are ab le to crea lI' $lte V1511S A aSKK:lIlte mulup1c nd
   ;ndi\'idUllI gn11l AWllrds wil h the vi$it. Th;$ ~1l0W$ for the tfllcking of ind iv idual Site: vi,iL rcpo rl~
   th rough ERT reporting a nd for OA..'\ t.1 to iden lJ fy the IIctual number of reports tlutt were
   5ul)\\IIII ..d. TIus WlllllUOW rur s~fT\p hng or 10 l't:rcent of AClu~1 in ..... 1lI" r.. porUi nllhef tll~n SAmpling
   10 llt'rc"'nt o f 'WArds n wu don" III the pUI.

   Sznee the GMS t\ol01llto rmg Module will be used gomg forw!lrcl, the SlImpl.. of rt'portli for the FY
   2009 Qwtlity Rev-lew \\.";11 be pulled from aD gr-a nl a\\.'Qrds with site VISits oo nduc tl'd In Q3 and QI.




                                                            57

These two quarters were the only quarters of FY 2009 for which the Module was available for the
completion of site visit reports for the entire quarter.

Of the 511 grant awards that were site visited in Q3 and Q4, reports for 374 were completed using
the GMS Monitoring Module, 134 had a report completed using the Grants Monitoring Tool
(GMT), and 8 had reports that were not completed using the GMT or the GMS Monitoring
Module. The 374 grant awards with reports completed using the enhanced Monitoring Module were
associated with 146 site visit reports.

Using an approach that calls for a 10% sample of site visit reports by office (or at a minimum 10
reports per office) will result in a review of 71 site visit reports (10 from all offices except SMART,
who had only one report in the time period). Due to the fact that tHe COPS Office follows its own
monitoring procedures and does not use the GMS Monitoring Module, OAAM will sample 10
percent of the hard copy reports submitted by that office, or a minimp m of ten reports.

                 Table 1. GMS usage of awards reviewed inFY 2009 <::!3 and Q4

                 No . of                                          No. of site visit       No. of reports
                 awards           No. of          No. of              reports               to revie\v
                 using           awards        awards using       submitted using         based on 10%




--
   Office        GMT            using GMS       other form           module                 of reports


  BJS                                                                            12                      10
  CCDO                                                                           41                      10
  NIJ                                                                            15                      10

  OJJDP                                                      1.                  42                      10
  OVC                      58                                0                   18                      10
  SMART                     Q              3                 0                        1                   1
  COPS*                     0              0               100                        0                  10
  Grand
                       128              374                109                  146                      71
  Total
  *The COPS Office uses its oWlil processes for completing site visit reports. The COPS Office
  completed 37 site visit r epmts in FY 2009 for 100 awards. COPS submitted hard copies of
  these reports to OAAM each quarter.

Estimated Leve l of Effort
U sing the method described above, it is estimated that a reviewer could examine two site visit
reports an hour. Adding another hour of time for every 5 reports for potential discussion points
between the two reviewers results in the estimated level of effort for shown below in Table 3. The
"Review Hours" column includes the total hours for both reviewers, as these reviews will be
performed concurrently by both reviewers.



                                                                                                              2


                                                    58

      Table 3. Estimated number of hours required for a quality review of FY 2009 Site
                                     Visit Reports

                                             Number of
                                            Reports to be        Review   Discussion      Total
     Site Visit Report Population            Reviewed            Hours      Hours         Hours

    Q3 and Q4 site visit reports in                         71       71             14         85
    GMS



This level of effort reflects only the approximate hours necessary to perform the actual quality
review of the site visit reports. Any additional analysis of the results of the review would require
additional effort not captured here.

Proposed Quality Review Format
The following is the proposed format for a quality review p m cess. Reviewq;; "will complete the
Quality Review Evaluation Form for each site visrt: report. A high quality sitev isit >eport should
contain most or all of these elements. These elements "!;e b fo'ken out based on the structure of site
visit report fields in the GMS Monitori(lg Module.




                                                                                                     3


                                                 59

                       Fiscal Year (FY) 2009 Quality Review Evaluation

Program Office:
Grant Manager:
Selected Site Visit ID:
Site Visit StartiRnd Date:
Grant Number(s):




Instructions for Completing the Quality Review (QR)         valuation form
The reviewer will complete one QR Evaluation form pet lIite visit report. The reviewer will
select one response for each question for Part 1 (Completeness) and w1l'ere ppropriate, Part 2
(Level of Detail). The reviewer will tally .esults as defined in the "Scoring" section, and
generate a score for each part of the review. The reviewer will also complete the information for
the statistics table. Overall commen,ts about the site vjsit regarding strong or weak points, etc.,
should be captured in the "Comments" box after the scoring table.
Quality Assessment:
OAAM views quality as a combination ofthe co pleteness of tile elements provided in a report,
and the level of detail provided about each element. While a r~ort that includes all the elements
listed below in a cursory manner may be compliant witb t1ie..re.quirements of a review, it may not
necessarily be conside~e it quality site visit report. Conversely, if a site visit report contains a
large amount of detail and analysis, but neglects half of the required data elements, it may not
necessarily be considered a quality site visit reporb. A quality site visit report will contain the
necessary data elements at a level of detail and analysis that creates a picture as to how a grantee
is perfo ing.
Pari 1: COJllpleteness
The reviewer shall identify whether the grant manager has addressed the elements listed in the
QR Evaluation,Form in the site visit report. For each element that is present in the report, the
reviewer should no e where it was found in the hard copy of the report to facilitate discussion in
the event there is a discrepancy between reviewers.
Part 2: Level of Detail
The reviewer shall appFaise the level of detail provided for selected elements of the site visit
report. To achieve an "adequate" level of detail, the report element should demonstrate an in­
depth knowledge of the grantee, and include details such as potential reasons why a deliverable
is behind schedule, circumstances that may have led to issues with financial statements, or other
information that provides a deeper understanding of the grantee's performance andlor condition.
Pertinent supporting information should be included, as well as analysis where appropriate. If a
reviewer does not answer "Yes" in Part 1, they should not select an answer for Part 2.



                                                                                                  4


                                                60

                                                             Part 1:            Part 2:
                                                         Comp leteness       Level of Detail
No.        Criterion                                     Yes       No    Adequate I Inadequate
                                                A. Purpose
           Did the site visit report clearly address
A. l
           the purpose of the visit?                      0        0        0            0
                                                 B. Process
           Did the site visit report document which
B.l
           site(s) and organization(s) were visited?      0        0        0            0
           Did the site visit report list the key site
             . .         ..
           VISit     participants,   including     the
B.2        individual( s) who conducted the site          0        ~r'("
           monitoring, as well as the people
           interviewed?                                    ,
           Did the site visit report describe the
B.3
           activities performed on the site visit?        0        0        0            0
                                           C. Financial Review

C.l
           Did the site visit report include a
           discussion of the financial documents          D        0'         1     ,/
           reviewed while onsite ?
           Did the site visit report incli1d~
           recommendations for any financI al

                                                           ~)
           oversight for the grantee and/or rais any ' :--....      'Y
           potential Issues that r"qUlre OCFO ' s
           attenti on? Or conversely; did the site
C.2          ..
           VISit report acknowleage that no               0        0        0            0
           oversight/attention is needed? If the
           report           acknowledged            no
           oversight/attention was needed, dQ not
           a,.swer Part Two .
       •   Die! the site visit report contain a
           discussion of the results of the general
           budget review, including a discussion of
C.3        expenditures and whether or not                0        0        0            0
           activities are reasonable, allowable and
           in alignment with the project/approved
           budget?
           Was there a disGussion of programmatic
E .5       progress compared to the rate of 0                      0        0            0
           expenditures?
           Does the discussion of the budget
CA         address the status of the budget (e.g., on-    0        0        0            0
           budget, over-budget)?




                                                                                                 5

                                                61

                                                    Part 1:                 Part 2:
                                                  Completeness           Level of Detail
No.   Criterion                                   Yes     No         Adequate    Inadequate
      For fonnula awards only, did the site
      visit report verify whether:
          • the administrative cost threshold
              has been exceeded?
C.S       • the sub grant cost threshold had        D        D            D         D
              been met or exceeded?
      Do not answer this question for site
      visit reports covering discretionary
                                                                 ~   I~
      awards.
      For discretionary awards only, did the
      site visit report address
                                                    f.r-'il.
                                                       I~
                                                                      ~ ;t
          • whether the budget was reviewed
              to detennine if drawdown activity.
              has occurred according to the


                                                  ~
                                                       I
                                                       "
              time line submitted in the
              application?
      Do not answer this question for site
      visit l'eports coverin~ formula awards.
      For discretionary awards only, did the,
      site visit report address:
          • whether or not t1te grantee
              exceeded expenaitures per budget
              category in excess of'lO%?
      Do not answer tliis questiOn for site
      visit reports covering formula awards.
                                                   " I ~'
                                                   .
                                    D. Administrative Review
      Did the site -visit'· report confinn Or'
0.1
      reference a review 0fthe awarcj file?         D        D            D         D
      Did the site visit 'rep'ort discuss the
D.2   grantee'~ "p;rocess for coHee ing and         D        D            D         D
      reporting erfonnance l1jI easures?
      Was there a discussion of supporting
D.3   data      for    petfonnance      measures,   D        D            D         D
      including any issue&   1l0ted?
      Did the site visit report address whether
DA    activities described in progress reports      D        D            D         D
      have been provided/completed?
      Was there a discussion as to whether
0.5   duties perfonned by key personnel are         D        D            D         D
      those that were initially proposed?




                                                                                              6


                                            62

                                                     Part 1:           Part 2:
                                                  Completeness      Level of Detail
No. Criterion                                     Yes      No   Adequate I Inadequate
                                   E. Proerammatic Review
      Did the site visit report provide an
      overview of the program and the
E.!
      activities undertaken as part of the         D        D     D             D
      program?
      Was there a discussion of whether
      progress reports reflect goals and
E .2
      objectives outlined in the original or       D        D "1 D
                                                               -'               D
      continuing grant application?
      Was there a discussion of whether
           ..
      activIties     reported  have     actually
E.3
      occurred, and if they were reported          D        D     D             D
      accurately?
      Was there a discussion of the project
      timeline, including whether project
      deliverables are being produced In a
                                                                        ,.
EA
      quality and timely manner, and project
                                                   0 " D          D             D
      milestones are· being achieved a€oording
      to schedule?
      Was there a discussion of" any          ..
      implementation problems? If there have
      been no implementation problems, this
E.6
      should be stated. If the report states       D        D     D             D
      there were no implementation issues,
      do not respond to Pa.:-t 1..
                                    F. Promisin Practices
     .Did the site visifireport iaentify any
      {,romising practice and explain them?
      Oi; conversely, did the site visit teport
F.!
      aclaiowledge that were no pfomising          D        D     D             D
      practices '?' ~,!here were no promising
      practices, do not respond to Part 2.
                                   G. Issues for Resolution
      If any Issues for resolution were
      identified, did the site visit report
      include a discussion of them?          Or
G. !
      conversely, did the site visit report        D        D     D             D
      acknowledge why no Issues for
      resolution were identified?




                                                                                        7

                                        63

                                                  Part 1:                   Part 2:
                                               Completeness              Level of Detail
No.   CIiterion                                Yes       No          Adequate I Inadequate
                                 H. Technical Assistance
      Did the site visit report address any
      specific Technical Assistance CTA)
      needs/requests/ recommendations for the
      grant(s)? Or conversely, did the site
H.1   visit report acknowledge that there are   D        D              D          D
      no TA requests/concerns? If there were
      no TA requests/concerns, do uot
                                                          K
      respond to Part 2.

                                          I. In Closinl!
                                                        -
      Did the site visit report provide a closing
      summary or highlight of any outstanding
      issues by the grant manager of the site. D                 D      D          D
11

      visit?
      Did the site visit report provide a
                                                      ,
      professional opinion of the site visit?
      For example, did the report disG why
                                         USS
      the program islis not meeting obj ectives
      and why, and/or provide conclusions ' D                    D      D          D
12

      drawn based on site visit, potential next
      steps or observations of the future state             I·
      of the program?
         Total                     , l
                                  "
      AT
        ,          ..........
                    - ........   ,"'-~'
                                    '-'\.   Comments



                                 "\    }r
                                 ~




                                                                                             8


                                               64

Scoring

Part 1 scores are detennined by dividing the number of "Yes" responses by the total number of
"Yes" and "No" responses. For example, if a reviewer answered "Yes" to 16 questions, "No" to
11 questions, and had no response to 1 question, the score would be calculated as:

16 ("Yes" responses) / 27 (total "Yes" and "No" responses)   ~   .593, or 59.3%.

Part 2 scores are detennined by dividing the number of "High" responses by the total number of
"High and "Low" responses. Building on the example from part one, assume that of the 16
"Yes" responses, the reviewer answered Part 2 for 14 questions due to some "Yes" responses not
having a Level of Detail option, with 11 "Highs" and 3 "Lows ... -'This score would be calculated
as:

11 ("High" responses) / 14 (total "High and "Low" responses)     ~   .786, or 78.6%.

Score

                                          Responses
                               Yes     No    Total  P et'centa e
 Part 1: Completeness

 Part 2: Level of Detail




Statistics
                                      ~L             '\~
                           Metric'·                                      Value

 Number of grants ' cQvered by the site · visit (as
 rep,orted in the site visit repoFt)

 Average d"0llitr value of grant.
                                           ..   '"
               ..
 Length of site visit (reported number of days in the
 site visit report)

 Joint visit (simultaneous visit with OCFO)?




                                                                                               9


                                                     65

                                                                                                 APPENDIX VI

Office of Audit, Assessment, and Management’s Draft
      FY 2010 On-Site Validation Pilot Program
    u.s, DepnrtmCnI of Justice
    Offi~  of JUstlcc Programs
    Office of Audit, AS!lcssmcrn, and /vt:loagcment

                          FY 2010 On-Site VlIlidatinn Pilot Prog ram

    The colleclion of /'eqwred mfo/'lIIuti on and accurate accounting of sire visit activities i.~
    cmciallo ejJecflve monitoring and oversight o[granliJ. In order 10 Imsure that Office of
    Jus/ice Programs (OJ?) gram managers are following site visit gUidelines aM to VeI'W
    thai m!orT/l(lfion collected on sile is acclIl"CIfely reflected In completed slle I'{$II repor/s,
    Ihe Office of Audit, A.ue.w/!el1t, and Management (OAAAf) will be conducting site visir
    validaTions dlll"lng rile second and rhird quarrel's of Ji'Y 20/0, The followmg narmllve
    descnbes rhe validG/ion proce.u in detail. After the pilO! validation visil.~ have been
    (.'ondueted. OAAM wilt revisit the proposed on-site validation p,rocfi.$s and update iI wilh
    le.I'.wns learned. as appropria/e..

    On Site V:llltI:ition Visit Sele dlon

    In FY 2010, OAAr-,'1 will focus its sile visil vaj{dnti ons 0 11 two Recovel'Y A...1 gral1t
    programs admi ni sterx:d by Ih e OJP 's Bureau of Jllslice'1 Assistllnec (I3J);:): t;pmbaling
    Criminal N arcotics ActivIty Siml1l11ingfrom Ihe $ollthern !Jorder of/he Uniled Stales and
    Rllral Law Enforcement Assi~'lance: Combating Rural Crfme. '1111.'" numlx'r of site visits
    on which OAAM evaluators w ill accompany BJA grant ll1 0nagers will depend lnrgely on
    OAAM fetkra l staff availabili·ty and OJA.:.~ monit oring plan.

    V:llidation Process

    Ono,; OAAM evaluator w' I ac~'ompany th..: 8I;anl managerCs) on the monitoring site visit
    (wilh Ihi: exception of the Iwo pilot sili: v i~ib; . for which two OAM,'I e\'alualon; will be
    present). The valida!!,on proec:ss will begin witllpre-sitc visil aCli vities. conti nue with on­
    site llctivities, and COIlO\l,Ide w ith pQ..st·site visit ac'tvities. 'l11rollgbollt these phases or th~
    vulidllliOIl pro~·ess.... thc OAA.i\'{ evnluator will complete the OAA~'I Validation Checklist
    (see Appendi x A~ This ch~:ckli~ t i~ b a~ea on the OJP Site Vi~i t Checklist and the
    Recovery Act Sit e Visit Checklist and. TRsk Revi.::w Add!.!nduill. It is critical lhal lhe
    OAAM '::'vaJ uator use the Validati?" Checklist to record all site visit observations, a.~ it
    wi l I scr.) e as Ihe basis for tho;ir lUlIIl5'sis and revie\\' orthe gran t mlUlager·s site visit report.
    "tlhe conciusioJl of the vn Ud /lIt-ion process.

    Pre-Sue VlS;t
    Prior 10 the actual 0I1-/;iI0:: visit, th o:: OAAM c"aluatur will cQndud a n:yitlw of thc grant
    using the Cirani Mllnft gemcnt S~tem (GMS). TIlis includes:
        • Reviewing tl]() award wo rking tile, induding the appl ication;
        • Reviewing previous desk reviews ... nd site visit reports:
        • Revicwi ng Ihe progrcs:; reports;
        • Reviewi ng the award '8 special conditions;
        • Reviewing the s ub·gm(1l, ij" appli ..:mblc;
        • Reviewing Ibe finlUlcia.1 reports;
        • Rc"i.:wing Ihe award dra\\'do\Vn hi ~1.ory; und




                                                       66

   •   Reviewing the solicitation the award was funded under. Solicitations can be found
       at hnp: //www . ojp.lL~ doj. gov/fundingisolicitations .htm.

If the award was funded through the Recovery Act, then the OAAM evaluator should
also review the following items :
    • The Recovery Act application requirements, to ensure they have been met;
    • Compliance with 1512 rcporting rcquirements; and
    • "Ibe site visit checklist addendum ..

It is important that the OAAM evaluator conduct a thorough revie v so that he/she has a
complete understanding of the grant.

After the OAAM evaluator has conducted his/her rev i e~,             ill meet with the grant
manager to discuss the results of the grant manager's es review and the impending site
visit. When discussing the desk review, the O!}A             aluator s ould ask the grant
manager open-ended questions, such as " What dia you lind during y            desk review?"
Questions that could be leading, such as " DiP ~:{cvi e\~ he previous s1te 11't reports,
and if so, what did you find?" should be avoidea:~ ecausc c%lain site vi~t criteria may
be addressed during the desk review instead of on sit , thc O AAM evaluator should
record the grant manager's respOllseS:-on the Validation 'iiecklist.

If the grant manager has not conducte
then the OAAM evaluator should ask the grant?
penomled.

After the desk review discussion is completea the OAAM evaluator should review the
upcoming site vis hitb the grantrmanagcr.    TIia-   illcussion should include:
   • ·Ibe agenda for th~ite i~·~ ...._~
                                    I·-==
   • I~e          0 ·stical tnforulation (sucb as transportation and site visit location);
        ssues for resoJution th were generated from desk review;
        ' 1 overview ofthe grant ~~er 's history with the grantee; and
   • W.hether the grant e is a high risk grantee .

O,,-Site
During the on-s i~ 0 ' on of the validation process, the OAAM evaluator will
accompany the grant anager to the grantee's location and observe the site visit. The
OAAM evaluator will shadow the grant manager, documenting the site visit 's progress in
the Validation Checklist. II is importlUlt that the OAAM evaluator fill out their
Validation Checklist in detail because they will refer to the checklist when evaluating the
grant manager's site visit report. The O AAM evaluator should record notes about the
grant manager's actions in addition to notes about the actual visit.

Although the OAAM evaluator should make every effort to silently observe the site visit,
OAAM recognizes that grant managers' approaches to conducting site visits may vary
from visit to visit. As such, the OAAM evaluator may have questions that arise during
the course of the site visit that require clarification by the grant manager. OAAM

                                             2




                                           67

evaluators should use professional judgment in detennining the appropriate timing and
approach to asking clarification questions_

It is strongly recommend thatlhe OAAM evaluator conduct a short daily debriefwilh the
grant manager each day during the site vis it. The purpose of this meeting will be to ask
the grant manager non-leading questions alXlUt what the grant manager observed but may
not have verbalized during the day. This is to ensure that the OAAM evaluator can be
confident that helshe has recorded all of the grant managcr' s monitoring activities,
especially non-verbalized observation (such as professional observations of grantees or
sub-grantees). '111e OAAM evaluator must anempt to limi any influence these
discussions may have on the grant manager's conduct during e GJllainder of the site
visit, including during the writing of the site visit report. 1\5 an example, the OAAM
evaluator should avoid asking if the grant manager has CQ 8u/.i.l specific actions (such
                                                                  ed
as whether they looked for any changes in grant activity as the l:J.uestion might cause the
grant manager to conduct the action the next day ifh s e I dn't done so already.

At the conclusi on of the site visit, it is expect&!. that al1 ~ 6 Site Visit Ci kJ.iSt criteria
wil1 be accounted for on the OAAM evaluatof. 's alieiati II Checklist. ~e OAAM
evaluator should be able to address each of these criteria, exp aining whet ler the criteria
were or were not addressed by the anI manager durin~lhe site visit, or if the criteria
were not applicable 10 the grantee.

Posl-Site VISit
Upon completion of the site visit, the OA       e aluator sir Id infonn the grant manager
Ihal helshe will bc revic in~lnc granl manager's comPLeted sile visit report in GMS oncc
it has been approved superv1 Sor approval required within 45 days of site visit end date)_
Using his/her Valiiat~n Check ist and notes, tflc....@AAM evaluator shall review the grant
                                 l
manager' s site visit re       and eoord his/he observations and analysis by cr.::ating a
Validationj-1emo. 'Ibe                valu tor' Validation Memo should include a brief
ana lysis 0 the d~s~ iew, si e isit and site visit report and any issues or concerns with
the review, visit or re~       The \!.~ evaluator should summarize the number of site
visit cri cria thaI were addresscd. ,

A packet 0        cumentatio containing the OAAM Validation Memo, the completed
Validation Checklist and the grant manager' s approved site visit report shall serve as the
official record oft~ s ite ",isit validation. OAAM will use their discretion in detennining
how best to notify tlietprogram office of the results, and work with them to improve the
quality of the site vitt' s and/or site visit reports as needed.
                        t




                                               3




                                             68

                                     Appendix A.
                                  Validation C hu klist


       A. Desk Review
Did the Grant Manager complete a desk review in the past six months??
                                 _ _ Yes          No _ _ Not Applicable (explain)

Notes :




          B. Entrance Interview
             a. Conduct entrance interview.
Was this completed?             _ _ Y"

Notes :


   • Discuss the expectations that were
   • Discuss any issues, problems 0                                   since thc pre-
     monitoring letter was prepared.




                                                    No _ _ Not Applicable (explain)




   • Discuss wether there was follow-up on any financial items identified during the
     desk review, ifap'pl·cabk
   • Discuss what J o umentation the Grant Manager reviewed, including a sample of
     expenditures b budgct category, the grant budget, (Uld the time line of drawdown
     activity as submitted by the grantee in their application.




                                           4




                                          69

             b. Com are ro ress re rts with rate 0 ex nditures.
Was this completed?          _ _Yes           No _ _ Not Applicable (explain)

Notes:


      • Discuss whether the Grant Manager addressed any issues of incomplete or
        delinquent progress reports with the grantee, ifapplicable.
      • Discuss whether the Grant Manager detennined whether the grantee IS
        adequately obligating or expending in accordance with the p'roject timeline.
      • Discuss whether the Grant Manager reviewed fi nancial reports in conjunction
        with progress reports to compare the rate of project1xpenditures against project
        activity levels.


             c. Veri
Was this completed?

Notes:


  •                                                                 arc segregated and



                                                   hether administrative cost threshold

                                                        _ _ Not Applicable (explain)




  •

   • If the allowable administrative cost has been exceeded, discuss whether the Grant
     Managcr had tJfe' grantee explain the discrepancy.




                                           5




                                         70

             e. jfformula grant. determine whether it has sub-grants. and i/the cost
                 threshold or those sub- rants has been met or exceeded.
Was this completed?              _ _Yes           No _ _ Not Applicable (explain)

Notes:


   • Discuss whether the Grant Manager compared the original approved budget against
     the actual budget to detennine if the allowable subgrant cost percentage had been
     exceeded. lfit had, discuss whether the Grant Manager had" he grantee explain the
                                                                1
     discrepancy.


              r   ! a ormula
Was this complelt:d?

Notes:


   • Discuss whether the Grant M", ger reviewed the~ubgrant process, including the
                                      a
     grantee's subgrantee reporting and onitoring procedu .



                                                                award dOC!lment and

Was this completed?                                    _ _ Not Applicable (explain)




                 C;::nfiJ"l thaI services/activities described in progress reports have
                 b{!ftl" provided and/or completed.
Was this completed?'                _ _Yes           No _ _ Not Applicable (explain)

Notes:


   • Discuss how the Grant Manager confirnl ed the provision and/or completion of the
     grantee's services/activities.




                                          6




                                         71

             c. Review com liance with con Identialit re uiremenlS. i a licable.
Was this completed?            _ _Yes           No _ _ Not Applicable (explain)

Notes:


   • Discuss what documentation the Grant Manager reviewed in the on-site fil e, if
     applicable.    Documentation could include privacy certifi cates, copies of
     modification to privacy certificates, and/or documentation of changes in research
     protocols.


             d. Review compliance wilh human sub ·e
                  a licable.
Was this complelt:d ?         - -y"
Notes:


   • Discuss what documentation t,,-e-- rant Manager-reviewed in the on-site file, if
     applicable. Documentation could · elude certifi catl0Q!'~m an IR S or the OJP
     Officc of the Gencral Counsel.                       )'


             e. CjrijJrm   herrer properry in[Or:Z:Wn is being maintained, if
                ~p }icable. •               •
Was this completed?             _ _Yes        No _ _ Not Applicable (explain)




                                          7




                                        72

                   f
                 Determine if any subcontractorlsulrgrantee monitoring is being
                    r ormed b rantee
Was this completed?             _ _Yes        No _ _ Not Applicable (explain)

Notes:


   • Discuss what documentation the Grant Manager reviewed to detennine whether the
     grantee is monitoring its subgrantees_ Documentation could include subgrantee visit
     monitoring reports/checklists, written procedures regarding subgrantee monitoring,
     documentati on of subgrantee site visit findings, finan cial/ cvons, progress reports,
     budgets and drawdown activiti es. 'Ille Grant Manage may al so review Recovery
     Act requirements as they may affect subgrantees.


         I< .
          ~     Ad ministrative- Pel"SOllllcl Revicw
             a. Observe grant actiVitieslsgr-v1/ii. _to ve7r~ whether ke f.5 sonnel are
                 actuall   ormin the duties 0" IIJall ",o OsM. I
                                                            m             hcable.
Was this completed?            _ _Y " _ _ 0 _ _ Not Applicable (explain)

Notes:


   • DIScuss whether the Grant Manager ~ . led that y' persoIUlel are perfonning the
     proposcd dUll') assigned 'to tJlcm The Grant managcr may vcrify this through
     dISCUSSIOIIS, o~~ tlons and/or documc tation reviews.

In certain SitUal:ns, ) he Q         evalualo may nol be able to confirm through
observatiO alon~he her Ih...e rani Manager has verified key personnel activities. and
may have 10 ask Ine ra¥! M al{Qger directly. If so, the OAAM should use non.leadmg
Qllci li ns , n dialogui 'g with ihy ant Manager.




                                               8




                                              73

                b. Review personnel timesheets to ensure that charges related to staffing
                   are in line with the proposed budget.

W a~   this completed?              __y "            No _ _ Not Applicable (explain)

Notes:


   • Discuss whether the Grant Manager detennined if employees in grant-funded
     positions are required to submit time sheets.
   • Discuss whether the Grant Manager reviewed any personnel fim sheets.




                                                _~... ~V'~~ NOI     Applicat)lc (explain)

Noles :




                                                                and services vs. actual

                                                         _ _ Not Applicable (explain)




                                            9




                                           74

               c. Assess deliverables through observing grant activities/services. if
                  apvllcable.
Was this completed?                 _ _Y os          No _ _ Not Applicable (explain)

Notes:


   • Discuss whether the Grant Mllllager reviewed the statlL~ of the project deliverables.


               d. Did YOII observe or were YOll made aware      ~hangeS in grantee
                    activi ?
Was this completed?                 _ _ Yes

Notes:


   • Discuss whether the Grant Manager review d                                         ~d
     whether the Grant Manager detennined if they w




               e.




   • Discuss li ~ Ie Grahl/ Manager verified the val idity ofpcrfomuulcc measurement
     data, including dip ussing the data with the grantee, continning data reporti ng
     methods, and dis ussing petfonn ance measures with the grantee.




                                            10




                                           75

          G. Grant Administration
                a. As a reSll1l of your observations or discuSSions with grantees
                   regarding grant activities/services. describe promising practices. if
                    a
W a~ this completed?                                  Na _ _ Not Applicable (explain)

Notes:


   • Discuss whether the Grant Manager found any of the grantee's activities to be a
     promising practice.

In certain sitzwtions, OAAAJ evalzwtor may not be abl !f eonfJ.:m through observation
alone whether the Grant Manager has found promis n "lUaetlces and may have to ask
the Grant Manager directly. If so, the OAAM s      1ff.:1{jl non-lea n questions when
dialogu ing with the Grant Manager.




Was this completed?

Notes :


   • Discuss whe           the grantee or the Grant Manager raised any issues of coneern
     during the site    VIS·'ihat might require follo'Wtp.


                      efq r ,he s te ·sp.j he grant manager should review the high risk list
                    on t~~OjP portq(]O determine i/the grantee to be site visited is on the
                    list. If t~e grantire was designated on the OJP High Risk grantee list,
                    document <lny steps that are taken to help the grantee resolve those
                    known issues.
Wa~   this complei'ed?                 _ _Yes          No _ _ Nol Applicable (explain)

Notes:


   • Discuss whether the Grant Manager detennined that the grantee wa~ high risk.
   • Discuss what high risk-related issues the Grant Manager discussed with the grantee
     during the site visit, if applicable.




                                              11




                                             76

               d. As a result of your observations or discuSSions with grantees
                   regarding grant activities/services, noW whether the grantee
                      erienced an roadblocks to rant im lementation,
Wa~   this completed?             _ _Yes           No _ _ Not Applicable (explain)

Notes:


   • Discuss an y roadblocks and/or action items the Grant Manager found during the site
     visit_

In certain situations, the OAAM evaluator may not e a~e to confirm thrOllgh
observation alone whether the Grant Manager has foun roo locks, and may have to
ask the Grant Manager directly. If so, the OA4M sho l:J ~e non-lead'ng questions when
dialoguing with the Grant Manager.




Notes:


   • Discuss allYT
   • Discuss an y




                                   __y"             No _ _ Not Applicable (explain)




   • Discuss whether the Grant Manager fOlmd any suspicion of fraud, waste 01'        ablL~e
     during the site visit, and what action the Grant Manager took, if appropriate_

In certain Situations, the OAAM evaluator may not be able to confirm thrOllgh
observation alone whether the Grant Manager has found fralld, waste and abl/Se, and
may have to ask the Grant Manager directly. If so, the OAAM should lise non-leading
questiOns when dialoguing with the Grant Manager.



                                           12




                                          77

         H. Exit Inteniew



Notes:


   • Discuss whether the Grant Manager summarized the results
   • Discuss whether the Grant Manager infonned the grantee
     resolution.                                           ....,......,
   • Discuss whether the Grant Manager solicited any
     the site visit.




                                            13




                                           78

                           Validation Checklist - Recovery Act

AI. Check that the grantee and sub-grantees have compiled with RecoveryAct reporting
requirements under Section 1512 o[the RecoveryAct.

Was this completed?                  __y"              No _ _ Not Applicable (explain)

Notes:


   • Discuss whether the Grant Manager reviewed the grantee( quliherly reports for the
     followi ng 1512 requirements: amount of funds rece9'ed; amOlmt spent on projects
     and activities; description of the project or activity A ncl u(i~s completion status; the
     nmnber of jobs created or retained; and details a         ubawards' and subcontracts.
   • Discuss whether the Grant Manager identified ha                of syst~is being used for
     data collection, and whether the Gr                Manager review          and verified
     documentation supporting all repm!!            data. ~cumentation coi11          include
     organization charts, position descript ions, ItIMnng listt. budget c~parisons or
     projections, timecards and payroll records, and e p oyee activity reports.



                                                      monitor.    rohibit Sll lantin
Was this completed?                                    Nor-       Not Applicable (explam)

Notes:


   • Disc~ whether-thc Gran~anagcr suspected (my supplanting and if they contacted
     the 0fliee of the ChicfFinan ial Officer rcgarding thcir suspicions.

In cert   i~   sitllations. the ;P.AiL\f evaluator may not be able to confirm through
observat/On~one whether.. tre Grant Manager has found fraud. waste and abuse, and
may have to a* he Grarlt M anager directly- If so, the OMM should use non-leading
               'r
questions when    a
                  ri
                   ~~X\lith the Grant Manager.




                                             14




                                            79

A3. Check special condition - limit onfimds (Section 1604)
Was this completed?                _ _Yes          No _ _ Not Applicable (explain)

Notes:


   • Discuss whether the Grant Manager examined progress and financial reports to
     detennine if funds were used improperly in support of any ca~ino or other gambling
     establishment, aquarium, zoo, golf course, or swimming pool.
   • If the Grant Manager suspects improper use of funds , d~ whether the Grant
     Manager requested lists of expenditures from the granX


A4_ Check special condItion - Infrastructure         11n{«en';'}.;~rion15lJ) . speCial
condition - re erence (or /lick start activities Secfion~:1;~)
Was this completed?                _ _Yes            No _ __ Not Applicablc explain)
                                                          .

Notes:


   • For grantees that will be or are i!!$"'funds for infr tructure investment, discuss
     whether the Grant Manager confinned"lhat the grantee ubmitted a certification for
     infrastmcture investments, and tnat the granIe 1I a 50% of the funds for
     infrastmcture activities-no later than I 0 (lAys a~me 13, 2009.




                                     _   Ycs     _   No     _   Not Applicable (explain)




Ifthe grantee is ~ i.ng Iron, Steel, or Manufactured Goods for a public building or a
publi c work, discus wh Her the Grant Manager noted this and contacted or plans to
contact OGe with an questions.




                                            15




                                          80

A6. Check s ecial condUion - Wa eRe lIirements
Was this completed?              _y"

Notes:


   • Discuss whether the Grant Manager verified that the grantee included the standard
     Davis-Bacon contract clauses (found in 29 CFR 5.5(a») in any covered contracts in
     eXcess of $2,000 fo r constmction, alteration or repair, if appl icable. To do so, the
     Grant Manager might review job post ings, offer letters, timecards, payroll records,
     and location prevailing wages.


A7. Check s eciaJ condition - National Environmental.Poli
Was this compleh:d ?               _ Yes         NO       _ Nol A

Noles:


   • If OJP funds are being used for major renovation projects or (U1Ynew constmction,
     or programs involving the lise of ~emtcal s or any odle    ti: ity, including research
     and tcchnology dcvelopment, Ihal may       e 8l effect on he cnviromnent, discuss
     whether the Grant Manager :                              ~
           o




                                     S ecial Condition - Trust Fund
                                     __y"       _ No       _ Not Applicable (explain)

Noles:


   • For JAG Local and JAG State grantees, discuss whether the Grant Manager
     confinned that the grantee established a trust fund account, and whether the
     principle of fund s is being maintained.




                                             16




                                            81

                                                                                                 APPENDIX VII

Office of Audit, Assessment, and Management’s Draft
         FY 2010 Standard Site Visit Checklist
                                                                                                Department of Justice
                                                                                            Grant Monitodng Checklist


                                                Site Visit Checklist
                                               [Adobe (. pdf) version)


INSTRUCTIONS; You will be required to certify that you ha ve reviewed all the elements listed below when
you complete your site visit report in GMS . It is therefore strongly recommended that you use this checklist to
review grantee progress during the site visit. In completing the site visit checklist, please note ~Ie following;

   •   Grant managers are required to complete the elements contained within this checklist fO!' full
       monitoring visits. Full site visit monitoring could occur althe evenl site where a project dEllivarable is
       being presented, conferences, meetings convened by grantees in connection to the projElct,
       deliverable reviews (i.e _. training) , and cluster meetings with other grantees, To determine w hether
       conducting an off-site monitoring visit is appropriate consider the type of project that you will be
       reviewin g. For example , if the project is research-based , viSiting the grantee at a conference may be
       appropriale, provided the necessary documentation is obtained to complete th e requirements of a full
       monitoring visit , If the grant funding involves a construction project or training delivery, monitoring at a
       confe re nce would not be sufficient to fulfill full site visit monitoring requirements. Full monitoring visits
       must include programmatic, financial , and administrative re view elements. For those monitoring visits
       not conducte d on site, if adequate information cannot be obtained during the visit, it is acceptable for
       grant managers to follow up and complete the checklist by obtaining required materials via fax,
       documented phone contact, email correspondence, elc,

   •   Descri be in detail what you observed on-site in the ·Comments and Action Items· section or
       document issues (if any) in the "Issues for Resolution" section.
             :- Comments are general in nature, but specific to the award and site visit (e. g., the grantee !'las
                sufficient oversight procedures il1 place to review subgrantees).
             :- Action items are defined as those that require follow up by the grant manager but do not
                necessarily involve the grantee (e, g .. the. grantee indicated that the financial report would be
                uploaded by 4/15. The grant manager must confirm that th is has been done.).
             ~ Issues for reso lution are defined as those that require action on the part of the gmntee (e. g ..
                the grantee is delinquent on a financial report and needs to upload the curre nt report to GMS),
                Post-monitoring issues for resolution are Ihe only conclusions that require gra nteo action after
                the site ViSit and folloW the Issue for resolution worldlow outlined in Sectfon 8.2.6.1.
       It Is recom mended that you number each separate comment, action item, or Issue for re~;olution (e.g.
       Comment #1 , Comment #2, etc_),

   •   Please nole that this Adobe (-pdf) version of the site visit checklist Is designed to be printed and used
       for taking notes during site visits. If you choose to print and complete this Adobe (. pdf) vlersion
       checklist, you are still requ ired to enter att relevant information (comments. action items. and Issues
       for resolution) into the Conclusions Inbox and use your checklist responses to inform the site visit
       report in GMS. You witt be required to certify that you have completed this checklist when you
       complete your site visit report - GMS .
                                         in




                                                                                           FI'   201~   <;4"""",,, S,I.VillOl. CIIttl:liJI.
                                                                                                                     R<"oI>e<l I I/2i)09


                                                        82

                                                                                                   Department of Justice
                                                                                               Grant MonitOring Checklist

                                               A. Grant Information

Grantee Organlz.ation(s);                              Grant Number(s):



Site Vi'i it Start and End Oates:                      Site Visit 10 Number:




                                              B . E'n trance Intervi ew

      ITEM                                                                          COMPL.ETED               COMPLETED BY

                                                                                 VES     NO       NI'
      Conduct entrance interview.
1.
COMMENTS AN DIOR AC TION ITEMS




ISSUES FOR RESOLUTION




GUIDANCE

The purpose of the entranoe inteNlew (or conference) is to :
• Set the lone and establish expectations forlhe onsite monltonng ~1511,
·
•
     Reiterate items that have alre ady been sent to the grant coniact in the pre-monitoring letter and enclosures, and
     Discus5 issues, probiems, or concern", that have developed since the pre·monitoring letter wa s prepared.




                                                            •
                                                                                              FY '!o l Ci SlilIHla...!Sl!c Vi".l (,"~C~I;.1
                                                                                                                       Rcv;,jtd l1f200!1




                                                           83

                                                                                                      Depart~nt of Justice
                                                                                                  Grant Monitoring Cnecklist
                                                 C, Financial Review

          ITEM                                                                        COMPLETED                 COMPLETED BY

                                                                                   YES      NO       N/'
          Conduct general bUdget review ,
2.
COMMENTS AND/OR ACTION ITEMS




ISSUES FOR RESOLUTION




GUIDANCE
•    Follow up on arr.J financial iterm; Identified during Ins Pre-Site Visit review and/or desk review such as timeliness of
     financial repom, unallowable expenditures, or cost sharirglmatch. (Reference the Pre·Site Visit Monitoring
     guidance In GMS or the GAT User Guide on the Portal for Instructions on the desk revleYo' checkliSt. )
•    Request sample of expenditllres by budget category if not a lready requested or received prior to site \lisit. Review
     expenditures to determine if they are reasonable and allowable.
     0  Reasonable expenditures are items pUrchased that are necessary to the project: the cost of the items or
        services should not be excessiVe,
     u      Allowable expenditur es are those costs that are allowed under public taws and regulations (e,g" OMB circulars,
            FAR), as well as under the award agreement and approved budget, For example, entertainment, donatIons,
            and Interest expenses are unallowable under Government projects. Where travel is charged to an individual
            award there should be documentation (such as a travel authorization) describing ihe travel and exp!aining
            hoW......hy this trip IS directly related to or Wil l help aooomplish award object~es
     .~     Review the budget to ensure that the grantee hasn't exceeded expenditures per tudget ca tegory in excess of
            10 percent. Movement of dollars between appl"oved budget categories is allowable up to 10 percent of lhe total
            award amount, provided there is no change In project scope.
     '0     Because discretionary grants have line item budgets, determine if drawdown activity has occurred according to
            tne time line sutmitted by the grantee in its application scope,
•    If a grant or grants are Undergoing an OJPaudit review (e.g, A·133l, review audit details in GMOC and contact the
     assigned GMFO monitor for any audit-related questions to be addressed during or after the site vls!t
•    Grant managers should contact OGFO to address any identified issues and questions, as necessaoy




                                                                                                 FY -':OHl S13lldard ~ ilc vi.~ (;l ,ed:Ji-'l
                                                                                                                         Rt\l;.cd l li2009




                                                             84

                                                                                                    Departrl1ent of Justice
                                                                                                Grant Monitoring Checklist


         ITEM                                                                        COMPLETED                COMPLETED BY

                                                                                  YES     NO       NIA
         Compare progress reports With rate of expenditures
3.
COMMENTS AND/OR ACTlON ITEMS




ISSUES FOR RESOLUTION




GUIDANCE
•    Review progress repo rts submitted during the past year address any incomplete or delinquent progress reports
     with grantee.
•    Determine ir the grantee Is adequately obligating or expending In accordancE'! With projected project(s) timeline.
           Does It appear thallhe granleeisoverspending or underspending?
     "
     0     Should the grantee have spent more funds at this fXlint in the execution of the projectfprogram?
     0      DIscuss any concerns with grantee and note Justification where appropriate.
•    Review financial reports in conjunction with progress reports to compare the rate or eXpenditures with the prOject
     activity level noted In the progress report.




                                                              ,
                                                                                               FY ~Ol(j Slilll<b,..!Si!c vi.J! (.1 ,ed:Jj,g
                                                                                                                       Rt'Ili.cd 11 / 2009




                                                              85

                                                                                                       Department of Justice
                                                                                                   Grant MonitOring Checklist


         ITEM                                                                          COMPLETED                COMPLETED BY

                                                                                     YES     NO      N/A,
         VerIfy that grant fundS are not commingled,
••
COMMENTS ANDIOR ACTION ITEMS




ISSUES FOR RESOLUTION




GUIDANCE
•    If other funds are being used to support the grant activity, ... erlfy that the funds are segregated and that the grantee's
     financial man<lgement system keeps the m separate.
     ,      Forexample, ca n the grantee show that a budget code has been aSSigned to th is grant?
     0      Do discrete grant Items have separate activity/accounting codes from other grant funds or funding sources?




         ITEM                                                                          COMPLETED                COMPLETED BY

                                                                                     YES     NO      NJA
         If a formula grant, determine whether the adminlstralive coslthres11old
5.
         has been exceeded.
COMMENTS AND/ORACnON ITEMS




ISSUES FOR RESOLUTION




GUIDANCE
•    Compare original approved budget for allowalje administraillle cosl percentage "'5. actual biJdget If the actual
     budget percentage. is greater than allowable, request that the grantee explain the discrepancy.


                                                              j


                                                                                                  1 : 01(/ Slilll<b,,J She Vi91 (.',cc~I;.1
                                                                                                   ,1'
                                                                                                                         I!.t\l;..,d llt2OO!1




                                                              86

                                                                                                    Department of Justice
                                                                                                Grant MonitOring Checklist


      ITEM                                                                           COMPLETED                COMPLETED BY

                                                                                   YES    NO       N/'
••    If a fo rmula grant, determine w llether it has subgrants, and if the cost
      thresho ld for thOse 5ubgrants has been met or exceeded,

COMMENTS AND/OR ACTION ITEMS




ISSUES FOR RESOLUTION




GUIDANCE

•    Compare original approved budget a llowable subgrant cost percentage v ersus actual budget If the actual budget
     percentage IS greater than allowable, request that the grantee explain the discrepancy.



      ITEM                                                                           COMPLETED                COMPLETED BY

                                                                                   'YES   NO       N/'
      II a fo rmula grant, review the overall subgran\ process.
1,
COMMENTS AND/OR ACTION ITEMS




ISSUES FOR RESOLUnON




GUIDANCE
•    Complete a general review ollhe subgran\ ~ocess and check 10 see whether Ihe ~ocess for sul:lgrantee reporting
     Is acceptable, Wtle-the r adequate subgrantee administrative and fina ncia l monitoring Is taking place, etc.




                                                              I.

                                                                                               I'-Y : 01(/ SliII1,b,,J :tile Vi91(;I,ed:li.l
                                                                                                                           Rcv;;ed l lf~OO9




                                                             87

                                                                                                    Departmenl of Justice
                                                                                                Grant MonitOring Checklist
                                    D. Administrative - Award File Review

       ITEM                                                                            COMPL.ETED             COMPLETED BY

                                                                                  YES     NO       N/'
      Wt'llle on·sile, review lhe awa rd file and check for
B.
       •   Signed award docume nt; and
       •   CorresponderK::e with OJP grant manager_
COMMENTS AND/OR ACTION ITEMS




ISSUES FOR RESOLUTION




GUIDANCE

•    Ve rify whether comple te me is being maintained and all information is current
•    Add ress any concerns identified dtJring desk re l'lew_



       ITEM                                                                            COMPL.ETED             COMPLETED BY

                                                                                  YES     NO       .,,
".    Confirm that selVicesfactivjlfes described in prog/BSS reports nave
      been prOVided and/or completed.
COMMENTS AND/O RACTION ITEMS




ISSUES FOR RESOL.UTION




GUIDANCE
•    Check thai grantees are performing the servlces/actMUes as slated in their grant applications and progress reports.




                                                               7

                                                                                               I'-Y '!ulCi SlilIHla.,J Sile Vi".l (,"~C~I;.1
                                                                                                                          Rcv;,jtd l1f200!1




                                                               88

                                                                                                    Departl\1ent of Justice
                                                                                                Grant Monitoring Checklist


         ITEM                                                                        COMPLETED                     COMPLETED BY

                                                                                  YES     NO        NI'
         Review compliance with confidentiality requirements , if applicable.
10.
COMMENTS ANDI OR ACTION ITEMS




ISSUES FOR RESOL.UTION




GUIDANCE

Check thai the on-site file contains;
• Privacy Certificate,
•      Copies of changes to the Privacy' Certificate, If applicable, <lnd
•      Documentation of any changes in Ihe research protocols thai may affectlhe confidentiality and/or the securlty of the
       research and statistical information collected as part of the project, if applicable



         ITEM                                                                       COMPLETED                      COMPLETED BY

                                                                                  YES     NO        NI'
        Review compliance with human subjects protection requirements , if
11 "    applicable.
COMMENTS ANDIOR ACTION ITEMS




ISSUES FOR RESOLUTION




GUIDANCE

Check that the on-site file Includes one of the fo llowing
• Certification from an iRS or from the OJ? Office of the General CoUnsel that the prolect does not constitute
   researctJ or Involve human subjects,
•      Certification from an IRS or from the OJP Office of the General Counsel that the project is exempt from IRS review
       and approval, <lndlor
•      Certification Ihat the project has been reViewed and approved by arltRB.




                                                                g

                                                                                               FY   ~ O l (j   SliIIl<b,,jSilc vi.J! C,1Icd:Ji.r;
                                                                                                                             Rt'I'i.ed l li2009




                                                                89

                                                                                                  Department of Justice
                                                                                              Granl Monitoring Checklist




       ITEM                                                                         COMPLETED              COMPLETED BY

                                                                                  YES   NO      NIA
       Confirm whelher property informatIOn is being maintained, if applicable
12-
COMMENTS ANDIOR ACTION ITEMS




ISSUES FOR RESOLUTION




GUIDANCE

•     Involves review of records 10 make sure grantees are maintaining inventory of property used as part of the-grant
•     If Inventory' observed, please provk:Je comments regardif'"9 your observatlons_




                                                             "
                                                                                             FY ~O l (j SIIlHU ...1Silc Vi91 ('1Icd:JiS[
                                                                                                          I
                                                                                                                     1I. C\';~d   I 112009




                                                            90

                                                                                                           Depart~nt of Justice
                                                                                                       Grant Monitoring Checklist


           ITEM                                                                            COMPLETED                  COMPLETED BY

                                                                                        YES      NO        NI.
           Determine if any subcontractor/subgrantee monitoring is befng
13.
           performed"" grantee, ff applicable, and that the grantee monilors its
           subgrantee for compl iance With Ihe conditrons of the subgrant award
 COMMENTS A ND/O R ACTION ITEMS




ISSUES FOR RESOLUTION




GUIDANCE

 •    If the grantee passes funds on to another organization, fs it clear that It subgrants these funds?

 •    Check that grantee IS monitoring its subgrantee(s)
      "     Granl managers should revieW evidence, such as a sUb·grantee Site visit monitoring reports or completed
            checklists, to verify thai site visits are occurring as scheduled
 •    Do wr itten Pfocedures exist regardir'1g subgrantee monitoring?
      IJ    Is a process in place for onsite monitoring by the grantee reporting the data (many formu la programs can retain
            a portion of lhese awards for oversight')?
      Q     Does the grantee mOnitollng checklist satisfy the administrative, financial and programmatic elements (grantee
            should ask questions similar to OJP monitoring checkl ist at subgrantee site visil)?
 •    Is SUbgrantee meeting terms and conditions of award?
 •    Standard fi ling-evidence of fOllow·up?
      Q     Does the grantee document site visit findings in a report?
      o Does the grantee have a process for following up on Issues, if applicable?
 •    Check if any of Ihe subreclprents are debarred or suspended from participation in Federal assistance programs,
 •    Check that grantees know when and where to report issues with sUbgrantees to OJP.
 •    Add ltkma lly, granl managers should review the follOWing doculnents on sutx;ontractorsisubgrantees when
      examining suocontractorfsubgrantee monitoring:
      0      rinancial reports, progress reports, and drawdown activity,
      v      budgets ,
      n      documentation thaI prime reci pients are verifying Ihal subrecipients have rrret the necessary audit requirements
             contained rl1 the Financial Guide (see Part IlL Chapter19 Audit Requirements).
             For Recovery Act grants, check award documents fOf the Recovery Act reqUirements.
      "

I "A Guide to Grant Ove~ight and Be5t Prac;tioo5 for Combating Gran.) Frauoj" Nabomll Procl.iremen\ FraUd Ta5li Force, Februal)'

"""                                                              IU

                                                                                                      FY   ~ O l (j Slill1dard~irc   vi.K ('1Icd:Ji.t
                                                                                                                                RC\l;..:d 11 /2009




                                                                91

                                                                                                    Departl\1enl of Justice
                                                                                                Grant MonitOring Checklist
                                     E. Administrative - Personnel Review

        ITEM                                                                         COMPL.ETED              COMPLETED BY

                                                                                  YES     NO      NIt.
       Observe grant actNilies/servlces 10 venfy whe tl1er key personnel are
'4.    actually performing the duties originally proposed, if aPP lcable (e.g.
       key personnel are identified in the grant apPlication),
COMMENTS ANDIOR ACTION ITEMS




ISSUES FOR RESOL.UTION




GUIDANCE
•     Through discussion, observations, and review of oocurneniailon, verify Ihat key personnel Identified In the project
      are actually working on t~ project and thai arty charges !lave been approved,




                                                             "                                 FY '!olCi SliIIHla...!Sl!c Vi".1 (,"~C~I;.I
                                                                                                                        Rcv;,jtd l1f200!1




                                                            92

                                                                                                         DeJl3rt~nt of Justice
                                                                                                     Grant Monitoring Checklist


          ITEM                                                                           COMPLETED                 COMPLETED BY

                                                                                       YES     NO        NIA
,S;       Review personnel timesheets to ensure that charges rela ted to staffing
          a re In line with the proposed budget.
COMMENTS AND/OR ACTION ITEMS




ISSUES FOR RESOLUnON




GUIDANCE

•     Determine if employees!11 positions funded by grant fun.ds are required to submit time ~heet~, If so, review
      tlrnesheets to determine if
      o Actua l hours worked are recorded on the timesheet, and/or
      ~    Time sheets refl ect distribUtion of employee actIVity between projects (or grants) .
      0    Personnel charges are In line with what was proposed in the original bJdgel and applicatJon;
           Charges e)(ceed the total number 01 hours for a given pay period (if so, determine if overtime is properly
      " recorded) , and
      o Timesheets have been Signed (either In w riting or electronic'ally) by the employee and a supervisor
•     Gran! managers should contact OCFO to address any identified issues or questions related to tJme sheets and
      personnel e>:pend1tures, as necessary




                                                                 "                                  FY   ~ (H(j SI3/ldard~ilcvi.J! ('1Icd:Jj,g
                                                                                                                           Rt'oli.cd l li2009




                                                                93

                                                                                                              Departl\1enl of Justice
                                                                                                          Grant MonitOring Checklist
                                                 F. Programmatic Review

           ITEM                                                                               COMPL.ETED               COMPLETED BY

                                                                                           YES     NO       NJA
           Did the grant manager visit grant funded project site where one or
' ''''1    more activity/deliverable is performed?
COMMENTS ANDIOR ACTION ITEMS




ISSUES FOR RESOLUTION




GUIDANCE

•     The site of the grant-funded prOject Is the site where !lie program or activity funded        t:1f the grant Is laking place .
•         If multrpje slles are funded under the same   gran~   t;lKe note of the total nUmber of sites that   w~re   visite d (10 be
          documented in the site visit repo rt) .



           ITEM                                                                               COMPL.ETED               COMPL.ETED BY

                                                                                           YES     NO       NJA
           Review proposed project goals, activities and services vs, actual
17.        activities and services (e_ time task plan).
                                      g.
COMMENTS ANDIORACnON ITEMS




ISSUES FOR RESOLUTION




GUIDANCE




                                                                                                        /'Y '!U III SliIIHU,,jSilc Vi91 ('1,cckli,1
                                                                                                                                ItC'l;:ltd 111200\0




                                                                    94

                                                                                                 Departll1enl of Justice
                                                                                             Grant Monitoring Checklist
•      ThrolJgh discussion and review of documentation, reView hOW objectIVes are being implemented and compare to
       what had been planned _Follow up on any COflCerns identified during the desk rlNiew.
•      Does progress reflect goals o utlined in the original or continuing grant applicatio n?
•      Review   ISSueS   from prior visit, if any, or additional issues that require resolution



        ITEM                                                                                 COMPLETED               COMPLETED BY

                                                                                           YES    NO      N/'
,e.,    Assess deliverables through observin9.granl actiVi\.Ies/5ervjCes , If
        applicable.
COMMENTS AND/OR ACTION ITEMS




ISSUES FOR RESOLUTION




GUIDANCE
•      Assess whether staled prOject delivernbles are being produced in a quality and timely manner




        ITEM                                                                                 COMPLETED               COMPLETED BY

                                                                                           YES    NO
'8.     Did you observe or were yo u made aware of any changes in grantee
        activll1es?
                                                                                                          ""
COMMENTS ANDIOR ACTION ITEMS




ISSUES FOR RESOLUTION




                                                                   1
                                                                   4

                                                                                                       1-Y<;:OI!l SlrtlHu,,J:thc Vi91 (,1lcckli,1
                                                                                                        '
                                                                                                                               RC'I;:itd 111200\0




                                                                   95

                                                                                                         G
                                                                                                                Depart~nt      of Justice
                                                                                                                    MOnl-!Qrlng Cnkllt         ,
                                                                                                             "'"'               \
                                                                                                                                        '"

GUIDANCE
•     Assess whether changes in aCllvities are unallowa~e or il they require appropriate approvals, and request
      appropriate action or justificationldocumenlaHon where necessary



          ITEM                                                                               COMPLETED                COMPLETED BY

                                                                                           VES     NO      NJA
          Verify that rep:lrted performance measurement data IS "alrd, and IS
20.
          being collected appropriately.
COMMENTS ANDIOR ACTION ITEMS




ISSUES FOR RESOLUTION




GUIDANCE
To verify that quarterly performance measures are valid, grant managers should do the following:
• View aggregate performance measuremeni data at regular intervals and determine If there are any g laring reasons
      for ooncern, such as possible olleHeporting, under-reporting, spikes in reporting, or lack of progress reported. In
      sLlCh Instances, request jusllflcation from grantee,
•     Discuss all performance measures with grantee 1 ensure tha tlhe grantee has a clear understanding of hoW they
                                                     0
      are defined ,
•     Ve rify that grantee has linked its activities to estabOshed goals.
•     Confirm whether the data are used 10 guide program determll)ations.
•     Check that graniee has an adequate method for collecting performance measurement data Adeq uacy can be
      assessed by checking to see Ihat consistent procedures are lJ5ed, whether they are based on a proven modell'and
      whether safeg uards are in place to protect performance data Integrjty.
      o Veri lY that the gra ntee maintains sufficient records to substantiate performance data that are re ported.
      0    Identify whether o r   not an independent party is testing   data co llection and reporting processes, Cinc! if so, the
           method lJ5ed_
      0    For grantees With subawards, 15 there a process in place for on-.slle monitoring by Ihe primary gra ntee reporting
           the dala? (Grantee would ask questions similar to those above while at suooward site _  )



                                                                                                        I'-y 201 SllIlHlard ~ilC vi,,", GlcCl:liOi
                                                                                                                (/
                                                                                                                               RNi.ed 11 /2009




                                                                 96

                                                                                                         Department of Justice
                                                                                                     Grant MonitOring Checklist
                                                 G. Grant Administration

         ITEM                                                                            COMPLETED                COMPLETED BY

                                                                                       YES     NO      Nlf<
        As a result of youro~ervat ions or discussions with grantees regarding
21 .
        grant activities/services, describe promising practices, if any.
COMMENTS AND/ORACTION ITEMS




ISSUES FOR RESOLUTION




GUIDANCE

•      Briefly describe any programs, initiatives, or activities considered to be succl'lssful models for others to follow.




         ITEM                                                                            COMPLETED                COMPLETED BY

                                                                                       YES     NO      N/A
         Note whether the grantee raised aNy Issues during tM site lIiSI!.
2~

COMMENTS ANDIOR ACTiON ITEMS




ISSUES FOR RESOLUTION




GUIDANCE

•      Briefly list any issues raised I:¥ the grantee or discovered In your an-site review that may require action an the part
       of the grantee as well as any rela ted action items or comments, If applicable.




                                                                                                    FY : 01(1 SliIIl<Uo,J SilC \/;91 (."~C~I;.,
                                                                                                                            Rcv;:ltd \1f200!1




                                                               97

                                                                                                         Department of J ustice
                                                                                                     Granl Monitoring Checklist



       ITEM                                                                              COMPLETED                COMPLETED BY

                                                                                       V ES    NO      NIA

",     Before the site VIsit, the grant manager shOuld review the High Risk list
       on the OJP porta l to determine 1f the grantee to be site visited IS on the
       list Grantees are designated as "High·Risk" by OMM in accordance
       With criteria established in 28 CFR § 66.12, OJP Order 2900.2, and the
       Grant Managers Manual, Chapter 10. If the grantee was des1gnated
       on the OJP High Risk grantee list, document any steps that are taken
       to help the grantee resolve those known issues.
COMMENTS ANDIOR ACT10N tTEMS




ISSUES FOR..RESOLUTION




GUIDANCE
•    Request a copy of the designalio(lletter aoo any available docume ntation regarding outstanding auc:ms for the
     grantee from OMM. This step will help the grant manager determine which issues may be appropriate to discuss
     with the grantee dUring the site viSIt.
•    In addition to anything In lt1e designation letter, please ensure that the follOWing items are discussed wlm the
     grantee and:
     <:: ANt actions Ihal are panned or In progress to resolve withhOlding or non-withholding special conditions:
     .~ Any impediments to completing the remediation plan or planned activities r andlor,
     ., Any risks to successful project implementation and performance related to the issue that caused the grantee                      to
        be pl aced on the High Risk list
•    Alter the site "isi!, documented any issues In the si te vtslt report arK.! refer af1.J outstanding questions 10 the
     appropriate OJP deSignee.




                                                                17

                                                                                                    FY ~Ol(j SIIIlHU"I Silc vi.J! ('1 Icd:Ji-'l
                                                                                                                          Rt'Ili.cd 11 / 2009




                                                               98

                                                                                                        Department of Justice
                                                                                                    Grant MonitOring Cl'Ieckllst


       ITEM                                                                           COMPLETED                 COMPLETED BY

                                                                                    YES     NO       NIA.
       As a resLilt of your observatiof1S or discussIons with grantees regarding
24.
       gran! activltiesisel\ljces, note whether ihe gra ntee experienced any
       roadblocks 10 grant implementatiOn
COMMENTS ANDIO R ACTION ITEMS




ISSUES FOR RESOLUTION




GUIDANCE
•     Briefly list any roadblockS encountered as well as any related action items, if applICable.




                                                                                                 I'-Y <)o l(jSuln.u"J:tilc l,Ii{ll (,'Iod:li.l
                                                                                                                         RC'I;:lt"d l1 f~009




                                                             99

                                                                                                       Depart~nt of Justice
                                                                                                   Grant Monitoring Checklist


          ITEM                                                                          COMPLETED                   COMPLETED BY

                                                                                     YES     NO        NI'
          Describe any training or technica l assistance (TT A) currently In
26.
          progress. provided, or requested. Document if arry T A needs arise
          wh ile on-site_
COMMENTS ANDIOR ACTION ITEMS




Issues FOR RESOLUTION




GUIDANCE

•     Briefly describe any financlal.rela ted, administrative, and/or programmatic ITA provided to or requested by the
      grantee during the site vls~.
      0      This includes, bulls 001 limited to, assisting the grantee in properly complellng fi nancial status reports,
             request!ng grant funds , or answering questions related to the award file or administrative personnel revIew
•     Follow-up on any n A needs determined dUring pre-Site visit reviews or correspondenceiconversalions with the
      granlee
•     Briefly describe arry n A provided to the grantee previously
      0     Vvl'1at did the grantee indicate as ITA pros and cons?
      ,      Was the grant manager able to work with the grantee to resolve any p[oblemswith past iTA?
•     Briefly review sustainability plans wfth the grantE'e and identify if any training or other capacity enhance~nt or
      technical assIstance wou ld be appropriate. To determine If a grante@ might benefit from lTA related to sustalnability
      ISSueS, determine:
      0      Will the activities/services/purchases performed using these grant funds oontinue after OJP funding has
             ceased?
      e      If additional employees we re hIred, wi ll the g rantee conUnue to fund these posftions after OJP funding has.
             ceased? If so, how?
      n      If new programs have been implemented, how will these programs be funded after OJP Junding has ceased?




                                                                '"
                                                                                                  FY   ~IJI O   Slilll<b,..!Si!c vi.J! (.1 ,ed:Jj,g
                                                                                                                               Rt'oli.cd 1112009




                                                              100

                                                                                                   Departmeont of Justice
                                                                                               Grant Monitoring Checklist


      ITEM                                                                         COMPLETED             COMP LETED BY

                                                                                Y ES    NO     NfA
,..   ThoroiJghry review the gra ntee's financial , adminlstratille and
      programmatic compliance to detect any potential indicators of fraud,
      waste, and abuse. If fraud , waste or abuse is suspected, follow OJP
      reporti ng guidance
COMMENTS ANDIOR ACTION ITEMS




ISSUES FOR RESOLUTION




GUIDANCE
In addition to the items in this checklist, the following activities may help to detect anotor prevent grant fraud :
    • Determine if consUltants are Involved In a grant program; if so, get the detalis & ensure the process Is fa ir &
         reasonable , IS $450 a day Justified?
    • Ensure that the grantee has read the Confiicl of Interest defin~ion in Chapter 3 of the OJP Financial Guide.
    • Discuss the procurement process with the grantee, including sole source contracts.
    • ExplaIn that grantees must supporitheirdraw-dO'Nns orFSRs with evidence (general ledgers, receipts , or lime
         sheets)
    • Discuss indirect cost rates and reporting income generated Of grant activities.
    • Inquire about grantee's internal controls/segregation of duties - recommend or mandate a fiscal agent and/or
         financial management training.
    • FolIO'N up with unresponsive or noncompliant g raniees as soon as possible.
    • Questlon generic or nebulous reports submitted by grantees.
Gran! managers shoukl comm unicate any cancern to their supervisors and as appropriate to OCFO, OAAM, or OGC or
directly to the OIG·s Fraud Delectlon O ffice, http /mww.usdol.govfoigl Additional information o n grant fraud prevention
and detection can be found in the Guide to Grant OIerslght i.'Ind Best Practices for Combatirlg Grant Fraud issued by
~':r National Procurement Fraud~~:!:~~e, ~nt Fraud Committee, located at
     'ftwww.      .. vfo i Is f If   0      I  i




                                                           20

                                                                                             Joy 201{) SI"",lards;~ v,';' Clcd:!;"
                                                                                                                  RNi..:d 11/2009




                                                          101

                                                                                       Departll1ent of Justice
                                                                                   Grant Monitoring Checklist
H. Exit Interview

        ITEM                                                            COMPL.ETED                  COMPLETED BY

                                                                       YES   NO         N'A

"'.     Complete exll interview

 COMMENTS AND/OR AC TION tTEMS




ISSUES FOR RESOL.UTION




GUIDANCE

The purpose of'the e)(il lntervlew Is 10
• Summarize results Of the monitoring vi Sit,
·     Intorm grilntee ot any pote ntlallsstJes for rer.olut!on, ancJ

·     Soliciliniliai feed back from grantee a bout the site visil.




                                                                                  lOY   ~Ol(j   SliIIHU,,j Silc Vi9! ('1Icd :JiS[
                                                                                                             II.C'I';~d   1112009




                                                                102

                                                                                                      Department of Justice
                                                                                                  Granl MonitOring Checklist
                                                     1. Other Items
NOTE: If you have a ny adcfltiona l general items not already listed on this checklist to feport with com'ments. action items
or Issues for resolullon, please complete the following sections If you have no aQdltlonalllems, p ~se [eave thls
se<;;tion blank,



        ITEM                                                                          COMPLETED                  COMPLETED BY

                                                                                    YES     NO       NIA
2a
 COMMENTS AND/OR ACT ION ITEMS




 ISSUES FOR RESOLUTION




        ITEM                                                                          COMPLETED                  COMPLETED BY

                                                                                    VES     NO       NIA
 , ",

 COMMENTS AN DIO R ACTION ITEMS




 ISSUES FOR RESOLUTION




                                                                                                 I'-Y '!~ I (j Slilll,u,.! She V;91   (,1 ,cc~I;.1
                                                                                                                           II.t'I';~d   llflOO!l




                                                            103

                                                      Department of Justice
                                                  Grant MonitOring Checklist


      ITEM                             COMPLETED                COMPLETED BY

                                      YES   NO       N/A

30.

COMMENTS ANDIOR ACTION ITEMS




ISSUES FOR RESOLUTION




      ITEM                             COMPLETED                COMPLETED BY

                                      YES   NO       N/'
S,.
COMMENTS ANDIOR ACTION ITEMS




ISSUES FOR RESOLUTION




                                                 "1' '!(H(jSUIIHtud!rilc Vifll t,1 ,.cl:Ji ..
                                                                         1I.c.>I.rd 11 r~OO')




                               104

                                                                                              APPENDIX VIII

                   OJP’s Recovery Act Site Visit Checklist and
                            Desk Review Addendum

 Office of Justice Program's (OJP) American Recovery and Reinvestment Act (Recovery Act)
            Site Visit Checklist and Desk Review Addendum (Revised March 2010)

The American Recovery and Reinvestment Act (Recovery Act) and accompanying Office of Management and Budget
(OMB) guidance outlines management and reporting requirements for Recovery Act grant funds. Although many of these
requirements are met through OJP's standard monitoring activities, there are some -areas requiring an increased
emphasis or the development of new guidance.

The following addendum applies to both desk reviews and on-site monitoring review s , and outlines these new
requirements of the Recovery Act and associated OMB guidance. Grant managers should pay particular attention to
these items in addition to those requi red for standard desk re views and on-site monitoring w hen review ing Recovery Act
grants.

Unless activities detailed in this addendum are identified as applicable only to on-site monitoring, they should be
completed for both desk reviews and on-site monitoring visits. Additionally, please. note that this addendum is
not a substitute for the standard site visit checklist or desk review activities outlined in the Grant Manager's
Manual (GMM).

The following review elements are included in the standard Site Visit Checklist, but require increased attention for
Recovery Act grants:

        Commingling of Funds (Site Visit Check list Item 4)
               o   Additional items to check while on-site:
                           New codes for Recovery Act fu nded programs and Recovery Act transactions (e.g., ARRA­
                           BJA ; ARRA-OVW-STOP; ARRA COPS) .
                           Separate tracking of hours for a position funded partially w ith Recovery Act dollars.
        Subgrantee Monitoring (Site Visit Checklist Items 7 and 13)
               o   Additiona l items to c heck while on-site:
                           Ve rify that subgrantee award documents or subcontracts include Recovery Act requirements
                           such as : CCR registration ; Buy American , if applicable; and Wage Rate, if applicable.

This addendum must be completed and uploaded to GMS for site visits and desk reviews of Recovery Act
grants . To upload to GMS:
    1. Log onto GMS and click the "Grant Monitoring" tab.
    2. C lick "Grant Monitoring File" from the menu on the left side of the screen.
    3. Select the grant from the list, or use the search function to locate the grant.
    4. Attach the completed Addendum following the appropriate steps for a desk review or site visit.
            o   For site visits :
                         Select "Attachments" from the menu to the left of the screen .
                         Upload the completed addendum to this location.
            o   For desk reviews :
                         Select "Desk Reviews" from the menu to left of the screen .
                         Select the appropriate "Desk Rev iew 10" from the menu, or create a new desk review and enter
                         the date on which the desk review w as completed.
                         Upload the completed addendum under "Supporting Documents ."

                                                  Grant Information
Type of Review                                               D   Desk Review                   D    Site Visit

Grantee Organization(s):                                     Grant Number(s):


 Date of Desk Review/ Site Visit Start and End Dates:        Desk Review/Site Visit ID Number:




                                                                               FY 2010 Recovery Act Site Visit and Desk Review Checklist
                                                                                                                         Revised 3/2010



                                                           105

      ITEM                                                                                 COMPLETED                       COMPLETED BY

                                                                                        YES          NO         'N/A

".    Check that the grantee and subgrnnlees have complied w ith Recovery
      Act fep::lrtifl;l requirements under Section '512 of the Recovery Act.
COMMENTS ANDIOR AC:TION ITEMS




ISSUES FOR RESOLUTION




GUIDANCE

•   Recovery Act section 'J 512(c) provide<;;
    (c) Reclpienl Reports· NOllater than 10 days ilfl!!r the end of each ca l!!ndar quarterl each reCipient ttlal recetVed recovery
    funds from a Federal a~lency shall submll a report al 'WWN Fe deralReoortln Si QOV
•   Prior 101M site vlsil and during a desk revfew. determine whethe r the grantee has submittecl quarterly reports on the
    use of funds (In aCCQr(~nce With the reporting requirements and data elements at http://federalreportlng.gov)liste<!
    above no later than len calendar days after each calendar quarter
•   W h at t o look for in   iI   Secti on 151 2 (c) Report:

        ·    Verify that aw;ard numl)er reported by the grantee matches the GMS grant number

        ·    Verify that ttle award date matches the award document.

        ·    Verify that ttle recipient is reportmg c umulative data as directed in tM Recovery Act, except lor tile JObs data
             which should be reported quarteliy rather than cumulatively.
        •    Project Sta tus 15 proportlonale to the number or rnonths a project has been ope ra t[1"I!~ and/or the actIVity stated
             In the progres:; reports




                                                                                    ~v ~ijLU   1\t<o,·ay ACt :>.1< Villi IIIId Dtiik ft<vk.. CI,od:Jiil
                                                                                                                                       Rcv'se.lJI'2()IO




                                                               106

             Project NamefTitle matches the project name on the award document
             Award Descn~~ion reflects the goals and o~ectives In the application
             Activity Co:xies accurately deSCribe the project A list of recommended Activity Cocte.s can be found In the
             document enti11ed Activity Ca:Jes aTKl CFDA Numbers posted on the OJP Recovery Act Recipient Reporting
             web page, bnJ,)'/twww oip govJrecovery/pclfSklctcodecfdanumbeIs,pdf
             CFDA number is accurate. CFDA codes can be found in the document identified alXlVe
             Infrastructure (jata fields accurately reflect the project, ff applicable.
             Expenditures proportionate to the number of monthS a project has been operating.
             Expenditures proportionate to the total Federal funds receivedlifNoiced

             Est rmated Job number isand Retention
             Reporting job Creab-   Q'I calculated
             Programs, Office on Violence Against
                                                     ~:1~2';;~~~i~'!:i'~tn~~e:~~~
                                                              ,                                                      document
                                                                                                                                    """
             posted 011 the OJP Recovery Act Recipient Reporting web page,
             http/fwwwolp govfrecovery/Qdl'S/calculaling and reporting lob Cleal10n -and feter~
             Estimated job number appears reasona~e and consiste nt with other project- re lated data, including PeMmel
             and Contractor (for on -site contractors) categories of the OCFO approved budget w()rksheet and narrative,
             description of activities performed in progress reports , expenditures and outlays reported in financial reports ,
             and information gathered dunng substantia l commu nication.
             Jobs dala should be consistent:
                  o Between the "Number" and ' DeSCription of jobS created" fieldS-the numbers should match,
                  "  With tlle reported activities of the grant-a major construction project should teport jobs In line with
                     that sort of effort
                  :. With Ihe grant award amount-tligh dollar projects should generally have larger numbers of Jabs and
                     vice vr~rsa .
                  o Additiona l considerations.
                              Grantees must report all jobs ruOOeo bV Recovery Act funding-whE!lhercreated, miained, or
                              existing.
                              Overtime, paid leave, and all other compensated time should be included in the Job
                              calculation.
                              Jobs must be calculated using the OMS calculation, reported as FTEs, and should have
                              evidence the jobs were calculated appropriately.
                              Prime recipient grantees must report jobs for all subrecipients.
                              Grantees should use the DOJ Job categories (Admlrv'HR, Law enforcement, etc.) to describe
                              the ll reported jObs;,
                              On-site contract worke rs are to be included In the reported jobs.
                              Indirect jobs resulting from purchases, etc, are not 10 be repo rted
                              The number of subgrantees matches the ir application and/o r program requirements rr
                              applicable.

•   Are al'li existing Il'laccuracies in reported data still posted?
    'l W'hat steps (i f any) have been taken to remedy the inaccurate data?
•   If reports were late,   w~ial   was the cause?
    o What steps (If any) have been taKen to remedy the late reporting?
•   If the grantee has delegated responsibility for reporting 10 one or more first-tier subgrantees:
    o    Is the delegatfon documented?
    o    Are subgrantees w ith delegated responsibi lity complying wilh the above guioance?
    o    Note: Responsibility for reporting on job crea tion cannot IX! delegated.


In addition to the Items above, the following shOUld be addressed as part of an on-site mc,nitoring vlsi1:
•   Iden tify whelher an automated or manual system is used l or data collection. Is the method Clf process for collecting
    data centralized, organized, and consistent?

                                                                  J

                                                                                     F Y~O L O KOCQ'ay   ACt Sil!~ V;1I1111,d1J(sk Review (j,od;J;it
                                                                                                                                    II.tv'std J t.WL O




                                                           107

•   Did the grantee experi'2nce any difficu~ In reporting actuals because of the repo{1:ing timefmme?
•   Does tniS' grantee anticipate needing to update prior reports or lise estimated data (for elemElnts other than job
    creation oata) In the fu ture?
•   When on-site, review and verify documentation sUpPOrting all reported data_ Documents re,..iewed should provide
    eviderce that
    o    Createdlretained/e,xlsti!"(;l positions and overtime hours are funded by Recovery Act awards,
    o    Recipients are   reportl~     only ttle hours worked In the current reporting period,
•   Recommended documentation to reView'
    (l   Created Jobs: Per OM8 M-10-08, "a job created is a new position created and filled, or an eXisting unfilled
         IX'sition that is filled, that is funded by the Recovery Act." Grant managers should reviev.'
             Old and new orgl!lnlzational oharts
             Staffing lists
             Timecards arxj payroll records
    o    Retained Jobs: Per OMS M-10-08, ' a Job retained;s an existing position that is nowfurded by the Recovery
         Act · Grant manag ers should review :
             Minutes 01 forma l meetings where official budget decisions are made
             Timecards arltt payroll records for hours funded by the Recovery Act
             Employee     aclr~ity   reports
    f1   Overtime
             Timecards al"(j payroll records for hours funded by the Recovery Act
             Employee activity reports
'For additional guidance 011 recipient reporting ~ease go to the OJP Recovery Act Website bt!j;!}Mw'w olp goy/recovery




                                                                                     ~y ~ lj l u   Kt<O,·<ry A<I S'l< V!lIllIIIdDtsk Review 1'1,ed;Jiit
                                                                                                                                      Itcv'std Jt.WI O




                                                             108

          ITEM                                                                       I      COMPLETED                    COMPLETED BY

                                                                                       I I
                                                                                     , YES          NO        'NIA
          Determine whether the grant program(s) being monitored prohibit
A2.
          suppjanting.
COMMENTS AN DIOR ACTI ON ITEMS
                                                                                     I I I



ISSUES FOR RESOLUTION




GUIDANCE

•     Supplanting : General Definltion For a State or unit of local government 1 reduC(! State ol'lOcal f\JndS for an activity
                                                                                      0
      specifically because federal funds are available (or expected to be available) 10 fund that same actiVity When
      supplanting Is not perr,nitted, federal funds mlJSt be used to supplement existing State or local funds for p.'"ogram
      actiVities and may not replace State or local funds Ihat have been appropriated or allocated for the same purpose,
      Additionally ; federal funding mOlY not replace Slate or local funding that is required by law. In those Instances whe re a
      question of supplantlr1\l arises, the aPPlicant or grantee will be reqUired to substantia te that the reduction In non-
      federal resources occurred for reasons other Ihan lhe receipt or e)(pected rece ipt of federal funds
•     The following programs prohibit supplanting:
      0    Recovery Act: Ed.Yard Byrne Memorial Justice Assistance Grant (JAG) Formula Program : State Solicitation
      0    Recovery Act: Ed.Yard Byrne Memorial Justice Assistance Grant (JAG) Formula Program: Local Solicitation
      0    Reoovery Act Corfl=ctlonal Facilities on Tribal Lands Program
      0    Recovery Act ave FYOO VOCA Victim Assistance FOimula Grant Program
      0    Recovery Act ave FYao VOCA Victim Compensation Formula Grant Program
      0    ReOOllelY Act: National Field-Genera ted Training, Technical AsSistance, and DemollStrnt~on Projects ("VOCA
           discretionary grant~;')
      0    Recovery Act' Tribi::11 Crime Data Collection, Analysis and Estimation ProJecl
•     Due to tne difficult natllfe 01 determining whether supplanting has taken place, the grant maloager shOuld contact the.
      OIfice of the Chief Fif)!l(lciat Officer if lhe~ suspect su~lanti!:!9 In an~ of tile above. er~rams;.




                                                                 ,
                                                                                   ~v ~{tLU   1\t<Q'·<ry ACt :>01< Vlll1 l1nd Dtsk Revi"" (j,ed.:Jill
                                                                                                                                    Rcv'se.lJt2()IQ




                                                           109

          ITEM                                                                         I     COMPLETED                   COMPLETED BY

                                                                                       , YES     I I NO        'NIA

A3.       Check Special Condition      Umit on Funds (Section 1604)
                                                                                       I         I         I
COMMENTS ANDIOR AGTION ITEMS




ISSUES FOR RESOLUTION




GUIDANCE
•     Section 1604 of the Re(:()Vf:!ry Act provides:
      None of the funds appropriated or otherwise made available in this Act may be used by any Stille- or local government. or
      any private entity, for any casino or other gambling establishment, aquarium, zoo, galt' cours.e, or swimming pool
•     Prior to a site visil and during a desk review , e)(amine progress reports, financial reports, etc, lor any indlcatfon that
      funds have not been directly used for eonstruction costs or support 01 the establishments listed aboVe.
      0    Below are scenarios involvlng ' suppolf' of these establishments:

           ·     A mentorlng program plans to take a group of youths to spend the day at a community pool The program
                 may pay for transportation to and from the pool using Recovery Act funding , but may not pay any pool
                 entrance fees .

           ·     A conference Is being held al a holel containing a casino Each guest receives $10 in complementary gaming
                 chips lor slaying at the hotet, In this scenario the value 01 the chips mlJ5t be dedu<:;~~d lrom any
                 reimbursement for the room using Recovery Act fundJng (e)(: if the room cost was $~~O for the length of the
                 conference, $190 could be paid for using Recovery Act fund ing)

           ·     A conference is being held at a hotel conta ining a pool. Use of tile pool is Included In the room rate for the
                 hotel. In this C'3se there IS no restriction on the use of Recovery Act funds, since there 15 not a separate
                 usage fee for the pool.

           ·     A slale has been awarded Recovery Act funds through the Byrne Justice Assistance Grant (JAG) Program,
                 and wants to ~1Se a portion of the fullds to Install surveillance cameras at a local golf course to discourage and
                 prevent vandalism, ThiS equipment would aid in prOViding secunty for lhegolf course, and as such is
                 prohibited under the Recovery Act

           ·     A state has been awarded Recovery Act funds through the Byrne JAG Program that has been used to
                 s~~~rnent overtime Q!:!~ for ~Iice officers.
                                                           On the night of a lar~ boxing match at a casino additional
                                                                   ,
                                                                                     ~v ~{tLU 1\t<Q'·<ry ACt :>.1< Vlll1l11ldDtsk   Revi"" CI,ed.:Jiil
                                                                                                                                     Revlse.lJt2()ro




                                                            110

             officers are requested to provide securily The oyenln)e paid 10 any officers working mls event must not be
             paid uslflg Recoyery Act funds sirce it is being held al a casino_


In addition to the items above, the following s ho uld be addressed as part of an on-site monitoring visit:
•   If mere are any concerns that arise while on-site based on initial questions. the grant manager should request lists 01
    expenditures for the project in question and/or contact his or her supervisor,
•   Recommended documemation to review'
        o    Progress reports,
        o    Financial reports
        o    Receipts
        (I   Project summmies
        o    Conference 3£Jendas and/or brochUres




                                                             7


                                                                               ~v ~ {t I U   Ilt<"·,ay Atl S.l< Villi IIIIdDCsk Review (j,ed.:Jiit
                                                                                                                                 Itcvfjed Jt.WIQ




                                                       111

        ITEM                                                                              I     COMPLETED                     COMPLETED BY

                                                                                          , YES      I NO I 'N/A
        Check Special CondlliOl'l- lnfrastrueture Investment {S<l(:l!cn 1S11 )SpeCial
A4.
        Condition - Preference for QUick Start Activities (Seellon 1602)
COMMENTS ANDIOR AC;TiON ITEMS
                                                                                          I I I



ISSUES FOR RESOLUTION




GUIDANCE
•     Section 1511 of the Rt~very Act provides:
      With respect to covered fundS made available to State or loca l governments forlnfraslructun~ inOJestments, the
      GQ\lernar, mayor, or clher chief executive, as appropriate, shall certify that the Infrastructure Investment has received
      the ful l rev iew and w tt lng required by law and that the chief executive accepts responsibi lity that the infrastructure
      investment IS an appropria te use of taxpayer dollars, Such certification shall include a description 01 t he Investment,
      the esllmated lolal cos t, and Ihe amount of cO\lel ed funds 10 be used, and shall be posted on a website and linked 1      0
      the website establishe,j by section 1526. A Stale or local agency may not recewe Infrastructure Investrl'lent fundi~
      f rom fu nds made 1 allable In this Act unless Ihls certification IS made and posIe(t
                           w
•     Section 1602 of the   R ~~overy   Act provides:
      In using funds made aVailable in this Act for infrastructure Investment, recipients shall give p reference to activities that
      can be started and competed expedjtlously, Includli""g a goal 01 using at least 50 percent of the funds for activities that
      can be initiated not l1!tm Ihan 120 days after the date of the enactment of Ihis Act Recipie nhi shall a lso use grant
      funds In a manner that maXimizes JOb creation and economic benefit.
•     As a general gUideline , OOJ defines infrastructure as p roject requiring ' bricKs and mortar: trIal IS, projects resulting in,
      or directly and s ubstar.~la lty affecting, a tangible pttyslcal structure; or other similar construction, repair, or major
      renovabon projects.
          0    Projects that n~qu l re review under appllcalje E!fNlfonmentallaws (e .g., NEPA) are III<ely to be considered
               infrastructure.
          0    Infra structure examples include;

                            ·   buildj~ or renovating a correctional facility,

                            ·
                            ·
                                buildi~   a roa d,
                                mOdify1rQ the exterior of a buildlrQ, and


                                                                   •
                                                                                        V ~ij L U 11.«<>"<1}" ACI S.l< Villi IIIId Dtlik Review CI,ed:JiiI
                                                                                         y
                                                                                                                                         !l.Cvfje.lJ I'2()I Q




                                                            112

                               mooifyll'lg the purpose of a bUilding through major renovation
    Has the graniee subm.itted a certrficallOn fo r any Infrastructure ilweslmenls?
•   Did the grantee use 50% of the funds for activities tllat were initialed for Infrastructure no lalm than 120 clays after the
    date of the enactment of the RecO'lery Acl (June 13. 2oo9)?
In addition to the items a bove, the follow ing should be addressed <IS part of an on-site mc.nitoring v isit:
    Can the grantee certify that preference for Infrastructure investment projects has been given to activities that can be
    started arK:! completed expeditiously. and nave used award funds In a manner that ma)(lrniZe;S jab creation and
    economic benefits?

    Recommended oocurr:rentatlon to review;
        eo   Infrastructure Gertification
        eo   Project schedules for Infrastructure projects




                                                               ,
                                                                                 rv ~{t I U I\t<"" ay ACI S.l< Villi IIIIdDtsk Revi... (j,ed.:JiM
                                                                                                                                II.cvfjed J t.Ull Q




                                                         113

          ITEM                                                                              I     COMPLETED                     COMPLETED BY

                                                                                              I I 'N/A
                                                                                             , YES        NO

A5.
          Check Specil!ll Condition - Buy American Act

COMMENTS AN DIOR AC TION ITEMS
                                                          (Sl!c~on   1605)
                                                                                            I I I



ISSUES FOR RESOLUTION




GU IDANCE
Activities <l5sociated with this guidance apply only to on-site monitoring visits.
·   S ection 1605 of ttl!! Recovery Act provides '
      Use of American Iren , E~&el, and Manufactured Goods. (1:1) None of the fundS i:lpproprialed or oth,eMtise made ava ilable by
      this Act may be used fora project for the construction , a lteration .. maintenance, or repair of a public build ing or public war!<
      unless all of the iron, steel. and manufactured goods used in the project are produced in the Unltod States.
      D    Public work Is defined In 2 CF R 176 140

·     OOJ may ilpprove a WilNer te the Buy American provision leI the following rea 50nS"
      0     Non-availability
           ·    Ircn. steel, or mlevan t manufactured goods nel produced or manufactured in the United States In sufflcrent and
                reasonably ava ilable commercial quantitie$ 01 a satisfactory qUality, o r
      >   Unreason able cost

           ·    Cost of domestic iron , stee l, or relevant manufactured goods wi ll Increase the cost of the overall project by more
                than 25 percent
      0   Inconsistent wilh public interest

•     ,
           ·    Application of II,e restrictions of Section 1605 of the Recovery Act would be Inconsistent with public interest
      When a waiver r5 submitted, the Office of General Counsel (ClOG) wi ll make determrnations l or Buy Amenc'ln
          Forward ilil walwr requests to OGC as soon as the request is submitted.
      ,   If a Wil I\ler request is approved, ooJ w ill publ ish a detailed, written jusllfication as to why Ihe prov rsioJ! IS being waived
          in ttle Federal Regi'iter .

·     Any questions re lated to the Buy American Act should be. forwarded to OGC




                                                                       10


                                                                                          rv ~ {t L U Kt<"·,ay ACt 5.1< Villi IIIIdDtsk Revi ... (j,ed.:Jiit
                                                                                                                                         Kevfjed Jt.U)IO




                                                               114

          ITEM                                                                         I     COMPLETE.D                   COMPLETED BY

                                                                                           YES    I I NO         NIA
                   SPfldal ConditiOn Wag .. Re-quirements (Section 1606)
AB.
          Ctlec~
                                                                                       I          I          I
COMMENTS ANDIOR AGTI ON ITEMS




ISSUES FOR RESOLUTION




GUIDANCE

•     Section 1606 of the Recovery Act provides:
      Notwithstanding (lilY other provision of law <lnd in a manner consistent with other provisions in this Act. a ll laborers <100
      mecharuC5 employed bl' contractors ilnd subcontractors on pro/!!Cts funded directly by or assisted In whole or In part by and
      through the Federal Government pursuant to this Act shall be paid wages at rates not less than Ulose preva llmg on projects
      of a character similar in Ihe loca lity as determined by the Secretary of labor in accordance with subch apter IV of chapter 31
      of title 40. United State~, Code. With respect to the labor standards spec'~jed in Ihls section, the Secretary of Labor shall
      hilve the authorlty and functionS set forth In Reorganil-ation Plan Numbl!red 14 of 1950 (64 stat 1267; 5 u .S,C. App.j and
      section 3145 of title 40, United Statss Codl!
•     Has the grantee Included the standard Davis·Bacon contract clauses (found In 29 CFR 5.5(el)) In any covered
      contracts made urxler thiS awa rd that are In e)(cess of 52,000 for construction, alteration or repair \Including painting
      and decorating)?
      0     If the grantee has ootlnclUded these clauses and thiS IS an on-site monitoliny VISit , the \;Ifan! manager should

           .e:<aminl!

           .     if the grantee ,lware of U'le requirements under Section 1606•
                 if Ihe grantee Gan certify that II has revIewed liS contacts to ensure that all laborers 2100 mechanics employed
                 by contractors and sutx:on!ractOfS on projects funded fully or ~rtlally by Recovery P,ct funds paid wages at
                 rates not less than those prevailing on projects of a character Simila r In the locality.

In addition to the items a bove, the following should be addressed as part of a n on-site mclnitoring v isit:
•     Recommended docurnemation          to   rev]ew
      a  Job postings
      a    Qfl'er letters
      a    Timecards
      v    Payrorl records
      v    Local prevailif1(J w ages at Wage Determinations Online (http:IMv.<wWdol,govl)

                                                                  II


                                                                                     ~v ~{tLU Ilt<",,<I}' ACt :>'1< Villi IIIldDtsk   Revi ... (j,ed:Jiit
                                                                                                                                        KcvfjedJ t.WIQ




                                                            115

          ITEM                                                                         I      COMPLETED                    COMPLETED BY

                                                                                        'YESINOINIA
          Check Special Condition - NalIona l Environmental Policy Act {Section 1609) 1
A7.                                                                                               I          I
COMMENTS ANDIOR ACTION ITEMS




ISSUES FOR RESOLUTION




GUIDANCE
Activities il5S0l; iilted with this guidan ce apply onl y to on-site monitoring visi ts.
•     Section 1609 of the Reeovery Act provides:
          0    The National ErwirOllmenlal Policy Act (NEPA) protects public health , safety, and environmenta l quality by ensuring
              !ha Ifansparenc;v, accountability, and Pll~ic in ... olvement i n federal actions and ,n the lJS~1 of publio fUllds,
           ,   The NEPA helps to proWls an orderly process for con sidering federal action and fundin~1 decisions, and prevents
               ligat,on and delay that would othe!W1S8 IJe ineliltable and eJ\.isled priof to the estabHshlJlenl of the NEPA:
          0    Adequate reSCiurces w ithi n this bill must be devoted to ensuring that applicable envwonmental reviews under
              the N!:PA are completed on an expeditious basis, and that the shortesl existing Hppllc~ble process under
               NEPA sMIl be utilized,
•     If OJP funds will be used lor major renovation projects or any ~w construction, or programs· Involving the use of
      chemicals or any other activity, including research and techno logy developrnen~ that may helve an effect on the
      environment, grant managers should ensure:
                 that the flJndlng recipent provides a full description of proposed project activities to OJP, and ~n
           "     Environmental AsSessment (EA) is prepared, and
           0     prior to allowing a reclpjent to spend OJP fundS for such a proJect, QJP must make ilfindIng that the prOject
                 does not signifi cantty affect the environment, and that ful1her environmental analysl~; IS not necessary


•     Recommended documentation to review
      >    Proposed project description in the grant application,
      >    En ... ironmental As~;essment, andlor
      0    AdditKlflal documentation on erwlronmenlal assessments, IlTlpact analyses,         ~,




                                                                   "
                                                                                     FY ~{tLU 1\«,," <1}' ACt :>.1< VillI IIIIdt:ltsk Revi ... (j,edUiil
                                                                                                                                       lI.evfjedJt.!()IO




                                                            116

            ITEM                                                                       I   COMPLETE.D
                                                                                                  I I
                                                                                                                       COMPLETED BY



    .
                                                                                       • YES         NO       NIA

~
            Justice Ass]starJ(';e Grant (JAG) Special Condition - Trust Fund

COMMENTS AND/OR AGTION ITEMS
                                                                                       I I I



ISSUES FOR RESOLUTION




GUIDANCE
        •    Did the grantee establish a trust fund account?
        •    Is the principle of funds being maintained, i e are JAG funds only being aPPlied towards prior approved costs
             and/or actlvities?




                                                                  13

                                                                                  rv   ~{tIU   Mc",<I}' ACt S'IC Vliil Imllks!: {«vin. CI,ed:Jiu
                                                                                                                                 lI.evise.lJf20w




                                                            117

                                                                                 APPENDIX IX

 Office of the Associate Attorney General’s
     Response to the Draft Audit Report

                                                u.s.   Department of Justice

                                                Office of the Associate Attorney General




                                                Rlishington, D.C. 20530


                                                March 4, 2011




MEMORANDUM TO:                Cynthia A. Schnedar
                              Acting Inspector General
                              United States Departtnent of Justice

THROUGH:                      Raymond J. Beaudet
                              Assistant Inspector General for Audit
                              Office of the Inspector General
                              United States Department of Justice

FROM:                         Thomas J. Perrelli ~
                              Associate Attorney General

SUBJECT:                      Response to the Office of the Inspector General's Draft Audit
                              Report, Office of Justice Programs' Monitoring and
                              Oversight of Recovery Act and Non-Recovery Act Grants

This memorandum provides a response to the Office of the Inspector General's (OiG's)
February 10,2011 draft audit report, entitled Office of Justice Programs' Monitoring and
Oversight of Recovery Act and Non-Recovery Act Grants.

The Office of the Associate Attorney General has reviewed the draft audit report and
concurs with Recommendation I cited by the OIG. The Office of the Associate Attorney
General will continue to pursue efforts to standardize the oversight services provided by OJP
to the Office on Violence Against Women and the COPS Office.

As you are aware. the Office of Associate Attorney General meets bi-weekly with the
grant-making components to address various grant-making issues. In 2011, we are focused
on developing a Department-wide, on-line financial training tool for Department of Justice
grantees, in partnership with the OIG. We will also work on developing internal training for
the Department-wide High Risk Grantee Designation Program.

Thank you for your continued support and assistance. If you have any questions regarding
this response. please contact Karol V. Mason, Deputy Associate Attorney General, at
202-514-0624.




                                           118

cc:   Karol V. Mason
      Deputy Associate Attorney General
      Office of the Associate Attorney General

      Laurie O. Robinson
      Assistant Attorney General
      Office of Justice Programs

      Mary Lou Leary
      Principal Deputy Assistant Attorney General, OJP

      Phillip K. Merkle
      Acting Deputy Assistant Attorney General
       for Operations and Management, OJP

      Maureen A. Henne berg
      Director
      Office of Audit, Assessment, and Management, OJP

      Leigh Benda
      Chief Financial Officer, OJP

      Jeffery A. Halcy
      Deputy Director, Audit and Review Division
      Office of Audit, Assessment, and Management, OJP

      Richard A. Theis
      Assistant Director, Audit Liaison Group
      Justice Management Division




                                           2




                                        119

                                                                                  APPENDIX X

OJP’s Response to the Draft Audit Report

                                                  u.s. Department of Justice
                                                  Office of Justice Programs




                                                  Wa.l'hingwn, D.C 20531




MEMORANDUM TO:                Cynthia A. Sehnedar
                              Acting Inspector General
                              United States Department of Justice

THROUGH:                      Raymond J. Beaudet
                              Assistant Inspeetor General for Audit
                              Office of the Inspector General
                              United States Department of Justice

FROM:                         Laurie O. Robinson             6~
                              Assistant Attorney General    c.<~
SUBJECT:                      Response to the Office of the Inspector General's Draft Audit
                              Report, Office ofJustice Programs' Monitoring and
                              Oversight of RecovelY Act and Non-Recovery Act Grants

This memorandum provides a response to the Omce of the Inspector General's (OIG's)
February 10, 2011 draa audit report, entitled Office of Justice Programs' J\Joniloring and
Oversight (~rRecovery Act and Non-Recovery Act Grants.

The Oftlce of Justice Programs (OJP) has reviewed the draa audit report and concurs with
all of the recommendations cited by the OIG. Corrective actions for many of these
recommendations were initiated prior to the rclease of this report. OJP has proposed
attainable corrective actions in response to each of the recommendations, and is contldent
that the implementation o[these corrective actions will further strengthen OJP's monitoring
and oversight of Recovery Act and Non-Recovery Act grants.

The draft audit report contains 13 recommendations and no questioned costs, of which
Recommendation Numbers 2-13 pertains to the OJP. For case of review, these
recommendations are restated in bold and arc followed by OJP's response.




                                          120

2.   We recommend that O./P update the OJP Program-Specific Plan for
     Management of Recovery Act Funds to cnsure that all Recovery Act funding is
     identificd in the plan and that the funding identified in the plan ties to the
     funding identified in the Department of Justice's Agency Plan for Management
     of Recovery Act Funds.

     The Office of Justice Programs agrees with the recommendation. OJP will revise the
     OJP Program-Specific Plan for Management of Recovery Act Funds to ensure that
     all Recovery Act funding is identified in the plan, and that OJP funding ties to the
     funding identified in the Department of Justice's (DOl's) Agency Plan. OJP will
     provide its proposed revisions to DOJ and the Office of Management and Budget for
     approval by April 30, 20 II, with expected release ofthc update on June 1,2011.

3.   We recommend that OJP revise OAAM's Post-Award Performance and Risk
     Management Plan to include reference to the Office on Violence Against
     Women's comparable plan.

     The Office of Justice Programs agrees with the rccommendation. OJP's Omce of
     Audit, Assessment, and Management (OAAM) will revise its Post-Award
     Performance and Risk Management Plan to include reference to the Office on
     Violence Against Women's comparable plan by March 31,2011.




                                           2




                                       121

4.   We recommend that O.IP consider removing as much of the sUbjectivity as
     possible from the site visit report rating system by defining what percentage
     scores arc needed to make the report a quality report.

5.   We recommend that OJP revise OAAM's system for rating site visit reports to
     ensure more consistent and understandable ratings.

6.   We recommend that O.IP revise the guidelines for OAAM's Site Visit Report
     Quality Review Process to explain what actions OAAM will take to address the
     deficiencies in each report reviewed, as well as the actions that OAAM will take
     to minimize such deficiencies system-wide for future site visit reports.

7.   We recommend that OJP revise the guidelines for OAAM's Site Visit Report
     Quality Review Process to require that program office and bureau grant
     managers support their site visit findings hy the completed Standard Site Visit
     Checklist and the Recovery Act Site Visit Checklist and Desk Review
     Addendum, as applicable.

     The Omce of Justice Programs agrees with Recommendations 4-7, which relate to
     OAAM's quality review process for site visit reports. In January 2010, OAAM
     developed a draII fiscal year (FY) 2009 Site Visit Report Quality Review Process,
     and requested that the OIG review and provide feedback to OAAM on this
     document. In turn, OAAM concurrently piloted the FY 2009 Site Visit Report
     Quality Review Process and found that grant managers typically did not maintain
     adequate documentation to support the work completed during on-site monitoring,
     and written narratives included in the site visit reports were often incomplete.

     Consistent with the feedback it received from the 010, OAAM determined that these
     exceptions were partially due to the lack of an OlP requirement to maintain the
     Standard Site Visit Checklist as support for conclusions made during the site visit.
     In April 2010, OAAM revised the instructions for the FY 2010 Standard Site Visit
     Checklist to require O]P grant managers to maintain and upload the checklist to
     OJP's Grants Management System (OMS), as documentation to support the site visit
     findings.

     OAAM is currently working with the DO] Monitoring Working Group to make
     further revisions to the Standard Site Visit Checklist. Once these revisions are
     completed, OAAM will revise the Site Visit Report Quality Review Process to
     address the following OIG suggestions: removing as much subjectivity as possible to
     the site visit report rating system by incorporating percentage scores; modifying the
     rating system to ensure consistent and understandable ratings; determining what
     actions OAAM will take to address identified deficiencies in each site visit report,
     and how it will minimize systemic deficiencies in future site visit reports; and
     ensuring that OAAM's guidelines ret1ect requirements that findings identified during
     site visits are adequately supported by completed checklists and additional
     documentation. OAAM expects to have the Site Visit Report Quality Review
     Process finalized by September 30, 2011.


                                           3




                                       122

8.    We recommend that OJP revise the instructions for the Standard Site Visit
      Checklist to make it elear that the grant managers are required to maintain
      documentation to support answers to the checklist questions.

9.    We recommend that OJP determine the level of documentation that grant
      managers should produce to: (1) satisfy OAAM that the Standard Site Visit
      Checklist qucstions are appropriately answered, and (2) cnable OAAM to
      reproduce the results found by the grant managers. Then, explain in the
      checklist the level of documentation needed to support each checklist question.

10.   We recommend that OJP develop elear and specific methodologies for how each
      step in the Standard Site Visit Checklist should be completed.

11.   We recommend that O.JP revise the Standard Site Visit Checklist instructions to
      require supervisors to review and verify that the grant managers completed the
      checklist in accordance with established steps and that the report facts are
      supported by the checklist.

12.   We recommend that O.JP revise the Standard Site Visit Checklist to contain the
      key steps that need to be answered and that can be reasonably completed within
      the limited time available to complete the site visits. In addition, include
      guidance in the checklist on the expected time frame for completing the on-site
      monitoring.

      The Ollicc of Justicc Programs agrccs with Rccommendations 8-12, which relate to
      revisions and improvements to the OJP Standard Site Visit Checklist. In April 20 I 0,
      OAAM revised the instructions for the FY 2010 Standard Site Visit Checklist to
      require grant managers to maintain and upload the checklist to GMS, as
      documentation to support thc sitc visit findings.

      As previously indicated, OAAM is working with the DOJ Monitoring Working
      Group to make further revisions to the Standard Site Visit Checklist, based on the
      suggestions made in the OIG audit. Once the Standard Site Visit Checklist is
      finalized, OAAM expects these revisions will include clear guidance on: the level of
      documentation OJP grant managers will be required to provide in order to support
      each checklist question; how to complete each question, as well as the suggested
      documentation to review during the site visit to support the finding; and the
      requirement for a supervisory review and verification of the checklist, as part of the
      site visit package approval process.

      OAAM will also establish guidance on the expected time frame for completing a site
      visit with average complexity. OAAM expects to have the revised Standard Site
      Visit Checklist completed by June 30, 2011. During the fourth quarter ofFY 2011,
      Oi\AM plans to pre-test the Standard Site Visit Checklist, by involving select OJP
      grant managers. Upon completion of the pre-testing, OAAM expects to roll-out the
      revised Standard Site Visit Checklist for FY 2012, by September 30, 2011.


                                             4




                                         123

13.   We recommend that OJP ensure that the OCFO's final FY 20ll Financial
      Monitoring and Technical Assistance Plan clearly describes the methodology
      used to selec! the grants for monitoring, and that the OCFO maintains
      documentation to show that the grants were selected in accordance with the
      approved methodology.

       The Omce of Justice Programs agrees with the recommendation. In December
       2010, OJP's Office of the Chief Financial Omcer (OCFO) finalized the FY 2011
       Financial Monitoring and Technical Assistance Plan (Plan), which includes a
       detailed description of the methodology used to select DOJ grants for financial
       monitoring (see Attachment 1). As part of the Plan, the OCFO developed a risk
       assessment model for DOJ grants, which accumulated scores by grant and grantee,
       allowing for selection of grantees and grants for financial monitoring based upon
       overall assessed risk. The risk assessment takes into account various financial and
       programmatic attributes for each grant. In addition, the OCFO maintains a copy of
       the source data files used in the risk assessment, as well as a comprehensive database
       with the scores by attribute. grant, and grantee. This database is also used to track
       the grantees and grants selected for financial monitoring, and to track the actual
       tinancialmonitoring results compared to the original plan. The Omce of Justice
       Programs considers this recommendation closed and requests written acceptance of
       this action from your office.

Thank you for your continued support and assistance. If you have any questions regarding
this response, please contact Maureen A. Henneberg, Director, Office of Audit, Assessment,
and Management, on (202) 616-3282.

Attachment

cc:    Mary Lou Leary
       Principal Deputy Assistant Attorney General

       Phillip K. Merkle
       Acting Deputy Assistant Attorney General
         for Operations and Management

       Maureen A. Henneberg
       Director
       Office of Audit, Assessment, and Management

       Leigh Benda
       Chief Financial Omcer

       Jeffery A. Haley
       Deputy Director, Audit and Review Division
       Office of Audit, Assessment, and Management



                                              5




                                         124

cc:   Richard A. Theis
      Assistant Director, Audit I ,iaison Group
      Justice Management Division

      Karol V. Mason
      Deputy Associate Attorney General
      Office of the Associate Attorney General

      OJ P Executive Secretariat
      Control Number 20110172




                                             6




                                         125

                                                              APPENDIX XI

   Office of the Inspector General Analysis and Summary
          of Actions Necessary to Close the Report

      The Office of the Inspector General (OIG) provided a draft of this audit
report to the Office of the Associate Attorney General and the Office of
Justice Programs (OJP). The Office of the Associate Attorney General’s
response is incorporated in Appendix IX of this final report and OJP’s
response is incorporated in Appendix X. The following provides the OIG
analysis of the responses and summary of actions necessary to close the
report.

Recommendation Number:

   1. Resolved. The Office of the Associate Attorney General concurred
      with our recommendation to continue to pursue efforts to standardize
      the oversight services provided by OJP to the Office on Violence
      Against Women (OVW) and the Office of Community Oriented Policing
      Services (COPS Office). The Office of the Associate Attorney General
      stated that it meets bi-weekly with the grant-making components to
      address various grant-making issues, and in 2011, it is focusing on
      developing a Department-wide, on-line financial training tool for
      Department of Justice grantees, in partnership with the OIG. The
      Office of the Associate Attorney General also stated that it will work on
      developing internal training for the Department-wide High Risk
      Grantee Designation Program, and will continue to pursue efforts to
      standardize the oversight services provided by OJP to the OVW and
      the COPS Office.

      This recommendation can be closed when we receive evidence that the
      Office of the Associate Attorney General has pursued efforts to
      standardize oversight services provided by OJP to the OVW and COPS
      Office.

   2. Resolved. OJP concurred with our recommendation to update the OJP
      Program-Specific Plan for Management of Recovery Act Funds to
      ensure that all Recovery Act funding is identified in the plan and that
      the funding identified in the plan ties to the funding identified in the
      Department’s Agency Plan for Management of Recovery Act Funds.
      OJP stated in its response that it will revise its program-specific plan to
      ensure that all Recovery Act funding is identified in the plan, and that
      OJP funding ties to the funding identified in the Department’s Agency
                                      126

  Plan. OJP plans to provide its proposed revisions to the Department
  and the Office of Management and Budget for approval by April 30,
  2011, with expected release of the approved update on June 1, 2011.

  This recommendation can be closed when we receive evidence that
  OJP revised the OJP Program-Specific Plan for Management of
  Recovery Act Funds, that all Recovery Act funding is identified in the
  plan, and that OJP funding ties to the funding identified in the
  Department’s Agency Plan.

3. Resolved. OJP concurred with our recommendation to revise the
   Office of Audit, Assessment, and Management’s (OAAM) Post-Award
   Performance and Risk Management Plan to include reference to the
   OVW’s comparable plan. OJP stated in its response that OAAM will
   revise its Post-Award Performance and Risk Management Plan to
   include reference to the OVW’s comparable plan by March 31, 2011.

  This recommendation can be closed when we receive evidence that
  OAAM has revised its Post-Award Performance and Risk Management
  Plan to include reference to the OVW’s comparable plan.

4. through 7. Resolved. OJP concurred with our recommendations to:

    	 Consider removing as much of the subjectivity as possible from
       the site visit report rating system by defining what percentage
       scores are needed to make the report a quality report;

    	 Revise OAAM’s system for rating site visit reports to ensure more
       consistent and understandable ratings;

    	 Revise the guidelines for OAAM’s Site Visit Report Quality Review
       Process to explain what actions OAAM will take to address the
       deficiencies in each report reviewed, as well as the actions that
       OAAM will take to minimize such deficiencies system-wide for
       future site visit reports; and

    	 Revise the guidelines for OAAM’s Site Visit Report Quality Review
       Process to require that program office and bureau grant managers
       support their site visit findings by the completed Standard Site
       Visit Checklist and the Recovery Act Site Visit Checklist and Desk
       Review Addendum, as applicable.

  OJP stated in its response that OAAM is currently working with the
  Department’s Monitoring Working Group to make further revisions to
                                  127

  the standard site visit checklist. Once these revisions are completed,
  OAAM plans to revise the Site Visit Report Quality Review Process to:
  (1) remove as much subjectivity as possible to the site visit report
  rating system by incorporating percentage scores; (2) modify the
  rating system to ensure consistent and understandable ratings;
  (3) determine what actions OAAM will take to address identified
  deficiencies in each site visit report, and how it will minimize systemic
  deficiencies in future site visit reports; and (4) ensure that OAAM’s
  guidelines reflect requirements that findings identified during site visits
  are adequately supported by completed checklists and additional
  documentation. OAAM expects to have the Site Visit Report Quality
  Review Process finalized by September 30, 2011.

  This recommendation can be closed when we receive evidence that
  OJP has adequately completed the above stated actions.

8. through 12. Resolved. OJP concurred with our recommendations to:

    	 Revise the instructions for the Standard Site Visit Checklist to
       make it clear that the grant managers are required to maintain
       documentation to support answers to the checklist questions;

    	 Determine the level of documentation that grant managers should
       produce to: (1) satisfy OAAM that the Standard Site Visit
       Checklist questions are appropriately answered, and (2) enable
       OAAM to reproduce the results found by the grant managers; and
       then explain in the checklist the level of documentation needed to
       support each checklist question;

    	 Develop clear and specific methodologies for how each step in the
       Standard Site Visit Checklist should be completed;

    	 Revise the Standard Site Visit Checklist instructions to require
       supervisors to review and verify that the grant managers
       completed the checklist in accordance with established steps and
       that the report facts are supported by the checklist; and

    	 Revise the Standard Site Visit Checklist to contain the key steps
       that need to be answered and that can be reasonably completed
       within the limited time available to complete the site visits; and
       include guidance in the checklist on the expected time frame for
       completing the on-site monitoring.


                                  128

    OJP stated in its response that OAAM is working with the
    Department’s Monitoring Working Group to make further revisions to
    the Standard Site Visit Checklist, based on the suggestions made in
    the OIG audit. OJP stated that once the checklist is finalized, OAAM
    expects the checklist revisions will include clear guidance on: (1) the
    level of documentation OJP grant managers will be required to
    provide in order to support each checklist question; (2) how to
    complete each question, as well as the suggested documentation to
    review during the site visit to support the finding; and (3) the
    requirement for a supervisory review and verification of the checklist,
    as part of the site visit package approval process. OJP stated that
    OAAM will also establish guidance on the expected time frame for
    completing a site visit with average complexity. OAAM expects to
    have the revised Standard Site Visit Checklist completed by June 30,
    2011. During the fourth quarter of FY 2011, OAAM plans to pre-test
    the Standard Site Visit Checklist by involving select OJP grant
    managers. Upon completion of the pre-testing, OAAM expects to
    roll-out the revised Standard Site Visit Checklist for FY 2012, by
    September 30, 2011.

    This recommendation can be closed when we receive evidence that
    OJP has adequately completed the above stated actions.

13. 	 Closed. OJP concurred with our recommendations to ensure that
     the Office of the Chief Financial Officer’s (OCFO) final FY 2011
     Financial Monitoring and Technical Assistance Plan clearly describes
     the methodology used to select the grants for monitoring, and that
     the OCFO maintains documentation to show that the grants were
     selected in accordance with the approved methodology.

    OJP stated in its response that in December 2010, OJP’s OCFO
    finalized the FY 2011 Financial Monitoring and Technical Assistance
    Plan, which includes a detailed description of the methodology used
    to select Department grants for financial monitoring. OJP stated that
    as part of the plan, the OCFO developed a risk assessment model for
    Department grants, which accumulated scores by grant and grantee,
    allowing for selection of grantees and grants for financial monitoring
    based upon overall assessed risk. OJP further stated that the risk
    assessment takes into account various financial and programmatic
    attributes for each grant. In addition, OJP stated that the OCFO
    maintains a copy of the source data files used in the risk assessment,
    as well as a comprehensive database with the scores by attribute,
    grant, and grantee. According to OJP, this database is also used to
    track the grantees and grants selected for financial monitoring, and
                                   129

to track the actual financial monitoring results compared to the
original plan.

We reviewed the OCFO’s final FY 2011 Financial Monitoring and
Technical Assistance Plan provided with OJP’s response and
determined that it clearly describes the methodology used to select
the grants for monitoring, and describes how the OCFO will maintain
documentation to show that the grants were selected in accordance
with the approved methodology. Therefore, we consider this
recommendation closed.




                             130

